<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                     JOE SKEEN, New Mexico, Chairman
 RALPH REGULA, Ohio                  NORMAN D. DICKS, Washington
 JIM KOLBE, Arizona                  JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           MARTIN OLAV SABO, Minnesota 
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                     
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 U.S. Forest Service..............................................    1
 Secretary of Energy..............................................  217

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 72-654 O                   WASHINGTON : 2001





                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abraham, Hon. Spencer............................................   217
Bosworth, D.N....................................................     1
Kashdan, Hank....................................................     1
Phillips, Randle.................................................     1
Rains, M.T.......................................................     1


                               I N D E X

                              ----------                              
                                                                   Page

                          U.S. Forest Service

Accountability...................................................     5
Aging Workforce..................................................    26
Biography of:
    Dale Bosworth................................................    13
    Michael Rains................................................    29
    Randle Phillips..............................................    18
Creating Opportunities Program...................................    45
Development of Roadless Rule.....................................    43
Domestic vs. Foreign Timber......................................    47
Energy Development...............................................    14
Environmental Analysis...........................................     6
Field Level Decision-Making......................................    45
Firefighting Preparedness........................................    22
Fish and Wildlife Service........................................    23
Forest Legacy....................................................    32
Forest Service Short Term Priorities 


Forestry Education...............................................    47
Forestry Incentive Program.......................................    26
History of Roadless Rules........................................    40
Illegal Immigration..............................................    39
Inventory and Use of National Forest Lands.......................    31
Land and Water Conservation Fund.................................    30
Listed Species...................................................    16
Maintenance Backlog..............................................    25
Mr. Bosworth's Opening Remarks...................................     3
Mr. Dicks' Opening Remarks.......................................     1
Mr. Skeen's Opening Remarks......................................     1
National Fire Plan...............................................     4
Procedural Gridlock..............................................    14
Questions for the Record:
    Accounting and Accountability................................    79
    Backlog Maintenance..........................................   176
    Biobased Products and Bioenergy Research.....................   162
    Capital Improvement and Maintenance..........................   171
    Construction and Renovation of Existing Facilities...........   164
    Environmental Compliance and Protection......................    75
    Five Year Action Plan........................................    74
    Forest Plans.................................................   124
    Forest Products..............................................    62
    Forest Stewardship...........................................   142
    Foundation Financial Information System......................    85
    From the Committee...........................................    50
    Getting Funds to the Field...................................    54
    GPRA; Performance Measures...................................   153
    Human Resources..............................................   186
    Hydropower and FERC..........................................   180
    Indirect Costs...............................................    80
    Information Management.......................................   184
    Invasive Species Research....................................   157
    Invasive Species.............................................   146
    Land Acquisition.............................................   177
    Law Enforcement..............................................   182
    Minerals, Energy Resources...................................    78
    Other Forest and Rangeland Research..........................   165
    Productivity and Carbon Sequestration Research...............   163
    Recreation: Land Between the Lakes...........................   129
    Recreation: Public Usage.....................................   133
    Recreation: Recreation Fee Demonstration.....................   126
    Recreation: Special Use Permits..............................   132
    Research and Development of the National Fire Plan...........   156
    Roads Policy and Road Conditions.............................   174
    State and Private Forestry...................................   188
    Timber Salvage Sales.........................................    74
    Trust Funds and Certain Permanent Appropriations.............   181
    Vegetation Management and Forest Health......................   136
    Wilderness...................................................   136
    Wildfire and Fuels...........................................   122
    Wildland Fire Deficit........................................    89
    Wildlife and Fisheries Management............................   149
Questions from:
    Congressman Skeen............................................   201
    Congressman Taylor...........................................   205
    Congressman Dicks............................................   212
Rec Fee Demo Program.............................................    35
Recreation.......................................................     6
Regional Allocations.............................................    26
Rehabilitation and Restoration of Burned Lands...................    19
Road Maintenance.................................................    48
Roadless Rule Exceptions.........................................    41
Roadless Rule....................................................22, 39
Sabino Canyon T-Shirt Sales......................................    37
Scientific Management............................................    48
State and Private Forestry Programs..............................     6
Supplemental-Pine Beetle and Ice Damage..........................    34
Survey and Management in Timber Sales............................    16
Timber Harvest Levels............................................    15
Timber Harvest Levels............................................    19
Timber Harvest...................................................    45
Timber Sales Litigation..........................................    22
Timber Sales Litigation..........................................    46
Timber Volume....................................................     5
Tucson Rod and Gun Club..........................................    36
Urban Forestry...................................................    27
Working with Local Communities...................................    15
World-Class Provider of Goods and Services.......................     6
Written Statement of Mr. Bosworth................................     8

               Department of Energy--Secretary of Energy

21st Century Truck Program.......................................   222
Arctic National Wildlife Refuge 


Biography of Secretary Abraham...................................   235
Bonneville Power Administration..................................   239
Budget Request...................................................   220
Budget Strategies................................................   219
Building Technology Programs.....................................   258
California Energy Situation......................................   262
Clean Coal Power Initiative 


Coal Impoundment.................................................   258
Conservation in the Short Term...................................   238
Consumer Nations.................................................   259
Corporate Average Fuel Economy 


Distributed Generation...........................................   222
Energy Conservation 


Energy Conservation Budget Cuts 


Energy Information Administration................................   222
Energy Research..................................................   221
Energy Strategy 


Enhanced Ultra-Clean Fuels Initiative............................   275
Fuel Efficiency..................................................   260
Gasoline Prices 


Gasoline Profits.................................................   237
Handford Cleanup.................................................   255
Industry Incentives..............................................   255
National Laboratory Partnership Program..........................   270
New Power Generating Plants......................................   241
Nuclear Power Plants.............................................   263
Opening Remarks of:
    Chairman Skeen...............................................   217
    Congressman Dicks............................................   218
    Secretary Abraham............................................   219
Pacific Northwest and California.................................   275
Partnership for a New Generation of Vehicles 


Peak Pricing.....................................................   245
PM 2.5 Emissions.................................................   253
PNGV Program.....................................................   261
Private Sector Research..........................................   276
Additional Committee Questions:
    Energy Conservation/Efficiency Research......................   282
    Energy Information Administration............................   310
    Enhanced Ultra-Clean Fuels Initiative........................   285
    Fossil Energy Research.......................................   277
    National Laboratory Tables...................................   311
    Partnership for a New Generation of Vehicles.................   283
    Program Goals and Schedules..................................   286
    Research Initiatives.........................................   280
    Strategic Petroleum Reserve..................................   281
Questions Submitted by Congressman Kingston:
    Savanna River Ecology Laboratory.............................   319
Questions Submitted by Congressman Peterson:
    Energy Efficiency Budget Cuts................................   320
    Federal Energy Management Program............................   321
    Market Incentives for Hourly Electricity Rates...............   321
    Power Generation Plants......................................   320
    Private Sector Advances in Clean Coal Research...............   323
    Private Industry R&D.........................................   322
Questions Submitted by Congressman Dicks:
    Clean Coal Power Initiative..................................   329
    Close-Out Costs..............................................   325
    Energy Conservation..........................................   324
    Federal Energy Regulatory Commission.........................   324
    Impacts of Budget Reductions.................................   326
    Vice-President Cheney's National Energy Strategy Task Force..   324
    Weatherization Assistance Program............................   329
Questions Submitted by Congressman Moran:
    Advanced Separation Technologies.............................   338
    Corporate Average Fuel Economy...............................   336
    Fossil Fuel Research.........................................   337
    Weatherization vs. Conservation..............................   333
Nuclear Power....................................................   337
Savannah River Ecology Lab.......................................   268
Turbines Program.................................................   252
Vice-President Cheney's National Energy Policy Development Group.   237
Weatherization Assistance Program 


Written Statement of Spencer Abraham.............................   223
WTO..............................................................   271


 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2002

                              ----------                             

                                          Thursday, April 26, 2001.

                          U.S. FOREST SERVICE

                               WITNESSES

DALE N. BOSWORTH, CHIEF
RANDLE PHILLIPS, DEPUTY CHIEF, PROGRAMS AND LEGISLATION
HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS
MICHAEL T. RAINS, DEPUTY CHIEF, STATE AND PRIVATE FORESTRY

                      Mr. Skeen's Opening Remarks

    Mr. Skeen. The committee is now in session.
    Today's hearing is the very first chance for Dale Bosworth 
to testify to the Congress as Chief. This is a very big job. 
Welcome. So far, you have had a long and distinguished career 
with the Forest Service. I hope that continues. I am pleased 
that Secretary Veneman has decided to trust you with this big 
responsibility. And we wish you well.
    The Forest Service is a very important agency. You manage 
some spectacular lands, and you also have important research 
and forestry assistance activities.
    And of course, we look forward to the Forest Service for 
leadership in wildfire management. Throughout the Nation, and 
especially in my State of New Mexico, we are watching your 
wildfire work closely. We rely on your staff to protect our 
wildlands. You also need to get serious about reducing the 
dangerous loads of hazardous fuels in our forests. I am sure 
that you are aware of all that.
    The Congress entrusted you with a large amount of money 
last year to fully fund the National Fire Plan. And so far we 
are pleased with the agency's work on the fire plan. It is 
vital that this work get done, and that you always work closely 
with the Department of the Interior and with the States.
    I am also very interested in the work of my predecessor, 
Ralph Regula, at implementing the recreational fee 
demonstration program and focusing on the backlog of 
maintenance needs.
    Now, Mr. Dicks, would you like to make an opening 
statement?

                       Mr. Dicks' Opening Remarks

    Mr. Dicks. Thank you, Mr. Chairman. I want to welcome Chief 
Dale Bosworth, and tell him how much I enjoyed meeting him 
earlier this week. I am looking forward to this hearing and to 
hearing the new ideas you hope to bring to the Service.
    In your testimony you cite three specific areas of 
priority--the transition at the agency with the new leadership; 
the National Fire Plan; and agency accountability. I think your 
priorities are well placed and hope that the subcommittee can 
assist you in these areas.
    The Interior Subcommittee has spent years trying to bring 
greater accountability and more transparent budgeting to the 
agency. I think there has been significant progress. But there 
is still much to be done. I am pleased to know that it remains 
a commitment of yours. Congress must be assured that the funds 
provided are used for their intended purpose, though that has 
not always been the case.
    The budget for fiscal year 2002 reflects a total decrease 
of $661 million, which is explained in the budget justification 
as ``reductions for fire related increases and one-time 
costs.'' I understand that this may be the view of some. But as 
we heard in our earlier oversight hearing this year, seriously 
addressing the fire risk to our country, particularly in the 
West, is a multiyear effort.
    I note in your budget that the Forest Service plans to 
offer only 2.1 billion board feet of timber volume, well below 
the 3.6 billion board feet in the fiscal year 2000 and fiscal 
year 2001 budgets. Your testimony candidly states that the 
agency fell far short of the 3.6 billion target in those years 
and that this year's number is more realistic. I must tell you 
honestly, I am not pleased with this lower number. But I do 
appreciate your honesty and hope that somehow we can work 
together to address the factors that led the agency to not meet 
earlier targets. It is hard for me to understand how we could 
go from where we were in 1982 to where we are today. It looks 
like the Forest Service is capitulating, in my judgement, to 
the pressures that you are under instead of trying to do what 
the Congress directed you to do.
    As we are all aware, the current roadless rule is 
controversial, and I am sure we will discuss it at length in 
this hearing. But I hope that the debate does not take away 
from a deep concern that this subcommittee has had about the 
backlog of maintenance on Forest Service roads. Your budget in 
this area disturbs me. For fiscal year 2002, the President's 
request for the roads capital improvement and maintenance 
budget reflects an actual decrease after uncontrollable costs 
are factored in.
    The subcommittee has heard testimony from your own agency 
that there is a backlog of over $8 billion on these roads.This 
simply is not acceptable. I hope that the agency seriously rethinks its 
priorities and that this subcommittee revisits this issue.
    And one of the reasons I am most concerned about this is in 
the Pacific Northwest the failure of the Forest Service to 
properly maintain the roads leads to blowouts and leads to the 
degradation of salmon runs, which are now an endangered species 
all over the Northwest, in Washington, Oregon, and northern 
California. There is a direct correlation between the failure 
to take care of these roads and the decline in these salmon. To 
me, it is just unacceptable.
    We have to work with the Forest Service and the Department 
of Agriculture in order to make certain that you are included 
in the next go around on ISTEA, because you were not included 
last time and other agencies were. I think it is going to be a 
test of your leadership and the Deputy Secretary's to see if we 
cannot do better in terms of getting the Forest Service into 
the national program. Because, clearly, with this kind of 
backlog and the budget you have got, the $8 billion will go up, 
it will not go down. There are serious environmental 
consequences related to not being able to maintain these roads.
    However, again, I congratulate you in your new position and 
wish you best of luck. We will work with you. There are many of 
these goals that we share and yet we have to address some of 
these hard issues and do better.
    Thank you, Mr. Chairman.
    Mr. Skeen. Now, Mr. Bosworth, I invite you to summarize 
your testimony. Your entire statement will be made a part of 
the record.

                     Mr. Bosworth's Opening Remarks

    Mr. Bosworth. Thank you, Mr. Chairman. I appreciate the 
opportunity. I would also like to say that this morning I have 
with me Randy Phillips, who is the Deputy Chief for Programs 
and Legislation, and also Hank Kashdan, who is the Director of 
Program and Budget Analysis.
    First, I would like to say that I really do think it is a 
privilege to be here with you today and talk about the 
President's budget for fiscal year 2002. Let me also say that, 
as Chief of the Forest Service for four days now, I am really 
deeply honored to have this opportunity.
    Mr. Skeen. A whirlwind romance.
    Mr. Bosworth. Right. First, I want to express my gratitude 
to Secretary Ann Veneman for her confidence in me, and to say 
thank you to the thousands of dedicated and hard working Forest 
Service employees. They have given me a lot of support and 
encouragement to take on this job. I would not want to do this 
job without their support.
    I would also like to express my appreciation in advance to 
the subcommittee for working with the Forest Service and 
helping out through this transition.
    Today, I want to discuss some of my priorities as the 
agency transitions in its leadership. I would like to talk 
about the National Fire Plan and how protecting communities 
from the dangers of catastrophic fire represents a broader 
focus on managing our Nation's forest and grasslands. And I 
would like to talk about agency accountability. I recall 
Chairman Ralph Regula saying, ``Accountability is more than 
simply good accounting.'' And I really agree with that. 
Therefore, I am not only going to talk about accounting 
procedures and financial accountability, but I want to talk 
about delivering on performance commitments. I think we need to 
spend more time in the Forest Service thinking about our 
performance commitments.

                  FOREST SERVICE SHORT TERM PRIORITIES

    As a 35-year employee with the Forest Service, I developed 
an appreciation for how work gets done on the ground. I do 
believe that that is the foundation of our credibility in the 
Forest Service. This on-the-ground work is done by field 
offices. I think it is the responsibility of the national 
headquarters and regional offices to ensure the best possible 
support is given to that on-the-ground work. We need to think 
of those folks as one set of our customers. I think it is 
essential to reestablish a connection between the headquarters 
and the field and to make sure that ongoing initiatives do not 
unintentionally hinder the on-the-ground work from being done.
    One of the greatest strengths of the Forest Service is the 
ability of its line officers to make and implement decisions 
that take local needs into account. And I am concerned that 
that ability has been limited by an over-reliance on top-down 
initiatives. I firmly believe that each field unit has 
different needs and that a single management philosophy cannot 
produce healthy forests and rangelands that provide goods and 
services across a wide array of environments in which our 
forests and rangelands exist.
    I intend to take a close look at the leadership structure 
of the Forest Service. I want to make sure that line officers 
are empowered to make and implement natural resource management 
decisions while ensuring compliance with best management 
practices, national law, regulation, and policy. I also intend 
to ensure that the leadership structure provides the best 
possible access to me. I assure you that I am going to place a 
priority on providing the best oversight possible for 
administering the agency.
    Also, as part of supporting on-the-ground work, we need to 
assess the agency's strategic goals and objectives to ensure 
full compatibility with local forest plans and priorities. We 
need to ensure that funds being held at the national and 
regional headquarters are only those that are essential to 
accomplishing our mission and that we are getting more of the 
dollars down to the ground. In fact, only last week the Forest 
Service began a very intensive screening of off-the-top 
funding. We have a lot more work to do, and I am going to stay 
as personally involved as I can in that because we really need 
to scrutinize each one of the dollars that is taken off the 
top.
    Another issue that concerns me greatly is the graying of 
the workforce. In the next five years, 32 percent of the 
workforce will be eligible for retirement. Fortunately, 
primarily as a result of the National Fire Plan, the Forest 
Service is going to be recruiting, and has been recruiting, 
large numbers of new employees. We have an unprecedented 
opportunity to emphasize recruitment of a workforce that 
provides the skills and the talents needed to manage and lead 
this agency into the future, and which balances the need for 
permanent employment and provides jobs in local communities 
through contracting.

                           NATIONAL FIRE PLAN

    A little bit on the National Fire Plan. The cost to restore 
the lands blackened last year by wildfires to a healthy and 
productive condition is going to require significant 
investments over a long time period. There is also a need to 
continue to respond to the ever-increasing presence of people 
that are building homes and living in the wildland-urban 
interface.
    The President's budget in fiscal year 2002 provides $1.3 
billion in support of the National Fire Plan. This willallow 
the Forest Service to continue some of the long-term investments that, 
while they may appear to be expensive, the annual cost of proactive 
hazardous fuel reduction will not approach anywhere near the future 
costs of reactive measures that are used today. With implementation of 
the long-term proactive strategy, we can provide healthy forests 
resistant to wildland fire, insects, disease, and noxious weeds and 
provide a sustainable flow of products and services.
    The National Fire Plan is a good example of what can be 
achieved when Congress and the Administration works together. 
The plan balances forest restoration and community protection 
by integrating local community employment and expanding local 
economic capacity with the generation of forest and range 
products to accomplish restoration objectives. I am looking 
forward to working with you to expand this type of balanced 
policy to all aspects of Forest Service natural resource 
management policy.

                             Accountability

    Accountability has been a significant emphasis of the 
agency for the past three years. My predecessor, Chief Mike 
Dombeck, I think did a really good job of building the 
framework to restore the financial integrity of the agency. We 
need to continue that path, and we will continue our progress 
toward obtaining a ``clean audit'' opinion.
    As I mentioned earlier, being accountable is much more than 
having good financial accountability. It is delivering on 
program commitments. Our budget is displayed in terms of 
activity and output measures that directly correlate to 
performance outcomes. These measures which we are implementing 
in fiscal year 2003 will be the basis for field-based 
budgeting. These measures will also ensure consistency 
throughout the agency's budget formulation, presentation, and 
accounting process, and will emphasize performance as an 
integral part of budget requests.

                             Timber Volume

    Now I would like to focus on areas that I know concern many 
members of the subcommittee. The President's budget proposes 
what may appear to be a significant reduction in the target for 
forest product accomplishment. To be accountable for 
performance, I think we first need to be realistic about our 
capability. Because of policy emphasis over the past eight 
years, the Forest Service's capability to produce forest 
products has been reduced. For example, in fiscal year 2000 and 
2001, the agency was expected to offer 3.6 billion board feet 
of timber volume. What we offered was only 1.7 billion board 
feet in fiscal year 2000, and we expect to offer only a similar 
level this year. For fiscal year 2002, we have closely assessed 
our capability based on a variety of factors and, Mr. Chairman, 
we estimate in fiscal year 2002 the forest product offer will 
be in the neighborhood of 2.1 billion board feet.
    This fiscal year we are going to assess our programs to 
determine future opportunities as to how we can target programs 
and resources to restoration activities, including the 
production of forest products, to a level consistent with 
appropriate forest protection. I want to clearly state that it 
may take several years to reach an increased level of forest 
product offer, and such increases will not, and I do not 
believe should, approach levels or produce the revenue 
experienced in the late 1980s. Increases in forest products 
from the National Forests will require a full recognition that 
land health and the production of goods and services are 
interwoven and are compatible.
    We will also assess the outcomes of the end-result 
stewardship projects that Congress authorized with this 
subcommittee's help. We may develop proposals to expand this 
authority and target it towards restoration activities that 
also increase the production of previously non-economic forest 
products.

                  State and Private Forestry Programs

    I also believe that agency accountability for the 
production of forest and range products must take into account 
the capability of non-industrial private lands to provide a 
sustainable flow of products. The State and Private Forestry 
programs will continue to emphasize cooperation with States, 
Tribes, and local authorities to enhance stewardship of rural 
and urban forests.

                         Environmental Analysis

    I am also concerned that we have fallen behind in the 
environmental analysis of many of our range allotments on 
National Forests and Grasslands. We will focus close attention 
on those factors that have contributed to this shortfall, and 
we will develop some actions to improve the situation or we 
will develop a more realistic schedule.

                               Recreation

    The Forest Service is also accountable for the quality of 
the recreation it provides. Over 70 percent of the population 
in the United States lives near a National Forest or Grassland. 
Recognizing that erasing the backlog of deferred maintenance 
requires much more than increased appropriations, the Forest 
Service is considering the implementation of a working capital 
fund to ensure that programs using facilities support the 
maintenance and replacement of those facilities. Also, with 
regard to providing the best possible recreation opportunities, 
the President has proposed reauthorization of what I consider 
to be a very successful recreation fee demonstration program.

               World-Class Provider of Goods and Services

    Secretary Veneman has clearly stated that she wants the 
Forest Service to be a world-class provider of goods and 
services. I know the agency does have that capability. To that 
end, I intend to personally devote my attention to achieving 
this goal through emphasizing an organizational reconnection 
between the headquarters and the field units, integrating the 
National Fire Plan with the management of our natural 
resources, and aggressive adherence to improving performance 
accountability.
    I want to say again that I am deeply honored to be here 
today. I look forward to working with you and I thank you for 
your support. I would be happy to answer any questions you 
might have.
    [The written statement of Mr. Bosworth follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.001
    
    [GRAPHIC] [TIFF OMITTED] T2654A.002
    
    [GRAPHIC] [TIFF OMITTED] T2654A.003
    
    [GRAPHIC] [TIFF OMITTED] T2654A.004
    
    [GRAPHIC] [TIFF OMITTED] T2654A.005
    
    [GRAPHIC] [TIFF OMITTED] T2654A.006
    
                  Forest Service Short Term Priorities

    Mr. Skeen. Thank you for your statement. I would like to 
begin the questions now. Just to clarify, can you tell us what 
your top three priorities will be for the upcoming year? I know 
that you mentioned them.
    Mr. Bosworth. Well, the National Fire Plan is today, and 
will be well into the future, a priority. That is going to be 
one of the priorities I am going to spend a fair amount of my 
time on. Also, an area of emphasis, for me is going to be 
reconnecting the field, the national office and the three parts 
of our organization, so that we can get more of our dollars to 
the ground and provide better support to the field. The third 
area is accountability. Not just, again, financial 
accountability, but the oversight that we need to do to ensure 
that we are actually doing what we say we are going to do.

                           Energy Development

    Mr. Skeen. The Administration is very concerned about the 
current energy situation and is reviewing the availability of 
public lands for energy exploration. Is the Forest Service 
reviewing its policy for oil and gas development? And how does 
the roadless area rule affect future mineral and energy 
development?
    Mr. Bosworth. What we are doing right now is making sure 
that we have a good inventory of where the high potential, 
medium potential, and the low potential for oiland gas exists. 
We have that information, but we are just reviewing it to make sure 
that we can provide that information.
    As far as the effect of the roadless area decision, in 
places where we already have a valid mining claim, access is 
still available to those areas even through the roadless 
initiative, and with valid oil and gas leases, access is still 
available. But, obviously, with the decision on roadless, there 
will be places that have potential for oil and gas or minerals 
that are not currently under lease or claim that would not be 
accessible.

                          Procedural Gridlock

    Mr. Skeen. In your statement you explained a little bit 
about how planning and analysis procedures get coupled with 
litigation and appeals. Can you give us a feel for the scope of 
this problem and what specific kinds of actions you as the 
Chief will take to help unravel the procedural gridlock in the 
Forest Service.
    Mr. Bosworth. We are, in my view, in a procedural gridlock. 
It is an area that gets quite frustrating to some of our folks 
in the field, due to the amount of time that they spend doing 
analysis and doing paperwork, just to get a little bit of work 
on-the-ground. It is my view that we probably spend maybe the 
first 10 or 15 percent of our dollars to get us most of the way 
to where we need to be, and the rest of our dollars end up 
trying to provide litigation-proof kinds of documents. We spend 
an awful lot of money doing work that I do not think adds 
quality to the final decision because we are trying to meet a 
higher and higher bar from litigation, from the results of 
court cases.
    Some of the things that we are doing are trying to find 
ways to streamline the NEPA process. We are trying to develop 
better working relationships with the regulatory agencies so 
that we are able to work our way through the consultation with 
the ESA, Endangered Species Act, more quickly. I think that 
there are opportunities to improve and to speed up the process 
of working through those things.
    But all the things that we may be able to do are still 
going to only go part way toward relieving the gridlock that we 
are in. I think we need to take a look at how all these 
different regulations and laws interact, just give a good 
examination, and come up with some ideas that can help unravel 
the bureaucracy that we have.

                     WORKING WITH LOCAL COMMUNITIES

    Mr. Skeen. It is a tough call. One thing that I hope that 
the Forest Service is made aware of is you do not walk out into 
a 60 mile an hour wind with a lighted torch. That is one of the 
basic requirements.
    Mr. Bosworth. We will be staying indoors with our matches 
when there is a lot of high winds, I will tell you that.
    Mr. Skeen. The citizens of my State of New Mexico are very 
concerned about the condition of the forests and the 
possibility that an overcrowded forest will get ignited and 
become dangerous wildfires, and we have alluded to that 
already. They have passed a bill in the State legislature which 
allows the State to declare an emergency and then allow 
counties or others to enter National Forest lands and thin the 
forest. What kind of actions can you as Chief take to work with 
citizens to help alleviate this situation?
    Mr. Bosworth. I think what we need to do is make sure that 
there are local people empowered to make decisions and to work 
with local communities. We need to rebuild those relationships 
in the local communities. If we have good, strong 
relationships, then we will not have that kind of friction, 
that friction will not happen. I really think that is possible. 
I think like the Payments to States legislation that passed, it 
gives us an opportunity to have some advisory committees with 
the counties. I think we can build those relationships with the 
counties much, much better by identifying projects that need to 
be done on-the-ground.
    I think all of those things will help build a relationship 
between local people, local governments, and the Forest 
Service. And, again, if we get more dollars to the ground and 
provide good oversight and good assistance to the folks on the 
ground, I think they will be better conditioned to be able to 
build those relationships with the local people.
    Mr. Skeen. Mr. Dicks?

                         TIMBER HARVEST LEVELS

    Mr. Dicks. I would like you to tell me as specifically as 
you can, what the factors are that have led the Forest Service, 
even though the budgets in 2000-2001 were to offer 3.6 billion 
board feet of timber and, as you say, you only offered 1.7 
billion in 2000, to fail to live up to that commitment. What is 
it? And I know some of these reasons, but I want you to be able 
to put this on the record. Why is it that we cannot do better? 
Why could we not live up to the commitment? Congress set a goal 
of 3.6 billion, why did the Forest Service fail in 
accomplishing it?
    Mr. Bosworth. Part of it is just our capacity, our 
workforce capacity. But I would not want to imply that if all 
of a sudden we had----
    Mr. Dicks. Does that mean that you are blaming this on the 
previous Administration?
    Mr. Bosworth. No.
    Mr. Dicks. No, I want to put the question first. Are you 
blaming this on the previous Administration because they did 
not maintain a workforce that was capable of preparing timber 
sales and doing timber sale preparation work? Is that the 
problem?
    Mr. Bosworth. No. When I talk about workforce capacity, I 
am talking about just our overall capability, our number of 
employees that have to meet the higher and higher level of 
requirements in order to be able to achieve the preparation of 
any of these projects that will make it through litigation. The 
bar gets raised each time we go to court. The requirements for 
being able to produce a document that will stand up in court 
gets higher each time we go to court, each time we lose in 
court. And so it takes more work, it takes more people, it 
takes more analysis, it takes more review.

                 SURVEY AND MANAGEMENT IN TIMBER SALES

    Mr. Dicks. And in some situations, like on survey and 
management, I think the inclusion of a number of these species 
was done to make it difficult. Not that it was necessary, but 
it was done to make it difficult. And the Forest Service did 
not make much of an effort to comply with what the Northwest 
Forest Plan required. That is the other problem here.
    Mr. Bosworth. I believe that the folks have been working 
hard to try to comply with the Northwest Plan.
    Mr. Dicks. The judge did not agree with you.
    Mr. Bosworth. We did not get all the survey and management 
completed, and there are also some capacity issues.
    Mr. Dicks. Some of it was not even attempted, though. There 
was a decision made in the Forest Service just to ignore this.
    Mr. Bosworth. I think there were also, maybe, some 
differences of opinion about what the requirements were, 
too.The judge agreed with the other side on what the requirements were.

                             LISTED SPECIES

    There is also another thing that I think has an effect, 
additional species that get listed through the Endangered 
Species Act. They start having some effect on what you can do 
on the ground. For example, the Canada lynx was listed and that 
has some effect on what you are going to produce. When the 
salmon and steelhead were listed, that had a very large effect 
on our ability to produce. The bull trout was another species 
that was listed that, once again, added on. Often what will 
happen is a forest will have prepared some sales, it takes a 
certain period of time to get those sales prepared, and then a 
species will get listed and they have to go back and rework the 
sales. Some of these projects get reworked two or three 
different times as things get listed or as requirements change.
    Mr. Dicks. And they may still get challenged in court after 
that.
    Mr. Bosworth. And they will still get challenged in court. 
We have some projects, and I can give you an example in 
northern Idaho where we had a Douglas fir bark beetle epidemic 
and the forest did a very good job in putting up a project, 
working closely with the State and local communities to salvage 
some of the Douglas fir, and the purpose was to try to get that 
salvaged around the private lands and homes. I know they went 
to court at least twice and won and now they are in the 9th 
Circuit. Again, there could be a resulting outcome that would 
set them back and have to go back and do a bunch of different 
work.
    All those things together are the reasons why it takes our 
folks a lot of time to get the work done and we sometimes fall 
short of meeting expectations.
    Mr. Dicks. So your point is this was not just benign 
neglect or unwillingness of the Forest Service to do it. There 
were legitimate factors that caused the Forest Service to be 
unable to perform.
    Mr. Bosworth. I think there were a combination of 
legitimate factors of priorities that were different in the 
last eight years than what they were previous to that. I think 
those things all come together to cause that.
    Randy, do you have some additional comments?
    Mr. Phillips. I just want to make a point. In a number of 
regions around the country we have a substantial volume, I 
think, that is ready to be offered as soon as we can better 
determine the effects of some recent lawsuits. In your part of 
the country, for example, I know they have a half a billion 
board feet all the way through a signed NEPA that is ready to 
be offered as soon as they can determine the effects of some of 
the recent lawsuits. So there has been a lot of work done on a 
lot of volume that is pretty close to being ready to put out on 
the market.
    [Biography of Mr. Phillips follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.007
    
                         TIMBER HARVEST LEVELS

    Mr. Dicks. Because, as you know, part of President 
Clinton's forest plan said we would try to get up to 1 billion 
board feet in Regions VI and V. And in 1999, the last numbers I 
have, the target was 865 million board feet but we only got to 
418. So in previous years we have done better. Now I realize 
the survey and management requirement played a major factor in 
this, but, again, this was part of an agreement that the Forest 
Service signed on to. And maybe there was a dispute about 
whether we had to do it or not, but the agreement called for it 
being done. And it was not done. In fact, a lot of people did 
not even know this requirement was in there. It came up late in 
the game when this plan was derived. And that is another thing 
I would point out. I think it is really time to take another 
look at this plan and to look at the ability to do some of the 
things that have not been done, particularly in the adaptive 
management area where I think there has been a failure, even 
though it tried to do it.
    So, that is what bothers me. Because there was a commitment 
made. This has had a major impact. I tell people about my own 
forest out there, the Olympic National Forest in my district, 
where we used to do about 225 million board feet and it is now 
down to 10 million, and that is in a good year. And these are 
all helicopter sales. And there has been no attempt to do 
adaptive management. None. Zero. So I still think we can do 
better than that. I still believe that thinning out there, even 
in areas within the forest plan, is the best way to bring back 
large trees faster, which is supposed to be the habitat we are 
trying to do with the spotted owls. And yet, we do not do that 
because we have kind of put a circle around a lot of these 
lands and said we are not going to touch them.
    I am completely in favor of having in every landscape some 
old growth and some areas that are protected. But there are 
other areas where you can do adaptive management and, I think, 
better serve the forest. And what we are finding out, 
especially in the Rocky Mountain West, is where we have not 
done this kind of adaptive management, where we have not 
cleared out the understorage, we have made this fire problem a 
lot worse than it has to be. And this is going to take us a 
long time to deal with.

             REHABILITATION AND RESTORATION OF BURNED LANDS

    And that is the other point I want to make today. I am kind 
of stunned here today to see the numbers in terms of the 
reduction, in firefighting. Maybe you can explain this, but 
under fire operations the number here is a minus $186 million. 
Now, how can that possibly be? I thought we said this was a 
multi-year effort we have to deal with. And I see here a minus 
$138 million under that $186 million forrestoration and 
rehabilitation. How can we justify this? Are we just low-balling it 
here hoping that Congress will come and add the money back, because you 
have got to have this money to do what we promised we would do in terms 
of restoration and rehabilitation? How can we just walk away from this? 
Now I know you did not prepare this budget. I know the White House 
prepared this budget. But you are the guy that is up here having to 
defend it. So please try to explain the unexplainable.
    Mr. Bosworth. We have a list of projects in the areas that 
burned last year. Those projects are made up of, as you 
probably know, all sorts of things that have to do with 
restoration and rehabilitation. They include things like 
reforestation, watershed restoration, noxious weed abatement, 
and threatened and endangered species habitat. There are a 
number of different projects that are in there. Our total 
needs, that I guess we have stated, were somewhere in the 
vicinity of three times the amount that we got this fiscal 
year. So, obviously, if we get that amount of dollars, there is 
a chunk of work that will not get done.
    Now we do have some ways of trying to----
    Mr. Dicks. Could we put that in the record, a list of the 
things? As best you can. Do not kill yourself, but give us a 
good list.
    Mr. Bosworth. We will give you a thorough list of all the 
projects that we have summarized that we believe needed to be 
done that at this time we may or may not have the funding to do 
it.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.008
    
    Mr. Dicks. Let me ask you this question. Was there in fact 
a need for more than $186 million? Would that $186 million 
actually cover all the projects, or was there even a list that 
went beyond that?
    Mr. Bosworth. Oh, yes. The list that we had of projects 
that needed to be done after the burning was about three times 
the amount--$270 million, I guess that is not three times the 
amount.
    Mr. Dicks. So we go from $141 million in 2001 to $3 million 
this year, a cut of $138 million. I am certain, knowing the 
membership in this and the membership in the other body, that 
number is going to get revisited. I am sure that will not 
offend you. And it should get revisited. On the other issues 
like fire suppression and all that, are we doing as much as we 
possibly can to be prepared for this next fire year? We are not 
cutting back the money for those things, are we?

                       FIREFIGHTING PREPAREDNESS

    Mr. Bosworth. No, we are not cutting back the money for 
those. We are well on the path of being at 100 percent of our 
most efficient level. We are not at that point yet, but I 
believe that right now in this fire season we will be in much 
better shape in terms of the numbers of firefighters, 
helicopters, retardant planes, other kinds of equipment, 
engines, and training our firefighters. So we are making some 
real progress I think, in terms of our firefighting capability.
    Mr. Dicks. Okay. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Peterson.
    Mr. Peterson. Dale, welcome to the wars.
    Mr. Bosworth. Thank you.
    Mr. Peterson. What a novelty, a forester running the Forest 
Service. That is good to hear. We welcome you. We know you have 
huge challenges ahead of you. We certainly probably will not 
always agree, but I think we will a lot of the time and we hope 
to work with you. Welcome to an exciting new job for you, I 
hope.

                             Roadless rule

    Mr. Bosworth. Thank you. It is.
    Mr. Peterson. You mentioned less top-down management. I 
think that will be welcomed out in the field. I have described 
the roadless designation as a top-down management. Would you 
agree with that?
    Mr. Bosworth. Well, it certainly is a policy that is set at 
the top.
    Mr. Peterson. My people had no input. They only had 
reaction to. I think that is a perfect example. Maybe it was 
appropriate to have roadless areas, but should it come out of 
the Vice President's office and Washington officials? No, I do 
not think so. But we all know that is where it came from and I 
hope we are beyond that.

                        TIMBER SALES LITIGATION

    In talking about the timber issue that Representative Dicks 
is talking about here, what percentage of the problem is the 
multitude of difficult lawsuits?
    Mr. Bosworth. Well, I would just be making a guess. But I 
think that there is not any rule or regulation or law that is a 
problem, but it is the interweaving of all the different 
regulations, laws, and processes and things that we have, and 
then the lawsuits that build case law on top of those. I think 
those are the bulk of the problem. It is a major issue to try 
to work your way through in any kind of an efficient or 
effective way toward an end result.
    Mr. Peterson. Your defense in court is provided by the 
Justice Department, not your own lawyers; is that correct?
    Mr. Bosworth. That is correct.
    Mr. Peterson. Now, it was the view of many of us as 
observers that the Justice Department had their own agenda that 
may have paralleled the Vice President's agenda and did not 
always zealously defend your position. That is our view. On the 
Allegheny NF, where I represented, when we had locals enjoin 
and we brought in some good private lawyers, our success factor 
mushroomed. We were much more successful at beating back these 
lawsuits when we got some of our own private lawyers involved 
that understood the mission and our goal.
    Mr. Bosworth. I would like to just comment on that.My 
experience the last several years where we have had an agreement with 
the Department of Justice to defend us on a lawsuit for a timber sale 
or something like that, those folks work very hard and I thought did a 
pretty good job of trying to defend us. They had a whole bunch of cases 
that they were trying to deal with and it seemed like they were kind of 
out-gunned by the number of attorneys from the other side. But I felt 
our relationship locally, and I am going back to my previous job as a 
regional forester, our relationship with the U.S. Attorney's Office, 
and whatnot, was really good and they were working really hard trying 
to defend us. But, obviously, some of the policy gets set in the 
Department of Justice that decides whether or not we are going to even 
pursue some of the cases.
    Mr. Peterson. Right. Should we change that?
    Mr. Bosworth. I think the Department of Justice has an 
obvious stake and right to do their job. I just think that we 
have to build good relationships and be on the same page with 
them.

                       FISH AND WILDLIFE SERVICE

    Mr. Peterson. Is the same true with the Fish and Wildlife 
Service? We had the Indiana bat, I think you are familiar with 
it, which popped on to the Alleghney NF. It is not Indiana bat 
country, everybody was shocked that they found one there, but 
when we found one the lawsuits came and we had to fight them 
back. After the plan was approved by the Fish and Wildlife 
Service, after a lot of push from me just to get it done in a 
timely fashion, then we found out every contract that was 
existing had to be rewritten and we were told it could take a 
long time because there was not anyone at the Fish and Wildlife 
Service's regional office, in fact their major person was off 
on maternity leave and they did not really have anyone.
    My staff person came up with the idea of getting the 
Indiana bat specialist out of Missouri to come and handle 
these. He did it expeditiously. I think he later went on to 
North Carolina and handled it there. But the biologist that I 
talked to at the Fish and Wildlife Service claimed a vast 
majority of endangered species suits are not about endangered 
species, they are about stopping multiple of public lands. That 
was their words, not mine. But they have to grind through them 
all. They have to do them whether they are real lawsuits about 
stopping timber cutting or whatever.
    Should we not be developing a relationship with the Fish 
and Wildlife Service, through their leadership, to where the 
real specialists can be brought in to deal with the species? 
Every biologist across the country is not going to be a 
specialist in the species that the current lawsuit is about. 
But if you bring in the ones that are, like we did in that 
case, it certainly happened a lot quicker and was done more 
expeditiously and done appropriately.
    Mr. Bosworth. First, I want to say that I think the Forest 
Service's responsibility is to conserve all wildlife species 
and to do our job under the Endangered Species Act. And I 
support the Endangered Species Act from the standpoint that we 
do not want to see species go extinct and we need to be 
managing National Forests in a way that is going to allow 
viable populations of all species. I think that is really 
important. Again, though, I think that what gets in our way 
sometimes is the processes we have to go through. I think in 
the Forest Service we have really good biologists that are 
going to give us lots and lots of input on what we need to do 
to make sure that we are maintaining these viable populations 
and that we are taking care of these species that are at risk.
    So what it really comes down to, I think, is what kind of 
relationships we can develop with the Fish and Wildlife 
Service, what kind of capacity do they have to be able to work 
through the consultation process or to look at adjustments in 
that consultation process. Because, once again, that is a place 
that takes a lot of time. There are places where the Fish and 
Wildlife Service just does not have the staffing to do the 
consultation with the projects that we have and it takes a long 
time.
    Mr. Peterson. But could we not negotiate with them that 
every biologist across this country should not need to know 
about every species, but they have species that they are 
experts on. And shouldn't the experts be brought in to deal 
with the species that we are dealing with? That is the point I 
am making, is that every biologist across the country does not 
have to be an expert in a thousand different species but they 
do have their natural expertise and use it, bring them to the 
scene.
    Mr. Bosworth. They do that in some cases.
    Mr. Peterson. Well, they did this because I pushed them to. 
They did not volunteer to do it. But they certainly were 
cooperative when I made the suggestion.
    Mr. Bosworth. Do you have something to add to that, Randy?
    Mr. Phillips. As we look around the country, we see 
situations where if the Fish and Wildlife Service staff is 
closely located to where the projects are, it goes much more 
efficiently. It is a good example of where you do not have to 
change the law, but there are a number of procedures that we 
can look at. We have agreed, for example, in Congressman Dicks' 
part of the country, in the Northwest where they have agreed on 
design standards, that we do not have to go back and consult 
every time we do a culvert or some other type of facility 
replacement.
    I also want to point out that the National Fire Plan 
provides for money to the regulatory agencies for Section 7 
consultation. If we can get that working well, I think it will 
help the fire plan implementation work much better.
    Mr. Peterson. Well if we can be helpful. In that case my 
staff came up with a good idea and we were able to implement it 
and bring the specialist to the process. Learning the Indiana 
bat issue is a complex issue. By bringing the expert in he 
quickly was able to expedite the process. We know the lawsuit 
process is about stopping what you are doing. That is what it 
is about. It is not about endangered species in most cases. 
That is just a tool they have and they use it very effectively.

                          MAINTENANCE BACKLOG

    Is it your goal to develop a plan on how to fix the roads 
long-term, in your tenure?
    Mr. Bosworth. Yes. We need to have a transportation system 
that is safe for people to use, that is not deteriorating, that 
is environmentally adequate, and does not dump sediment into 
streams. I think there are things that we can do to help with 
the backlog of maintenance that we have, and there are things 
that we are doing. I think just doing a better job of 
transportation planning can help us to some degree. We have a 
road analysis process that is available for people to use that 
should help them sort through which roads we ought to be 
keeping, which roads we ought to be obliterating. There are 
some roads out there that just simply are not used very much, 
roads that werebuilt back in the days when we did not have as 
high design standards and we have learned a lot since then. And so I 
think there are things like that that we can do.
    I think access to dollars like ISTEA dollars, we need to 
work hard on and build some credibility so we can get some of 
those dollars. But it is a big backlog and it is going to take 
a lot of time.
    Mr. Peterson. Has an analysis been done of which roads are 
causing pollution because of poor maintenance? It seems to me 
that ought to be the focus. Every mile of road that is causing 
pollution is the one you ought to put at the top of the list 
and not just roads in general.
    Mr. Bosworth. Each forest knows what their situation is in 
terms of which roads are dumping sediment into streams. It 
varies from one part of the country to the other. Many forests 
use a process called ecosystem analysis, the watershed scale, 
where they look at the roads and other factors that are 
producing sediment into streams. They know which of those roads 
would be the highest priority roads to fix, which of the 
culverts are most in danger of failing and they are focusing 
their dollars in most cases I think toward those high priority 
spots.
    I think one of the things that we need to be doing at the 
national level to help this is a better job of oversight and 
accountability. We need to have a review process where we look 
at the regions and the forests to see whether or not they 
actually are implementing those kinds of processes. If not, 
then we will get them a little training to help them along, or 
just hold them accountable for it.

                            AGING WORKFORCE

    Mr. Peterson. Okay. You talked about the aging of the 
workforce. Do you find it difficult employing the right skilled 
people, is the pool of talent out there, or is there a lot of 
competition for highly skilled forest people?
    Mr. Bosworth. There is a pool of talent although it depends 
on what kind of expertise you are looking for. There are some 
that we have to compete really hard for.
    Mr. Peterson. Like?
    Mr. Bosworth. Well, like computer science skills, for 
example.
    Mr. Peterson. Everybody.
    Mr. Bosworth. Everybody is competing for those and a lot of 
private companies pay a lot more than the Forest Service does. 
What we have to offer is a wonderful organization that they 
want to come work for, for a little less money, and maybe we 
can attract those really good ones. Then there are other 
skills, many in the natural resource fields, where I think 
there is a pool of talent out there for us to recruit from.
    Mr. Peterson. Forestry people?
    Mr. Bosworth. I think there are still a lot of really high 
quality forestry people.
    Mr. Peterson. Some of our forestry schools are almost 
anything but, any more, in my view.
    Mr. Bosworth. There are still a lot of folks there. And at 
the same time, we are trying to achieve a diverse workforce 
that reflects the diversity in America. And as we hire more 
people, I think we have some opportunities to achieve that 
diverse workforce.

                          REGIONAL ALLOCATIONS

    Mr. Peterson. I want to wish you well. My parting remark 
is, it is an opinion and I have never discussed this with the 
regional forester, so please do not blame him, but many of us 
believe that the Eastern region has not shared fairly in the 
wealth of the Forest Service. I guess I would just like to 
close with that note that we have a pretty valuable forest in 
the Northeast and we would like equal treatment in the 
budgetary process. I will just leave that closing message with 
you. Thank you.
    Mr. Skeen. Mr. Kingston.

                       FORESTRY INCENTIVE PROGRAM

    Mr. Kingston. Thank you, Mr. Chairman. Dale, it is good to 
see you again. I want to ask, does the FIP program come under 
you or directly under the USDA's budget?
    Mr. Bosworth. Which program?
    Mr. Kingston. FIP, Forestry Incentive Program. It was a 
program that----
    Mr. Bosworth. I know which one. I am familiar with that. It 
is in our State and Private Forestry program.
    Mr. Kingston. It is. Do you know what your FIP budget is?
    Mr. Bosworth. I think I am going to ask Michael Rains to 
give me some----
    Mr. Kingston. I would not expect you to know something like 
that off the top of your head. But I am just interested in 
that.
    Mr. Rains. Congressman, we used to have the FIP program 
under our jurisdiction, State and Private Forestry, but, Dale 
would not know this, it was transferred a couple of years ago 
to the NRCS. That budget has been averaging for about the last 
three years about $6.5 million nationwide. It is actually being 
proposed, I believe, at zero this year or close to that. But 
that is not a budget item that we present in the Forest Service 
any more.
    Mr. Kingston. Okay. I am on my way to an agriculture 
hearing and I wanted to kind of get that in my focus. It was as 
high as $10 million at one point I think.
    Mr. Rains. Yes. In the early years of 1980, it was into the 
$22 million to $15 million range. It has consistently gone down 
to virtually a nonrelevant program right now.

                             URBAN FORESTRY

    Mr. Kingston. Now CRP has nothing to do with you guys, am I 
right?
    Mr. Rains. That is correct.
    Mr. Kingston. Urban Forestry does, though.
    Mr. Rains. It sure does.
    Mr. Kingston. Your Urban Forestry budget, I think I just 
saw it was level.
    Mr. Rains. It is about $5 million less in the last year. We 
have about a $32 million program. Last year we had a Title VIII 
component of it and that was not provided for in this budget.
    Mr. Kingston. Is that what Jim Lyons presided over?
    Mr. Rains. No. There was a component in our Urban Forestry 
program, he really enjoyed urban forestry, and one of the 
components was what we called the Urban Resources Partnership 
where we did focus our work on some large cities, really some 
pretty good objectives, and what Mr. Lyons did was take a 
component of the $30 million and target that to some specific 
cities.
    Mr. Kingston. Where are you guys going with it?
    Mr. Rains. We do not want to do that. Here is what we want 
to do. We have been involved in large cities for a long time 
and small cities for a long time. We want to continue to 
provide technical and financial assistance to cities to improve 
their urban resources. That is what we do and that is what we 
want to do. What we do not want to do isjust arbitrarily pick 
cities. So what we are going to do in a more competitive way and a 
criteria-based way, is allocate funds to States to improve those 
natural resources in cities and provide capacity for technical 
assistance to those cities and towns.
    Mr. Kingston. That program is sneered upon kind of 
universally. But it is actually not a bad program if you really 
look at what it does. The Federal Government does far worse in 
terms of is it an appropriate role of the Federal Government or 
not. If we are going to have such a massive Federal Government, 
that is actually something positive. Are those awarded by 
grants? Is the money awarded to cities by grants?
    Mr. Rains. Yes. First of all, in my impression it is a 
magnificent program. It really does begin to help cities, towns 
and communities to improve their livability and conditions. And 
we have a small but major role. The majority of that money goes 
out to States and cities and not-for-profit groups in the form 
of grants and cooperative agreements. Some of that money is 
kept back in the Forest Service for a small cadre of technical 
assistance where we work with the States.
    [The biography for Mr. Rains follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.009
    
    Mr. Kingston. Before that thing dies on the vine, it is 
something I am familiar with and interested in, and would just 
like to maybe have a continuing dialogue with you, an open 
channel in terms of where you are heading with it and what is 
going on. It is just one of those things, not a pet project, 
but I do think it is generally a good program and wanted to 
express that.

                    LAND AND WATER CONSERVATION FUND

    I also wanted to ask, switching gears, in terms of the Land 
and Water Conservation--Dale, we hear constantly about the 
graying of your workforce, and problems keeping employees, and 
making ends meet--maybe we do not need to purchase any more 
land. Let me scratch my fingernails across the blackboard of 
environmentalists here. Maybe we do not need to buy more land. 
You guys have got $93 million in the budget for it this year, 
and I think there is $117 million next year.

    [Correction: The Forest Service Land Acquisition request 
for FY 2002 is $113 million and not $117 million]

    How many acres do you own right now?
    Mr. Bosworth. Approximately 192 million.
    Mr. Kingston. How many should you own? How many do you want 
to own?
    Mr. Bosworth. We are never happy till we get it all. 
[Laughter.]
    Mr. Kingston. But philosophically, this is----
    Mr. Bosworth. I will give you the BLM, for sure.
    Mr. Kingston. It appears on this committee and the 
agriculture committee, which many of us sit on also, we are 
just in this let's see who can own the most toys at the end of 
the day in terms of land. You have got Fish and Wildlife, which 
Mr. Peterson made an excellent point about last year. They even 
buy it without congressional approval. There may be a State out 
there with a deficit, but we are going to go out there and buy 
States that have surpluses. Land. Hello. I am not blaming this 
on you. I am just saying we, in Washington, as a culture--the 
National Park Service--everybody wants to buy land. And yet 
every damn agency comes in and says, ``Oh, gee whiz, we do not 
have the money for employees.'' And I am not saying you, 
because I certainly think the world of you. I am just saying 
we, as a culture, are like somebody who buys a house and adds 
on and adds and says, ``Gee whiz, I cannot pay my electricity 
any more, I have got too many rooms.'' Maybe we should not be 
doing all this stuff.
    Mr. Bosworth. I would like to respond to that a little bit. 
I think in most cases when we are trying to acquire a piece of 
land in the Forest Service, it is a piece of land that normally 
is already surrounded by National Forest that, in some cases, 
would make the efficiency of the operation even more efficient. 
In some cases they are lands that are really high quality lands 
surrounded by National Forest that are potentially developable 
and subdividable and there would be some huge increases in 
costs to our operation if they were subdivided. For example, 
you increase the wildland-urban interface and the problems with 
potential fire and communities increase. In some places there 
are lands that hold some habitat for threatened or endangered 
species that if we had that land then that could allow us to 
become more effective in managing for that species.
    So there are lots of different reasons why we might be 
doing that. But we are not in a situation where we normally 
acquire large acreages of land. They are usually very focused 
and very small. Sometimes we do land exchanges in order to lock 
up ownership as well to make it more efficient. And of course, 
any time that we acquire land outright the Congress approves 
each one of those purchases.
    Mr. Kingston. You know, you have probably heard the 
expression in terms of business management, but the system that 
you have now is perfectly designed to give you the results that 
you are now getting. And the system we in Washington have is 
going out and buying a bunch of land and then coming into 
committee after committee saying we do not have the resources 
to pay for employees, and we do not have the numbers to pay for 
our backlog and maintenance, and yet, oh, golly, we have been 
doing this. This is my ninth year in Congress and we have 
certainly been doing a good job of getting these results, 
because that is all we seem to like to do is buy land and then 
whine that it is too expensive for us to take care of.

               INVENTORY AND USE OF NATIONAL FOREST LANDS

    Do you have plot by plot, whether that be a 10 acre plot or 
a 100,000 acre plot, a reason why you own that land?
    Mr. Bosworth. No. Not in the way that I think you are 
describing it, where for every 10 acre plot we have any reason 
why we own that land, why the Federal Government owns that 
land. On the other hand, each National Forest that was 
proclaimed as a National Forest, there was a reason for doing 
that when it was done. And then as we have acquired additional 
parcels, there has been a specific reason why we wanted to 
acquire those additional parcels, and there are very specific 
kinds of reasons why we would acquire them. The original 
proclamation of any National Forest was primarily for the 
supply of timber, or for water quality and supplying water, and 
for those kinds of reasons. But those were large National 
Forests in the West primarily that were designated in that 
broad objective. In the East, as we acquired more lands, there 
were some fairly specific reasons why we acquired them.
    Mr. Kingston. You have an inventory, though, of land, a 
master list. How many total acres do you own?
    Mr. Bosworth. I do not have the exact number, but it is 
about 192 million acres.
    Mr. Kingston. 192 million. What is the land mass of that, 
just for my own thick skull, the size of Massachusetts, or the 
size of Montana, or the size of Texas?
    Mr. Bosworth. Texas would be closer.
    Mr. Kingston. So you own the equivalent of the size of 
Texas.
    Mr. Bosworth. Yes. You keep saying we own, the Federal 
Government owns and the Forest Service manages those National 
Forests.
    Mr. Kingston. I mean the Forest Service as opposed to Fish 
and Wildlife or National Park Service. Okay. Now, in this land 
the size of Texas, in the interest of the new economy and 
spending the folks' money wisely and so forth, we all should 
ask ourselves why are we doing what we are doing, why is Jack 
Kingston running for Congress, what is my vision, what is my 
message. In that, you can say why you own the land you own and 
why it is still necessary for you to own, or why the reasons 
that you purchased it in 1951 are still valid in 2001?
    Mr. Bosworth. Yes. And every forest plan that is developed 
for each forest does a very good job of identifying what the 
land is used for, how it is going to be managed. Through those 
plans, and the participation of the public in development of 
those plans. I think that is a good place to look and see 
exactly how these National Forests are intended.
    Mr. Kingston. Here is what I am moving towards. If I am 
looking at--and you and I talked about the Pisgah National 
Forest where I have camped and taken my family, it is 
beautiful, and you had the lucky fortune of doing a tour of 
duty there--if I wanted to say, Dale, show me the land 
management plan for there, starting with the mission statement 
as to why it is a National Forest in the year 2002, is there 
such a document that would say the Federal Government owns 
this, here is why, here is what we do with it, and here is why 
we are the only ones able to do that?
    Mr. Bosworth. I would say, again, that I think the forest 
plans that were developed generally 10 to 15 years ago, and 
they are being revised, are the best place that would define 
that, that would describe exactly what you are talking about.
    Mr. Kingston. So, there is something like that? I think one 
of the things that we need to start doing as a committee is 
just making sure that we are keeping focus.
    Mr. Bosworth. And in the forest plans, and it varies from 
one plan to the other, but in development of the forest plans 
the folks also look at which lands are available for exchange 
because they are not meeting the needs as much, not fitting in 
with the purpose of that forest as well. So there may be some 
lands that are available for disposal, if you want to call it 
that, but we would do that through land exchange.
    Mr. Kingston. I am not necessarily moving towards 
liquidating anything. I just want to make sure we can all 
justify in our minds, and we all understand why a certain area 
is owned.
    But I am looking forward to working with you. I am excited 
about your administration. I think you have come up the long, 
careful way. Your experience is going to be a great asset to 
the Forest Service and the Government. So best of luck to you 
and look forward to seeing you again.
    Mr. Bosworth. Thank you very much.
    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. Hang on just a second 
there, Jack, I want to get into something----
    Mr. Kingston. I am not moving.

                             FOREST LEGACY

    Mr. Wamp. Okay. We can talk through this together because 
you raised some issues that I want to get straight into. Title 
VIII, Forest Legacy, a little bit of an opposing view here. 
Basically, the Federal Government, through all the agencies 
that we fund, own one-third of all the land in this country. We 
do need more flexibility. I think that is what the President is 
asking for in the Land and Water Conservation Fund's commitment 
to spend all the money, is more flexibility on how it is spent 
and address this backlog maintenance issue. His budget clearly 
does that with respect to the Park Service, and I want to get 
to that in a minute. But I want to know why we are eliminating 
Title VIII, Forest Legacy.
    Forest Legacy, I will give you an example of how this can 
work and how efficiencies can be created. I have got a 
watershed that they should not have allowed any development in. 
But because the land was not set aside, there is development in 
the watershed and now an enormous amount of erosion has taken 
place. And now here comes the Corps of Engineers with very 
expensive propositions to stabilize the banks in the watershed 
when the dadgum land should have been set aside in the first 
place.
    So it is actually more expensive to not have good land use 
planning to set some of the land aside, particularly in our 
watersheds in this country. If we do not set land aside in our 
watershed, through erosion, through bank stabilization, flood 
control problems, we end up spending more money coming back in 
fixing problems because we do not have the foresight to know 
what needs to be set aside.
    Now, so that you understand my goal is kind of a net, 
through the exchange and through creative ways of looking at 
this. TVA, for instance, controls 440,000 acres of land in this 
country and all of it is not to be set aside, from my view. 
Some of it can be developed, but it has to be done in a very 
responsible, methodical way. They can go through a dispensation 
process and excising of land, and swap it so that the real 
needs of conservation and preservation in this country are met.
    We travel every year as a committee. I know you have got a 
bunch of kids, but I would encourage you to have your wife try 
to get somebody to keep them and go with us because you see all 
these needs when you go out there.
    I would also say, Chief, welcome aboard. I am encouraging 
our Chairman next summer, in 2002, to come to the Cherokee 
National Forest which is in my district. Ann Zimmerman runs it 
very, very well. A great natural resource. So I am an advocate. 
But I think that we can come together with this Administration 
as responsible, limited Government folk and come up with a way 
to creatively change the rules, still setting aside those land 
resources that must be set aside, because we have got to keep 
making progress on that. You cannot just say, all right, we own 
enough land, we cannot own any more when there are clearly 
areas that need to be set aside. That is a good business 
approach. It is going to save you more money to set them aside, 
plus you have got the water quality issues. It is all 
interrelated. Everywhere we go we see run-off sedimentation 
problems with respect to water quality in this country.
    I am going back home tomorrow to meet with some people on 
what happened to Title VIII, Forest Legacy, because there are 
some of those efforts underway in the East and they are little 
pieces of property that can go a long way to environmental 
quality and preservation. And can you address that first?
    Mr. Bosworth. I am going to have Michael Rains talk a 
little bit about the Forest Legacy in answer to that question. 
But I would also like to tell you that I have been to the 
Cherokee Forest and visited the Coohee Whitewater Center. I 
know that you have expressed a lot of interest in trying to 
help us with that center, and we appreciate that.
    Mr. Rains. Congressman, it is true that Title VIII or about 
half the Forest Legacy program was not provided for in this 
budget. You know, when we look at all the needs that we have, 
we have probably got in conservation easements, which is the 
focus of the Forest Legacy program--it is typically not fee-
simple or buying outright, but buying conservation easements as 
a good stewardship tool for non-Federal land or those lands 
adjacent to our public lands--we probably have right now over 
$200 million in need. So I do not know what is the right level. 
I do know that the current level at least provides some of our 
highest priority legacy tracts and we will continue with those. 
Could we use more? Sure. Does it rank in terms of the 
priorities? Sometimes yes, sometimes no. Not right now.
    Now in terms of the legacy, it is a great tool. It is a 
great stewardship tool for our non-Federal lands. And what it 
also does is allow landowners to stay on their property forever 
while providing a working forest. That is really the critical 
notion of legacy. And you can do that without infringing on 
private property rights and being regulatory in nature. So, it 
is a good program. It has made some great, great gains in the 
previous years, and we are hoping that the subcommittee will 
look at that closely.
    Mr. Wamp. I am hoping the subcommittee will look at that 
closely as well.

                SUPPLEMENTAL-PINE BEETLE AND ICE DAMAGE

    We have got pine beetle problems out the kazoo in the State 
of Tennessee. I met with our commissioner of agriculture, his 
deputy, our State forester, his deputy, and we have got an 
emergency supplemental need--and we may be coming in with 
Arkansas and Texas on their ice problems--for reforestation 
dollars for pine beetle because there are I think, 22,000 acres 
in Tennessee that just simply will not be reforested unless we 
provide some emergency monies to reforest.
    What role does Forest Service play? Can you help me whether 
there is a title that we are preparing for reforestation or for 
this emergency need? There may be a supplemental move in June 
or July, I have talked to Chairman Young about that this 
summer. And can you tell me about pine beetle as it relates to 
other emergency disaster issues like ice, if we have a southern 
title for the reforestation needs of the forests in the South 
based on these two problems.
    Mr. Bosworth. I am going to ask Randy to help answer this 
question. I am familiar with the issue of the ice, and I have 
long-time familiarity with the pine beetle and the problems 
with that. But the specifics regarding the funding for that 
emergency, I am going to have to ask Randy or Hank to help me 
with that.
    Mr. Phillips. Sure. We went through this in your part of 
the country back in the late 1980s also. I was Forest 
Supervisor down there in North Carolina and remember over 
around Robbinsville where I spent a lot of time in salvage 
operations. What you are seeing is really across the whole 
South. I think they are estimating over the next 15 years as 
much as 1 million acres a year could be affected by the 
southern pine beetle.
    This year, right now, we put in about $6.5 million in the 
southern pine beetle suppression and private land assistance. 
There is nothing in the budget for 2002.

    [Clarification this year, right now, we have $2.3 million 
of regular program funds and $6.5 million of emergency funding 
being spent on southern pine beetle suppression on Federal, 
State, and local land. The FY 2002 President's Budget includes 
a total of $13 million in Federal and Cooperative Lands Forest 
Health for high priority insect and disease suppression. 
Southern pine beetle suppression will be considered along with 
all other high priority suppression needs.]

    And part of the reason for that, I believe, is because the 
Administration is looking at a broader method to fund all 
emergency assistance through a special appropriation. Right now 
we have an emergency fire contingency, and a forest health 
emergency that is funded separately. I think the Administration 
wants to look at pooling all that. I also think through the 
supplemental process we would have some additional opportunity 
to request some more money for southern pine beetle.
    The other thing they are experiencing is, because there is 
so much of it dying down there, the market is flooded with that 
kind of lumber and so the prices are down and the private 
landowners do not have the opportunity to get maximum profit 
out of the wood that they are harvesting.
    Mr. Wamp. You have to harvest it pretty quickly, though.
    Mr. Phillips. Very quickly. That is creating a little 
problem for us on the National Forest, our ability to respond 
quickly enough to harvest that.

                          REC FEE DEMO PROGRAM

    Mr. Wamp. One quick final question. How about the Rec Fee 
demo in the Forest Service, how is that going? What can we look 
for in the coming four years from this Administration on the 
Rec Fee demo related to the Forest Service?
    Mr. Phillips. I think that Rec Fee demo has been working 
very well, personally. I have had some experience with it in 
the field. The places where it works best is when we get out 
there very quickly and start doing some improvement, using the 
dollars right there on the ground where people can see the 
results very quickly of paying those fees. In most cases, it 
has been my experience that we have developed fairly strong 
support for it once we implemented it. There are some places 
where there are concerns about it, obviously, and we will 
continue to work in those areas. We are going to continue to 
encourage and support the use of fee demo.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Kolbe, I understand you are in three places 
at one time.
    Mr. Kolbe. Well you know that routine. You do that yourself 
as a chairman of a subcommittee. And, yes, I am.
    Mr. Skeen. You are recognized for questions.
    Mr. Kolbe. Thank you very much, Mr. Chairman. I was in the 
Commerce, Justice, State appropriations with Secretary Powell, 
but I did want to come down to have a chance to welcome Mr. 
Bosworth. We really appreciate your being here, Chief, and 
welcome to the new role that you have.
    Just a couple of questions. A comment, just following up on 
what Mr. Wamp said about the Rec Fee demo. I think I happen to 
agree with you that it is working. But you have got a big 
public relations problem. It is not being sold to the public. 
They do not understand that. They do not like it. I try to 
defend it, but it is overwhelming. We are one of the 
demonstration areas in the Coronado National Forest and it is 
not popular at all I can tell you out there. There is some 
support but, by and large, it is not very well supported.
    I think we have a public relations problem. There needs to 
be more explanation to the public of what is being done, how it 
is being used, and why. The most common comments you get from 
everybody is, ``I am paying my taxes already, why am I doing it 
again here?'' I just think that there is something we need to 
do better in terms of explaining it to people.

                        TUCSON ROD AND GUN CLUB

    All politics being local, a couple of my questions here are 
about some local issues. One that has become actually kind of a 
national issue, and that I have a great deal of interest in, is 
the issue of the Tucson Rod and Gun Club, which has been before 
this subcommittee now for a number of years. It is a local 
problem. Members of this subcommittee have heard me talk about 
it for four years and yet we have no resolution of this by the 
Forest Service. So I am hoping that with your leadership we 
will be able to take a fresh look at this whole thing. If you 
have not had a chance to hear about it, let me have the 
pleasure of being the first to bring it to your attention. 
[Laughter.]
    Mr. Bosworth. I actually have.
    Mr. Kolbe. Oh, good.
    Mr. Bosworth. It is one of those issues that kind of 
resounds around the whole Forest Service.
    Mr. Kolbe. Yes, it does. It is bouncing around the whole 
Forest Service.
    Mr. Bosworth. I am not familiar with all of the specifics.
    Mr. Kolbe. Well, I am pretty much out of patience with it. 
This was closed down in March of 1997, four years and a month 
ago, and we still have absolutely no resolution to this issue. 
And it is not because we do not have the ability to. We have 
talked ourself to death on this. We have even gotten agreement 
to take this to a dispute resolutions mechanism set up by the 
Udall Center a few years ago. We have worked with the various 
interest groups. We have done everything possible, but we do 
not open the range.
    Now I am the first to say that public safety cannot be 
compromised. But I do not think there is any doubt, as all the 
reports show, that a well-controlled, consolidated shooting 
range that is properly designed and managed can be done safely. 
And it ought to be permissible on Federal lands. That is a 
statement the Forest Service has made for years.
    It is in the public interest, I would think you would 
agree, to have a safe shooting facility. Without it, we have, 
and this is actually occurring a lot in the Coronado now, a 
tremendous amount of wildcat shooting. So lead is all over the 
ground. Dangerous environmental degradation. Danger to people, 
to animals there. So it is a danger to the forest's ecosystem. 
We need to have this accredited shooting that assures the 
public safety but also, at the same time, does protect the 
environment. I do not think these two objectives are mutually 
exclusive. In fact, I think they actually depend on each other. 
You have to solve one of them in order solve the other.
    So I am asking you today to personally look into this 
matter and to try to assure that we can reach a resolution of 
this issue. It is just one of those things where I believe the 
previous Administration had given direct orders to the 
superintendent not to resolve this problem and he has followed 
through very well and we have never had a resolution of this. 
But it is time to change that and get this thing resolved to 
all parties' satisfaction. And I would ask you to try to 
facilitate that.
    Mr. Bosworth. I will certainly look into that and see how I 
can have an effect on it.
    Mr. Kolbe. Thank you. I appreciate that comment and we will 
be following up. I might say my staff is intimately familiar 
with this issue, having sat through maybe 5,000 meetings on the 
subject, and would be happy to work with you on it.

                      SABINO CANYON T-SHIRT SALES

    Another issue which really kind of puzzles me, and I think 
this is a problem maybe around the entire Service but it has 
really become an issue in Sabino Canyon, which is a very 
popular place right in the urban area of Tucson, there in the 
Coronado National Forest, thousands and thousands of hikers go 
there every day, and this has to do with the sale of 
merchandise in there, particularly T-shirts. First, the Service 
says they cannot regulate those sales, and yet Congress has 
given the Forest Service the authority to regulate the 
occupancy and use of National Forests. In your own regulations, 
Section 261.10 prohibits ``selling or offering for sale any 
merchandise and `commercial distribution of printed material' 
without authorizations.'' Courts have ruled the Government may 
make time, place, andmanner of regulations of expressive 
conduct or speech. So you have got the Legislative Branch which has 
spoken, you have your own regulations, and you have the Judicial Branch 
which has spoken on this. Yet, all we hear from the Forest Service is 
reasons why it cannot be done.
    It really is an incredibly tacky problem there that 
everybody, the Friends of the Sabino Canyon, the Friends of the 
Forest Service, and all the interest groups would like to see 
some regulation. I know there is issues of free speech, but we 
deal with it here on the National Mall, the Park Service deals 
with it here on the National Mall all the time.
    So I am just puzzled as to why this cannot be dealt with. I 
understand you are in the process of beginning to promulgate/
draft some regulations, but I have been told it is going to be 
years before you can accomplish this.
    Mr. Bosworth. I am going to have Randy talk a little more 
about that. But it is my understanding that we are promulgating 
regulations, but I do not know why it would take years.
    Mr. Phillips. I was hoping I would not have to come back 
this year and talk to you about this.
    Mr. Kolbe. We talked about it last year.
    Mr. Phillips. Yes, we did. Let me tell you what has 
happened since then. We have been working with the forest and 
the District Ranger has now issued some guidelines that they 
need to follow, and we can get you a copy of those guidelines 
if you would like to see them. We do not know if they will be 
challenged or not. We are going to support them as best we can. 
We think we can start regulations, and it will not take years, 
it could take as long as 18 months to promulgate regulations.
    Mr. Kolbe. That is years since we have already been at 
least one year since we started this process. So you are 
talking about another year and a-half. That is two and a-half 
years.
    Mr. Phillips. Right. By the time you get through national 
rulemaking, it can take at least 18 months. Interestingly 
enough, we are not seeing this problem in a lot of places on 
National Forests around the country. And that is the problem I 
run into with our legal counsel when they say, where is the 
compelling need to do a national rule and the only example I 
can offer up is Sabino Canyon, I do not get a lot of support.
    Mr. Kolbe. I think the reason is obvious, isn't it? You do 
not have too many forest places where you get this tremendous 
daily use of thousands of people coming on a daily basis.
    Mr. Phillips. That is true.
    Mr. Kolbe. The Park Service does everywhere, so they have 
had to deal with this for a long time, obviously.
    Mr. Phillips. Right on the Mall primarily, yes.
    Mr. Kolbe. Well, the selling of merchandise at the entrance 
to various National Parks and things like that inside the park, 
obviously, they regulate, they control that kind of thing. I 
just do not understand why this is so complicated and difficult 
to deal with.
    Mr. Phillips. Well, the ideal thing would be to start the 
rule so that we prevent any problems from occurring. You do not 
want to wait, we do not want to wait until we have an expanded 
problem in this area. So we are very interested in starting the 
rule. But it could take as long as 18 months once we start. We 
are hoping the guidelines in the interim will help deal with 
some of the problems they have been having in Sabino Canyon.
    Mr. Kolbe. What is the difference between the rule and the 
guideline?
    Mr. Phillips. Well the rule really has the effect of law 
behind it and it is very specific in what you can and cannot do 
in terms of limiting location, types of sales, things like 
this. This guideline tends to try and do some of that. And if 
we can make it work with the guidelines and not have to go 
through rulemaking, so much the better.
    Mr. Kolbe. But the guideline would be voluntary?
    Mr. Phillips. Well we will try and enforce it.
    Mr. Kolbe. I am confused as to the difference between the 
two. Whatever it is, I hope we get on with it.

                          ILLEGAL IMMIGRATION

    The last thing, Chief, that I would like to mention has to 
do with the problem of environmental degradation caused by the 
amount of illegal immigration that has been coming across the 
border. We share a border, our districts are next to each 
other, and Arizona has borne the brunt of this. I suspect, 
unfortunately, that a lot of it is beginning to move to New 
Mexico and with illegal immigration, they are going to see more 
of this. But with the communities we have right along the 
border there it is a problem every single night, as you know.
    We have a tremendous problem with this. The tens of 
thousands, well, hundreds of thousands coming across in one 
county this last year have resulted in a tremendous amount of 
degradation. We put some language in last year directing the 
Secretary of the Interior and the Forest Service, with the INS 
and the EPA, to develop a plan to mitigate the environmental 
damage. I just wanted simply to call this to your attention 
because it does ask that it be done specifically to look at the 
Southeast Arizona border. If we can come up with a plan there, 
as this problem expands or migrates, I should say, to other 
areas of the border, we can use this as a model and deal with 
it there.
    But I just want you to be aware of the importance of this 
plan and ask you to make sure that the Forest Service does work 
on this. There have been meetings down in Arizona on this. We 
have been a little disturbed because the Forest Service said, 
well, we really do not want to do it just here in Arizona, we 
want to do it nationwide. The language in the bill last year, 
in the report rather, was very explicit about this, about 
designing the program here and dealing with where the problem 
is right there today. So I would just like to call that to your 
attention.
    Mr. Bosworth. Thank you. I am aware of the problem there 
and I know that some work has been done. I think there have 
been some accomplishments in getting some focused law 
enforcement and focused patrols and whatnot and trying to work 
on that problem. I know there is a whole lot more to be done 
though.
    Mr. Kolbe. It is very serious. I thank you very much.
    Mr. Bosworth. Thank you.
    Mr. Kolbe. Mr. Chairman, thank you. I really appreciate 
your accommodating me.
    Mr. Skeen. Good. Mr. Dicks.

                             ROADLESS RULE

    Mr. Dicks. Can you tell us where we are on the roadless 
issue? It is hard to understand if you read the Washington Post 
whether the Administration is for it or against it. We are 
still listening, I heard that very clearly, we are listening.
    Mr. Bosworth. I think that is the more accurate 
positionright now, from my perspective. It is in the Department of 
Agriculture, and they are looking at it in the Secretary's Office, they 
are considering what should be done. I know that there are concerns, 
and I have concerns, when you read the order that Judge Lodge in Idaho 
came out with. So people are sorting through trying to understand 
exactly what that means and what the appropriate course of action is.
    Mr. Dicks. When will a decision be made? If you read the 
article, ``The White House has instructed the Justice 
Department''--this is today's Washington Post--``to research 
ways to scuttle a Clinton Administration regulation protecting 
60 million acres of National Forest from logging and road 
building,'' sources said yesterday. The move was the clearest 
sign yet that President Bush will oppose the measure.
    ``The Administration has until next week to file a brief 
with U.S. District Court in Boise, Idaho, declaring whether it 
intends to support the U.S. Forest Service regulation that was 
announced by President Bill Clinton on January 5th. It was 
among scores of Clinton rules and orders that Bush put on hold 
after taking office and is the subject of a Federal suit 
brought by the timber industry in the States of Idaho, Utah, 
and Alaska.
    ``According to sources, a high ranking White House policy 
official instructed Justice Department lawyers to find a way to 
set aside the regulation until the Administration can produce 
either a less restrictive proposal or eliminate the rule 
entirely. `The lawyers were asked to see if they can make this 
work legally,' explained one Administration source. A White 
House spokeswoman, Claire Buchan, said that, `We have not 
finalized our decision, but that the Administration is 
committed to providing protection in roadless areas of National 
Forests.'''
    Now which is it? Are we going to scuttle the rule, change 
it, or are we going to abide by it?
    Mr. Bosworth. I really cannot give you a direct answer on 
that because I really do not think that decision has been made 
by the Administration. We have to respond back to the court by 
May 4th, the court in Idaho.
    Mr. Dicks. So we will know then? You have not been told by 
Secretary Veneman or anybody at the White House what the 
Administration's position is on the roadless rule?
    Mr. Bosworth. No, I have not been.
    Mr. Dicks. Nobody has given you any guidance?
    Mr. Bosworth. I have had discussions with people in the 
Department on what the concerns are, the problems, the issues 
that we have talked about from that perspective. But no one has 
said to me that we are going to scuttle this, or we are going 
to----
    Mr. Dicks. Nor has anyone said to you this is what we 
intend to do?
    Mr. Bosworth. No.

                       HISTORY OF ROADLESS RULES

    Mr. Dicks. Why is the Forest Service adopting this rule? 
Let's go back, just for the record here, so we have a better 
understanding. Why is it that we want to do this?
    Mr. Bosworth. Why did the Forest Service adopt this rule in 
the first place?
    Mr. Dicks. Right.
    Mr. Bosworth. For probably 30 years now one of the big 
issues in the Forest Service is how we are going to deal with 
these roadless areas. It has been highly contentious. We went 
through RARE I back in the early 1970s, we had RARE II when a 
decision was made, in I guess that would have been the late 
1970s, early 1980s. We went to court on the RARE II decision 
and we lost in court in California v. Block which threw it back 
basically to what we ended up doing, working on it in our 
forest plans. As we developed our forest plans, we tried to 
define or decide which of the areas would remain roadless, 
which areas we would recommend for wilderness, and which areas 
we would look at roading. And I might add, that was a very 
contentious issue in the development of all of the forest plans 
across the country. And then as we are moving on into the 
revision of the forest plans, once again we are going to be 
faced with the issue of roadless areas. This was an attempt by 
the last Administration to resolve that issue and that was the 
decision that they came out with.
    Mr. Dicks. What are inventoried roadless areas?
    Mr. Bosworth. Inventoried roadless areas are the areas that 
were identified through forest plans and through the RARE II 
process. I cannot remember all the exact definitions, but areas 
of 5,000 acres and larger that have no roads in them, 
basically. There are some exceptions. They can be smaller if it 
is an island or if it is some kind of area that is separate 
from the National Forest. But generally it is areas of 5,000 
acres and larger that do not have the presence of roads.

                        ROADLESS RULE EXCEPTIONS

    Mr. Dicks. I am told that there are some exceptions. You 
can protect health and safety threatened by a catastrophic 
event.
    Mr. Bosworth. That is correct.
    Mr. Dicks. So then you could build a road?
    Mr. Bosworth. Yes. That is correct.
    Mr. Dicks. Fire?
    Mr. Bosworth. Fire, or a threat to life and property. And I 
also believe that if somebody has a piece of private land that 
needs to be accessed, there is some exceptions for people to 
have access to their land. Things like that.
    Mr. Dicks. You can also conduct environmental cleanup.
    Mr. Bosworth. Yes, that is correct. You can conduct 
environmental cleanup.
    Mr. Dicks. Would that include salvage?
    Mr. Bosworth. Well, the salvage you can do if it is for 
purposes other than just getting the timber. If you are doing 
it for ecological purposes, you can do it. Now you cannot build 
a road to do it, you would have to do it by other means.
    Mr. Dicks. You say here you could have a road, and this 
would be an exception to the Clinton roadless policy, to 
conduct environmental cleanup.
    Mr. Bosworth. That would be things like cercla abandoned 
mines or some of those kinds of things.
    Mr. Dicks. Okay. And then to allow for reserved or 
outstanding rights provided for by statute or treaty.
    Mr. Bosworth. That may be somebody that has a valid mining 
claim or a private land holding that needs to be accessed.
    Mr. Dicks. And then it says to prevent irreparable resource 
damage by an existing classified road. It is hard to understand 
if it is already a road.
    Mr. Bosworth. There are some places where you have a road 
and then you have a roadless area on each side of it because 
they are greater than 5,000 acres. My guess would be that there 
are some situations where a road may create some problems 
because of location of where that road was built andthere may 
be some opportunities to relocate that road to prevent irreparable 
damage.
    Mr. Dicks. It also says there are some exceptions where you 
can--actually, it says ``prohibiting cutting, sale, and removal 
of timber in inventoried roadless areas except for the cutting, 
sale, or removal of generally small diameter trees to maintain 
or improve roadless characteristics.''
    Mr. Bosworth. Those are the kinds of activities that could 
take place. It would not allow road construction to do those 
activities though. I mean there are activities that can take 
place in some of these roadless areas if they are----
    Mr. Dicks. But how could you do--you would have do it with 
a helicopter.
    Mr. Bosworth. Helicopters.
    Mr. Dicks. It says, ``to improve threatened, endangered, 
proposed, or sensitive species habitat.''
    Mr. Bosworth. Again, the point is that there are activities 
that can take place--cutting of trees and other kinds of 
things--for ecological purposes; threatened and endangered 
species, some of those kinds of things.
    Mr. Dicks. How do you feel about this personally? What is 
your position as Chief? Some of my friends are for it, some of 
my friends are against it, right?
    Mr. Bosworth. And I am for my friends. [Laughter.]
    Mr. Bosworth. Generally, I think that there are a large 
number of these roadless areas that need to be protected, or 
that need to remain roadless, I guess, is the way I would 
characterize it. I think that regardless of what happens with 
this roadless policy, most of those areas are going to remain 
roadless. They are roadless for a reason. In some cases we 
might have built roads years ago if there was a reason to go 
into them. In a lot of cases they just have high values for 
things other than roadless. I also believe that a large number 
of them do not need----
    Mr. Dicks. And they were in your plans as roadless.
    Mr. Bosworth. They were in our plans as roadless, a lot of 
them. Some of them were not, but a lot of them were. It has 
been my experience that a lot of people that I deal with in the 
public like to go back into the back country and have a 
recreation experience that is different than wilderness, where 
they are able to use a chain saw to cut a little firewood or to 
drive back into the back country on a old low standard road and 
take their family in a pickup truck or something and camp. And 
I think that these roadless areas hold a lot of value for those 
kinds of purposes that, again, is different than wilderness and 
it is also different than roading them and logging them. They 
want to have some things that are not wilderness and are not 
highly developed. I think many of these roadless areas provide 
those opportunities.
    The issue with the roadless initiative I think has to do 
with the perception of people in how it was done and whether or 
not the people had an adequate opportunity to comment and to be 
heard. And like many of these big issues, that is often the 
case. It turns out usually that----

                      DEVELOPMENT OF ROADLESS RULE

    Mr. Dicks. How much time did they have? Was it under a 
year? Over a year?
    Mr. Bosworth. The public comment period was----
    Mr. Phillips. The scoping on that started in October of 
1999. So, yes, over a year.
    Mr. Dicks. Over a year. And 1.6 million comments?
    Mr. Phillips. Comments.
    Mr. Dicks. That is pretty significant, right. Obviously, it 
was very controversial.
    Mr. Phillips. That is a lot of comments.
    Mr. Bosworth. That is probably more comments than we have 
gotten on anything that I have ever been involved in in the 
Forest Service.
    Mr. Dicks. Do you personally feel that the process was 
flawed?
    Mr. Bosworth. I do not really want to answer that question. 
[Laughter.]
    Mr. Dicks. I know, but you are up here.
    [Laughter.]
    Mr. Dicks. That is why we have these hearings. Congress has 
an oversight responsibility.
    Mr. Bosworth. That is correct, yes.
    Mr. Dicks. And we will do this in your personal and 
professional perspective.
    Mr. Bosworth. The problem that I have is that while we are 
under litigation I just need to be careful about how I answer 
that question. I do not know that I can add a lot to what I 
said. I think that how you go about things is often as 
important as what you end up doing.
    Mr. Dicks. Do you think there should be an extension, more 
time for comment?
    Mr. Bosworth. I would have to think about that some.
    Mr. Dicks. That is all right. Go ahead and think about it 
and then put it in the record.
    Mr. Bosworth. I will have to think about that for several 
days, probably till the 4th of May.
    [Laughter.]
    Mr. Dicks. Till after May 4th.
    [The Information follows:]

    [Comments for the Record from Mr. Bosworth:
    As Chief of the Forest Service I am committed to providing 
roadless protection for our national forests. However, many 
concerns have been raised about the roadless rule, and because 
roadless protection is the right thing to do, it is important 
that we do it right.
    In response, the Administration will propose responsible 
amendments in early June to address the important issues raised 
about the rule. The amendments will center around the issues of 
informed decision-making, cooperation, protecting forests, 
protecting communities, homes, and property, and protecting 
access to property.
    These actions are aimed at protecting the principles of the 
rule, correcting data errors, and addressing concerns raised by 
the court, local communities, tribes, and state governments.]

    Mr. Bosworth. Again, I believe that the way that we go 
about doing these things has about as much effect and is about 
as important as what we do in the end. Sometimes we will go 
through something where we are legally defendable, we have done 
it all by the book and we are able to defend ourdecision and 
still have a lot of people that did not feel like they really had a 
good opportunity to be heard. And so whatever we do on these----
    Mr. Dicks. And many times Congress will ask an agency to 
give them another 90 days or another 60 days for comment if 
they, in fact, feel the time was a little too short. But in 
this case, that is a pretty significant amount of time, though 
this is a very major issue.
    Mr. Bosworth. It covers a lot of country. It is basically 
coast-to-coast and a lot of acres. As you know, the results 
were an awful lot of people commenting on it.
    Mr. Dicks. And we are in litigation?
    Mr. Bosworth. We are in litigation.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. Mr. Bosworth, 
gentlemen, welcome. Sorry I could not attend the whole hearing. 
I had Secretary Veneman upstairs, your boss.
    Let me just follow on the line of questioning regarding 
roadless. There were 1.6 million comments, is that right?
    Mr. Bosworth. That is my understanding, yes.
    Mr. Nethercutt. My understanding is that the Department 
responded to about 55,000 of them. Do you have any knowledge of 
that?
    Mr. Bosworth. Not sure. I do not know.
    Mr. Nethercutt. That is what I understand. I am wondering 
if the public had access to the maps that would cover the 
proposed roadless areas before they commented. Were those 
disseminated widely or at all?
    Mr. Bosworth. There were maps of the inventoried roadless 
areas. Part of the issue was when were those available, and I 
think that was January 2000. That was just the inventoried 
roadless areas. Part of the roadless proposal dealt with 
unroaded areas adjacent to, and those did not have maps.
    Mr. Nethercutt. Did not have maps. So we do not know what 
percentage of the 1.6 million people who commented did not have 
access to the maps that would allow them to have an informed 
understanding.
    Mr. Bosworth. Well, that is part of what is under 
litigation right now.
    Mr. Nethercutt. I see. Okay.
    Mr. Bosworth. I guess that is what the judge is going to 
tell us.
    Mr. Nethercutt. I understand. I certainly want to welcome 
you and wish you well in your new position. I know you served 
in the Colville, as I understand it, some years ago. I want to 
invite you back to the Colville. It is a great part of the 
State of Washington and the Pacific Northwest.

                     CREATING OPPORTUNITIES PROGRAM

    We have an interesting situation out there as it relates to 
small diameter logs and the need to thin. We are looking at a 
pretty drought-ridden area, at least by all projections today, 
for the spring and summer and we are worried about fires. We 
escaped last year, fortunately. Idaho and Montana did not.
    There is a program called the CROP program, Creating 
Opportunities program. It is one that allows the harvesting of 
small diameter logs on a consistent and sustained basis. It, 
frankly, cleans the fuel out of the forest but also provides 
some jobs. I would urge you to come back and have a reunion out 
there and look at the CROP program seriously. We think it has 
the potential to be enhanced and provide not only good 
management practices for the forest, but also provide some 
employment for our timber-depressed areas, our timber 
communities that are in trouble. So I would extend the 
invitation.
    Mr. Bosworth. Thank you. I would really very much like to 
do that. I have really fond memories of three years and three 
months on the Republic Ranger District of the Colville. There 
are just some fantastic people and fantastic country in that 
neck of the woods.
    I also would like to say I think there are some huge 
opportunities with the small diameter and thinning from below 
in terms of helping both the National Fire Plan and protecting 
communities and putting people to work. I am not familiar with 
the CROP program, and maybe Randy might want to add.
    Mr. Phillips. I have been spending a lot of time out in 
your part of the country looking at possibilities for small 
diameter. Our forest products lab has actually had staff out 
there working just a little south of you down in Enterprise, 
Oregon, trying to put some of that new technology on the ground 
for small diameter. And I am really encouraged by some of the 
new products.
    Mr. Nethercutt. Well I think it has great potential. It is 
environmentally sensitive and resource sensitive and all that, 
but it is also job sensitive. I think it is one worthy of 
follow up.

                      FIELD LEVEL DECISION-MAKING

    I appreciate your testimony, sir, with respect to giving 
line officers a chance to make some decisions about Forest 
Service policy. I think for some time now we have had policy 
decisions emanating from the Nation's Capitol and more 
centralized. I think there is value out in the field, and I 
think your testimony speaks to that in some measure that you 
are in agreement that there are good people who have the 
ability and should have the ability to make good decisions 
about management in our forest system. So I think that is wise 
for this Administration to think that way, frankly.

                             TIMBER HARVEST

    I am concerned about the lack of Federal timber in the 
pipeline. I know it takes time to get a timber sale advertised 
and finalized. I am looking at the statistics in your testimony 
that in fiscal year 2001 the funding was for 3.6 billion board 
feet but the achievement was 1.7. Even if we provide more 
funding, I guess the question is can we produce more off the 
Federal lands and provide billions of board feet through the 
system as projected that we need for a variety of reasons, not 
just to have forest management and good health, but prevent 
fires and so forth. What is your sense of how we can enhance 
the timber in the supply line?
    Mr. Bosworth. I think there are a number of things that we 
can do. One being, we need to look at sorting out the 
intermeshing of all the different regulations that we have and 
see how we can find some better ways to streamline some of the 
NEPA work and the consultation on Endangered Species Act and 
some of those things. And we are looking right now at some ways 
of doing some of that streamlining.
    I think there are some relationship kinds of things that we 
can build, too, in terms of collaboration at the community 
level, where we can get some common agreement on what we ought 
to be doing and then be able to move forward with a lot of 
support from folks. I think all those approaches are going to 
help us. But in the end, we really have to take a good look at 
the intertwining of regulations and laws and see what the real 
results of those are. I think there aresome things we can do 
particularly in terms of our relationships with the regulatory agencies 
that could help speed up some of the work as well.
    Mr. Nethercutt. I think that is smart to look at it because 
there is lots of frustration out there. I think as a result 
there is some mismanagement or lack of management on our 
Federal lands as opposed to adjacent State lands and others in 
different parts of the West. Montana, particularly, has had a 
good record of managing its State lands, and for a profit, if 
you will. So I think to the extent that we can shift money and 
decision-making to the local level and have community 
collaboration, I think that is probably the best of all worlds, 
and in a very difficult environment, I agree.

                        TIMBER SALES LITIGATION

    Just one final comment if I may, Mr. Chairman. I was up in 
Republic just last week and got an ear full about the issue of 
filing a protest to a timber sale and the ease at which it is 
accomplished by those who seek to stop a timber sale who do not 
always have a vested interest in the community or the region. 
And I am not sure what the answer is on that. We have to work 
through it. But I raise it as an issue of possible future 
discussion to see how we can make people with a loss to bear be 
the ones who have the ability to file a protest or to object to 
a timber sale. Those who do protest slow down the process and 
create more cost and energy that is expended not in management, 
but in litigation, and the prevention of litigation, and 
satisfaction of litigation. So I think it is a great problem. 
We will work on the answer. But I raise it for your 
consideration.
    Mr. Bosworth. It is a big problem. We have examined that. 
We have made changes in our appeal process over the years and 
we have had some help from Congress in changing our appeal 
process as well. On one hand, you want people to have the right 
to question the decisions that we make. On the other hand, you 
do not really want to be in a situation where you just 
continually slow down, and slow down, and slow down projects 
that, if they are slowed down too much, may never come to pass, 
projects that are well-intended and projects that would be good 
on the ground and good for the community. So it is a difficult 
dilemma. I would be more than happy to spend some time trying 
to work on that with you.
    Mr. Nethercutt. Great. It seems like when someone from 
Wisconsin or New Mexico, sorry, Mr. Chairman, or elsewhere can 
send a protest with a 34 cent stamp and does not give a hoot 
really about the area that they are affecting, I question that.
    Mr. Bosworth. It also really frustrates people, especially 
these collaborative groups, when they come to an agreement from 
all sides and then we get an appeal from someone that was not 
involved in the development of the project at all, and never 
commented. Then they have an appeal that slows things down. We 
lose our credibility when that happens.
    Mr. Nethercutt. Thanks for your sensitivity. Thanks, Mr. 
Chairman.
    Mr. Skeen. Mr. Taylor.
    Mr. Taylor. Mr. Chairman, thank you.

                           FORESTRY EDUCATION

    Chief Bosworth, it is a pleasure for me to welcome a fellow 
member of the Society of American Foresters to this committee 
and to that post. In 1799 George Washington became ill with 
pneumonia down the road at his plantation and we bled him. It 
was not good for George Washington at all, he died in December, 
but it was the best knowledge we had in medicine at the time I 
guess. We started over a century ago with silviculture in this 
country. The first school of forestry is in my district. And, 
of course, the first Chief Forester who was there advising that 
in the beginning later became the Chief Forester for President 
Roosevelt. But the strides that the Forest Service has made in 
its experimental stations, in the 100 years of progress, has 
been pretty much overlooked by many people in this country.
    Today, we are in a virtual forest ability. We have worlds 
of good science. Our best universities train members of our 
Forest Service as well as foresters all over the country. And 
yet we often throw all that information, all that education, 
away and adopt what many people would think as making decisions 
by a ouija board. There is more salvage loss and more need for 
fire control and harvest in that way and reading salvage 
through disease and insects than we are importing, and yet we 
are importing more and more timber into this country, which, by 
the way, brings in more disease.

                      DOMESTIC VS. FOREIGN TIMBER

    Would you give us your thoughts about going to other parts 
of the world to import timber that we definitely need. 
Foresters were the original, and are, conservationists. We make 
this table out of wood, plastic, or steel. Obviously, the most 
environmental process would be use wood because it is a 
renewable resource, it is easy to replace and dispose of, and 
it does not take anything like the energy that steel or 
petroleum to manufacture, and it is not finite. Could you talk 
to us a little about your thoughts about importation.
    Mr. Bosworth. Well, you know, to me it is a question of 
balance; how much we want to consume in this country and how 
much we want to produce to satisfy our own desire for 
consumption and then how much we want to import. But, to me, 
the notion that we would not cut any trees in our country 
because we have a ``not in my backyard'' mentality is sort of 
like exporting environmental degradation to countries that do 
not have the same level of environmental protection, the same 
level of science and research to help do the jobs correctly, 
and the same technology.
    From an ethical standpoint, it does not seem to me like 
that is a good way of operating. We have good opportunities 
here to keep the right balance, and, of course, ``right'' is in 
the eyes of the beholder. However we can make some utilization 
of our own natural resources, we can take care of the 
environment, and we can do it in a way that I think would 
satisfy the majority of people.
    We have an international forestry program that is working 
to help other countries obtain some sustainable management 
standards. Our international forestry folks are doing good work 
that way. But still, the notion of trying to not utilize any of 
our material but only use material that we can get from other 
countries, that still smacks to me of exporting environmental 
degradation.

                         SCIENTIFIC MANAGEMENT

    Mr. Taylor. It is my understanding, and of course in 
history, that the Forest Service was established to practice 
science and be an example for private landowners, one of the 
purposes, and to give an example of the best silviculture. If 
the Forest Service is not managed that way, then what hope do 
we have as private farmers who are trying to support the timber 
industry and a viable industry in this country if your example 
is never to manage it as your science tells you?
    Mr. Bosworth. Well I would like for the Forest Serviceand 
the National Forests and Grasslands to be an example of top quality 
management around the country that other States and private landowners 
can look to for help and as a model of how to manage the land. At the 
same time, I think we still have to recognize State lands and private 
lands may have different purposes than the National Forests. We need to 
be managing the lands that we have the responsibility for in a way that 
is based in science. We have a good research branch that does a good 
job of using the technology and balancing the desires of people, and 
that should be the model that others can look to.
    Mr. Taylor. Many people misunderstand the fact, Mr. 
Chairman, that the parks are in a different department and we 
do not harvest timber in parks. The forests, under Department 
of Agriculture, it was intended for us to manage it using a 
silviculture method, in a multiple use basis, and we appreciate 
that difference. I appreciate your comments about the 
importations and the management. And I look forward to working 
with you. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Dicks.

                            ROAD MAINTENANCE

    Mr. Dicks. I will be very brief, Mr. Chairman, and thank 
you again for this hearing today.
    One other issue that we face in the Northwest is the 
problem with culverts. This gets back to road maintenance, road 
conditions, et cetera. In fact, the Indian tribes of the State 
of Washington have brought a lawsuit under Phase II of the Bolt 
decision against the State of Washington in which the Federal 
Government is at this point a co-plaintiff, basically saying 
that your plan for fixing these culverts is inadequate.
    I am very concerned that, on one hand, the Federal 
Government is challenging the State of Washington. And, by the 
way, I support what the tribes are doing. The replacement of 
these culverts, we think, could save about 200,000 wild salmon 
each year in the Puget Sound area. We have got a lot of 
hatchery fish but our wild fish is the problem. At the same 
time, the Forest Service's record here is not as good as it 
ought to be.
    I just wanted you to know that I have asked the GAO to do a 
study in the Pacific Northwest on these culverts and where we 
are on both Forest Service lands and BLM lands. Because if we 
are going to hold the State of Washington to a higher standard, 
and I think we should, I think we have got to also look at our 
own situation and know what it is. So any help you could ask 
the regional forester out there to give us, and I intend to 
talk to him about this myself, in pursuing this matter would be 
helpful.
    Again, I just want to mention I think the maintenance 
issues of these roads, fixing these culverts, getting rid of 
some roads that are unnecessary, all those things are still 
priorities and I worry that the budget does not reflect that.
    Mr. Bosworth. I would just respond to the culvert issue. I 
will be talking with the regional forester out there. I am 
familiar with some of the issues involving passage of 
particularly steelhead and salmon because of the part of the 
country I just came from. In some cases, the culverts are a 
problem for fish passage. In some cases they are a problem in 
terms of the concern for whether they can handle a big run-off 
year. Now it does not look like we are having that problem this 
year, but in a big run-off year we may lose some of the 
culverts. We are in the process of identifying those culverts 
or those places where they need to be added for more like the 
100 year flood rather than the 50 year flood event. So there is 
a lot to be done and it kind of fits in with that backlog that 
we were talking about earlier, I agree with you.
    Mr. Dicks. All right. Thank you, Mr. Chairman.
    Mr. Skeen. Thank you, Chief Bosworth, and thank you Mr. 
Phillips.
    This hearing is now adjourned.
    [Questions for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T2654A.010
    
    [GRAPHIC] [TIFF OMITTED] T2654A.011
    
    [GRAPHIC] [TIFF OMITTED] T2654A.012
    
    [GRAPHIC] [TIFF OMITTED] T2654A.013
    
    [GRAPHIC] [TIFF OMITTED] T2654A.014
    
    [GRAPHIC] [TIFF OMITTED] T2654A.015
    
    [GRAPHIC] [TIFF OMITTED] T2654A.016
    
    [GRAPHIC] [TIFF OMITTED] T2654A.017
    
    [GRAPHIC] [TIFF OMITTED] T2654A.018
    
    [GRAPHIC] [TIFF OMITTED] T2654A.019
    
    [GRAPHIC] [TIFF OMITTED] T2654A.020
    
    [GRAPHIC] [TIFF OMITTED] T2654A.021
    
    [GRAPHIC] [TIFF OMITTED] T2654A.022
    
    [GRAPHIC] [TIFF OMITTED] T2654A.023
    
    [GRAPHIC] [TIFF OMITTED] T2654A.024
    
    [GRAPHIC] [TIFF OMITTED] T2654A.025
    
    [GRAPHIC] [TIFF OMITTED] T2654A.026
    
    [GRAPHIC] [TIFF OMITTED] T2654A.027
    
    [GRAPHIC] [TIFF OMITTED] T2654A.028
    
    [GRAPHIC] [TIFF OMITTED] T2654A.029
    
    [GRAPHIC] [TIFF OMITTED] T2654A.030
    
    [GRAPHIC] [TIFF OMITTED] T2654A.031
    
    [GRAPHIC] [TIFF OMITTED] T2654A.032
    
    [GRAPHIC] [TIFF OMITTED] T2654A.033
    
    [GRAPHIC] [TIFF OMITTED] T2654A.034
    
    [GRAPHIC] [TIFF OMITTED] T2654A.035
    
    [GRAPHIC] [TIFF OMITTED] T2654A.036
    
    [GRAPHIC] [TIFF OMITTED] T2654A.037
    
    [GRAPHIC] [TIFF OMITTED] T2654A.038
    
    [GRAPHIC] [TIFF OMITTED] T2654A.039
    
    [GRAPHIC] [TIFF OMITTED] T2654A.040
    
    [GRAPHIC] [TIFF OMITTED] T2654A.041
    
    [GRAPHIC] [TIFF OMITTED] T2654A.042
    
    [GRAPHIC] [TIFF OMITTED] T2654A.043
    
    [GRAPHIC] [TIFF OMITTED] T2654A.044
    
    [GRAPHIC] [TIFF OMITTED] T2654A.045
    
    [GRAPHIC] [TIFF OMITTED] T2654A.046
    
    [GRAPHIC] [TIFF OMITTED] T2654A.047
    
    [GRAPHIC] [TIFF OMITTED] T2654A.048
    
    [GRAPHIC] [TIFF OMITTED] T2654A.049
    
    [GRAPHIC] [TIFF OMITTED] T2654A.050
    
    [GRAPHIC] [TIFF OMITTED] T2654A.051
    
    [GRAPHIC] [TIFF OMITTED] T2654A.052
    
    [GRAPHIC] [TIFF OMITTED] T2654A.053
    
    [GRAPHIC] [TIFF OMITTED] T2654A.054
    
    [GRAPHIC] [TIFF OMITTED] T2654A.055
    
    [GRAPHIC] [TIFF OMITTED] T2654A.056
    
    [GRAPHIC] [TIFF OMITTED] T2654A.057
    
    [GRAPHIC] [TIFF OMITTED] T2654A.058
    
    [GRAPHIC] [TIFF OMITTED] T2654A.059
    
    [GRAPHIC] [TIFF OMITTED] T2654A.060
    
    [GRAPHIC] [TIFF OMITTED] T2654A.061
    
    [GRAPHIC] [TIFF OMITTED] T2654A.062
    
    [GRAPHIC] [TIFF OMITTED] T2654A.063
    
    [GRAPHIC] [TIFF OMITTED] T2654A.064
    
    [GRAPHIC] [TIFF OMITTED] T2654A.065
    
    [GRAPHIC] [TIFF OMITTED] T2654A.066
    
    [GRAPHIC] [TIFF OMITTED] T2654A.067
    
    [GRAPHIC] [TIFF OMITTED] T2654A.068
    
    [GRAPHIC] [TIFF OMITTED] T2654A.069
    
    [GRAPHIC] [TIFF OMITTED] T2654A.070
    
    [GRAPHIC] [TIFF OMITTED] T2654A.071
    
    [GRAPHIC] [TIFF OMITTED] T2654A.072
    
    [GRAPHIC] [TIFF OMITTED] T2654A.073
    
    [GRAPHIC] [TIFF OMITTED] T2654A.074
    
    [GRAPHIC] [TIFF OMITTED] T2654A.075
    
    [GRAPHIC] [TIFF OMITTED] T2654A.076
    
    [GRAPHIC] [TIFF OMITTED] T2654A.077
    
    [GRAPHIC] [TIFF OMITTED] T2654A.078
    
    [GRAPHIC] [TIFF OMITTED] T2654A.079
    
    [GRAPHIC] [TIFF OMITTED] T2654A.080
    
    [GRAPHIC] [TIFF OMITTED] T2654A.081
    
    [GRAPHIC] [TIFF OMITTED] T2654A.082
    
    [GRAPHIC] [TIFF OMITTED] T2654A.083
    
    [GRAPHIC] [TIFF OMITTED] T2654A.084
    
    [GRAPHIC] [TIFF OMITTED] T2654A.085
    
    [GRAPHIC] [TIFF OMITTED] T2654A.086
    
    [GRAPHIC] [TIFF OMITTED] T2654A.087
    
    [GRAPHIC] [TIFF OMITTED] T2654A.088
    
    [GRAPHIC] [TIFF OMITTED] T2654A.089
    
    [GRAPHIC] [TIFF OMITTED] T2654A.090
    
    [GRAPHIC] [TIFF OMITTED] T2654A.091
    
    [GRAPHIC] [TIFF OMITTED] T2654A.092
    
    [GRAPHIC] [TIFF OMITTED] T2654A.093
    
    [GRAPHIC] [TIFF OMITTED] T2654A.094
    
    [GRAPHIC] [TIFF OMITTED] T2654A.095
    
    [GRAPHIC] [TIFF OMITTED] T2654A.096
    
    [GRAPHIC] [TIFF OMITTED] T2654A.097
    
    [GRAPHIC] [TIFF OMITTED] T2654A.098
    
    [GRAPHIC] [TIFF OMITTED] T2654A.099
    
    [GRAPHIC] [TIFF OMITTED] T2654A.100
    
    [GRAPHIC] [TIFF OMITTED] T2654A.101
    
    [GRAPHIC] [TIFF OMITTED] T2654A.102
    
    [GRAPHIC] [TIFF OMITTED] T2654A.103
    
    [GRAPHIC] [TIFF OMITTED] T2654A.104
    
    [GRAPHIC] [TIFF OMITTED] T2654A.105
    
    [GRAPHIC] [TIFF OMITTED] T2654A.106
    
    [GRAPHIC] [TIFF OMITTED] T2654A.107
    
    [GRAPHIC] [TIFF OMITTED] T2654A.108
    
    [GRAPHIC] [TIFF OMITTED] T2654A.109
    
    [GRAPHIC] [TIFF OMITTED] T2654A.110
    
    [GRAPHIC] [TIFF OMITTED] T2654A.111
    
    [GRAPHIC] [TIFF OMITTED] T2654A.112
    
    [GRAPHIC] [TIFF OMITTED] T2654A.113
    
    [GRAPHIC] [TIFF OMITTED] T2654A.114
    
    [GRAPHIC] [TIFF OMITTED] T2654A.115
    
    [GRAPHIC] [TIFF OMITTED] T2654A.116
    
    [GRAPHIC] [TIFF OMITTED] T2654A.117
    
    [GRAPHIC] [TIFF OMITTED] T2654A.118
    
    [GRAPHIC] [TIFF OMITTED] T2654A.119
    
    [GRAPHIC] [TIFF OMITTED] T2654A.120
    
    [GRAPHIC] [TIFF OMITTED] T2654A.121
    
    [GRAPHIC] [TIFF OMITTED] T2654A.122
    
    [GRAPHIC] [TIFF OMITTED] T2654A.123
    
    [GRAPHIC] [TIFF OMITTED] T2654A.124
    
    [GRAPHIC] [TIFF OMITTED] T2654A.125
    
    [GRAPHIC] [TIFF OMITTED] T2654A.126
    
    [GRAPHIC] [TIFF OMITTED] T2654A.127
    
    [GRAPHIC] [TIFF OMITTED] T2654A.128
    
    [GRAPHIC] [TIFF OMITTED] T2654A.129
    
    [GRAPHIC] [TIFF OMITTED] T2654A.130
    
    [GRAPHIC] [TIFF OMITTED] T2654A.131
    
    [GRAPHIC] [TIFF OMITTED] T2654A.132
    
    [GRAPHIC] [TIFF OMITTED] T2654A.133
    
    [GRAPHIC] [TIFF OMITTED] T2654A.134
    
    [GRAPHIC] [TIFF OMITTED] T2654A.135
    
    [GRAPHIC] [TIFF OMITTED] T2654A.136
    
    [GRAPHIC] [TIFF OMITTED] T2654A.137
    
    [GRAPHIC] [TIFF OMITTED] T2654A.138
    
    [GRAPHIC] [TIFF OMITTED] T2654A.139
    
    [GRAPHIC] [TIFF OMITTED] T2654A.140
    
    [GRAPHIC] [TIFF OMITTED] T2654A.141
    
    [GRAPHIC] [TIFF OMITTED] T2654A.142
    
    [GRAPHIC] [TIFF OMITTED] T2654A.143
    
    [GRAPHIC] [TIFF OMITTED] T2654A.144
    
    [GRAPHIC] [TIFF OMITTED] T2654A.145
    
    [GRAPHIC] [TIFF OMITTED] T2654A.146
    
    [GRAPHIC] [TIFF OMITTED] T2654A.147
    
    [GRAPHIC] [TIFF OMITTED] T2654A.148
    
    [GRAPHIC] [TIFF OMITTED] T2654A.149
    
    [GRAPHIC] [TIFF OMITTED] T2654A.150
    
    [GRAPHIC] [TIFF OMITTED] T2654A.151
    
    [GRAPHIC] [TIFF OMITTED] T2654A.152
    
    [GRAPHIC] [TIFF OMITTED] T2654A.153
    
    [GRAPHIC] [TIFF OMITTED] T2654A.154
    
    [GRAPHIC] [TIFF OMITTED] T2654A.155
    
    [GRAPHIC] [TIFF OMITTED] T2654A.156
    
    [GRAPHIC] [TIFF OMITTED] T2654A.157
    
    [GRAPHIC] [TIFF OMITTED] T2654A.158
    
    [GRAPHIC] [TIFF OMITTED] T2654A.159
    
    [GRAPHIC] [TIFF OMITTED] T2654A.160
    
    [GRAPHIC] [TIFF OMITTED] T2654A.161
    
    [GRAPHIC] [TIFF OMITTED] T2654A.162
    
    [GRAPHIC] [TIFF OMITTED] T2654A.163
    
    [GRAPHIC] [TIFF OMITTED] T2654A.164
    
    [GRAPHIC] [TIFF OMITTED] T2654A.165
    
    [GRAPHIC] [TIFF OMITTED] T2654A.166
    
    [GRAPHIC] [TIFF OMITTED] T2654A.167
    
    [GRAPHIC] [TIFF OMITTED] T2654A.168
    
    [GRAPHIC] [TIFF OMITTED] T2654A.169
    
    [GRAPHIC] [TIFF OMITTED] T2654A.170
    
    [GRAPHIC] [TIFF OMITTED] T2654A.171
    
    [GRAPHIC] [TIFF OMITTED] T2654A.172
    
    [GRAPHIC] [TIFF OMITTED] T2654A.173
    
    [GRAPHIC] [TIFF OMITTED] T2654A.257
    
    [GRAPHIC] [TIFF OMITTED] T2654A.174
    
                                             Thursday, May 3, 2001.

                          DOE BUDGET OVERVIEW

                                WITNESS

HON. SPENCER ABRAHAM, SECRETARY OF ENERGY

                      Opening Remarks of Mr. Skeen

    Mr. Skeen. Welcome, Secretary Abraham.
    We are here today to talk about a very timely subject, 
energy research funding. Today 85 percent of U.S. energy comes 
from traditional fuels, coal, oil and natural gas, and that 
market share is expected to increase over the next 20 years. In 
fact, we use four times more gasoline today than we did 50 
years ago.
    Currently alternative and renewable fuels, excluding 
hydropower, account for 7 percent of total energy use and, 
although alternative and renewable fuel use is expected to 
increase, so will overall demand. Thus, these alternatives are 
not expected to be an appreciably larger share of total energy 
use 20 years from now. We should continue to expand that market 
share, but we have to be realistic and not expect that are 
going to reduce our reliance on traditional fuels any time 
soon.
    Two billion people lack access to electric power. That's 
one-third of the world's population. The worldwide market for 
electric power generation equipment is expected to be $2 
trillion a decade for at least the next five decades. China 
alone plans to build eight to ten power plants a year over the 
next 20 years and 75 percent of them will burn coal.
    We leave two barrels of oil in the ground for every barrel 
we produce. We must develop technology that allows us to do 
better than that. We need to improve our extraction rate while 
continuing the environmentally beneficial advances we have made 
in the extraction process.
    All of these issues require research. Federal 
appropriations can play only a limited role in addressing these 
problems. Most major breakthroughs are going to come from the 
international marketplace and from industry and small 
companies. However, we need to stimulate innovation through 
Federal funding, and we need to focus Federal research funds 
wisely.
    The Committee is concerned that some areas in the budget 
request may have been cut too deeply and we may need to 
rearrange some of the funding distribution that you have 
proposed. I'm sure you will agree that we need a balanced 
portfolio of energy and research that doesn't attempt to pick 
winners and losers, but looks at wide array of programs. There 
isn't a single easy answer.
    Let me turn now to Mr. Dicks for some brief opening remarks 
and then we will work on your summary of the fiscal year 2002 
budget request for energy programs in Interior.

                      Opening Remarks of Mr. Dicks

    Mr. Dicks. Thank you, Mr. Chairman. I want to join with you 
in welcoming the Secretary of Energy to the Subcommittee. We 
have worked together in the past, and based on our very cordial 
visit last week, I look forward to working with you in your new 
role in the Cabinet.
    This is a tough job. Meeting the energy needs of American 
commerce and of American families is an enormous challenge. 
Doing so in an environmentally responsible way is even more 
difficult, but it is also a necessity. As Secretary Abraham 
takes office, all of these factors are multiplied by the 
electric energy crisis in the West and the rising price and 
potential scarcity of petroleum and gas this summer.
    The Secretary is to be complimented for taking on this 
challenge, and I want to personally thank him for stepping up 
to the plate and accepting what may be one of the most 
difficult positions in the new Bush Administration.
    Having noted my respect for the Secretary, I want to make 
it clear that this respect does not carry over to all aspects 
of the energy budget before this Committee. This country is in 
a short term and a long term energy crisis. The electricity 
situation in the West is a disaster, with no short term 
solution in sight. Gasoline prices are over $2 per gallon in 
many places today, and headed to $3 before the end of the 
summer, according to the Wall Street Journal.
    Our dependence on foreign oil is increasing rather than 
decreasing. The response to this crisis in the budget before 
the Subcommittee is to make reductions in ongoing energy 
research and conservation programs totaling over $420 million. 
The response in this budget is to terminate $180 million of 
fossil energy research activities, including advanced fuels 
research, work on new generation turbine engines and 
breakthrough work in emerging fossil energy technology. The 
response in the energy efficiency account is to reduce research 
in more efficient building materials by $42 million, and in the 
Industries of the Future Program by $56 million.
    As if this were not bad enough, OMB has notified the 
Committee to expect a budget amendment this week cutting the 
Partnership for New Generation Vehicles by another $41 million. 
Mr. Chairman, I won't suggest that every one of these programs 
must continue at their current level. But I for one don't think 
it makes any sense to reduce our financial investment in 
research which can lead us out of our current crisis and out of 
our dependence on foreign oil.
    In fairness, not everything in this budget is bad. I think 
a significant investment in new clean coal research recognizes 
that coal is plentiful and that it will continue to dominate 
electric power production in this country for many decades. I 
support the $150 million in the request for this initiative.
    I also want to commend the President and the Secretary for 
increasing funds for the weatherization program. This increase 
is critical for poor families facing huge increase in the cost 
of heating and air conditioning for their homes. I support 
these priorities, but I am hopeful that the Committee can find 
the resources to restore our investments in fossil energy and 
energy efficiency research.
    I look forward to the Secretary's testimony and to the 
questions and answers to follow. But I want to say at the 
outset, that I'm going to be a hard sell on some of these cuts 
to critical areas of energy research and development.
    Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Secretary, your full statement will be made 
a part of the record. Please proceed.

                  Opening Remarks of Secretary Abraham

    Secretary Abraham. Thank you very much, Mr. Chairman, both 
to you and the ranking member, I want to say thank you for 
taking time to meet with me prior to this hearing, so that we 
could begin developing what I know will be a very positive 
working relationship in the future.
    And I want to thank the Subcommittee for taking the time to 
have me here today. I gather there are votes, so I will try to 
be brief in this statement, and I will understand if we need to 
interrupt at whatever point you want to designate your members 
here to go vote. I can obviously begin again when you return.
    Over the last few months, President Bush's Administration 
has prepared what is our first budget under obviously a very 
extraordinarily compressed time frame. And we appreciate your 
patience and consideration as we've taken theopportunity to try 
to evaluate the policies and refine the missions of the Department.

                           BUDGET STRATEGIES

    Throughout our budget formulation process, we've used three 
strategies to guide us. First, we are requesting funds for 
programs that the President has already established in the 
priorities for his Administration, in particular those to 
assure that the heating and cooling needs of lower income 
Americans are more adequately addressed and also those to 
foster the development of the most promising energy 
technologies.
    Second, we tried to select areas where in-depth policy 
analysis is important and where the direction, progress and 
level of the commitment by the Federal Government should be 
reexamined. In those areas, we tried to preserve our core 
competencies pending the recommendations which will be coming 
very soon from the task force that Vice President Cheney is 
heading up that is seeking to make recommendations to the 
President that will ultimately become the President's national 
energy policy. And in those areas we've maintained core 
competencies in a variety of areas but are frankly of the view 
that the budgets of the future should be governed by the 
policies that come out as a result of this effort.
    Finally, we tried to evaluate current Department of Energy 
programs and calibrated this 2002 request based on some 
specific principles which we think complement the President's 
blueprint, and which are tailored to improve management 
efficiency for the Department. Among those principles are 
ending redundant or obsolete programs, reducing private sector 
subsidies, increasing cost-sharing opportunities and trying to 
respect the Congressional policies of recent years for the 
operation of the DOE complex.

                             BUDGET REQUEST

    The Department's total budget for the 2002 request is $19.2 
billion, which represents a 2.3 percent reduction, or $456 
million below fiscal year 2001 appropriations levels. It is, 
however, a $275 million increase over the 2001 request which 
was submitted by the previous Administration in last year's 
budget.
    I'm getting the impression that the vote is coming. I don't 
know if we should take a break at this point.
    Mr. Skeen. Let's finish your statement.
    Secretary Abraham. Well, there's a few more pages here, 
sir.
    Mr. Skeen. Maybe we'd better go vote.
    Mr. Dicks. We have about five minutes now.
    Mr. Skeen. Mr. Peterson will be coming back. We're sorry to 
cut you short. I think we'd better go vote. I apologize.
    Secretary Abraham. No need to.
    [Recess.]
    Mr. Skeen. Go ahead.

                             BUDGET REQUEST

    Secretary Abraham. Thank you. Let me just begin with a 
quick recap of the total budget for the Department of Energy 
that we've submitted and as I said earlier, our request is for 
$19.2 billion. This represents about a 2.3 percent reduction or 
a $456 million below last year's final appropriation level. But 
it actually represents a $275 million increase over the request 
that was made a year ago in the President's budget submission.
    Interestingly, if you were to subtract the cost of 
construction projects scheduled for completion during the 2001 
fiscal year, and the funds which were provided for the Cerro 
Grande fire emergency, as well as one-time projects that had 
been directed by Congress, the final appropriation level of the 
2001 budget in comparison to our submission is actually only a 
$13 million difference. In short, the 2002 budget is virtually 
the same as the final appropriations level, if you eliminate 
the one-time only level components to that 2001 budget.
    The 2002 budget for fossil energy and energy conservation 
programs we believe provides a sound base from which to launch 
the President's national energy policy and proposes only those 
changes that we believe are justified now. The Interior and 
Related Agencies Subcommittee provides 8 percent of the 
Department of Energy's budget, and for programs within this 
jurisdiction we propose $1.6 billion for this year.
    Our 2002 request is .7 percent, or $11 million below fiscal 
year 2001 appropriations. However, it's $295 million above the 
fiscal year 2001 request and $385 million above fiscal year 
2000 appropriations.
    Let me just talk about a few components of the budget, then 
I'll be glad to answer questions. Energy sources within our 
fossil energy program, coal, oil and natural gas, supply 85 
percent of the Nation's total energy, nearly three-fourths of 
America's electricity and nearly all of our transportation 
fuels. This program supports critical research and development 
and includes two of the President's key initiatives, as 
mentioned by Congressman Dicks, the Clean Coal Power Initiative 
and the Northeast Home Heating Oil Reserve.

                      CLEAN COAL POWER INITIATIVE

    The President's Clean Coal Power Initiative would provide 
$150 million in Federal matching funds for innovations in coal-
fired power technology. This is the first installment on the 
President's ten year, $2 billion clean coal commitment. We 
believe industry is ready, willing and able to bring financial 
resources to the table for clean coal projects, and in fact, 
we've recently received 24 proposals for clean coal 
demonstration projects that will be funded right at the 
beginning of fiscal year 2002 as part of the current year 
budget authority.
    The Department has a history, I think, of conducting 
successful research in this area, and in fact, helped develop a 
new generation of coal burners that reduced smog causing 
pollutants, such as NOX. Today, nearly 75 percent of the 
Nation's coal-fired capacity uses low polluting combusters, 
first tested in the DOE. With your help, the President's 
initiative holds similar promise for the future.

                            ENERGY RESEARCH

    Research is obviously an important part of our energy 
program, and in addition to clean coal, we'll focus on several 
other promising technologies. Fuel cells, which generate 
electricity without combustion through electrochemical 
reactions similar to batteries; carbon sequestration projects 
that reduce greenhouse gases will be funded at a 10 percent 
increase over this year's appropriation, and emission controls 
for existing plants will be continued so that we can build on 
progress made over the past 30 years in reducing sulfur and 
nitrogen.
    However, as was noted in opening statements, our oil and 
natural gas research and development was cut substantially in 
this budget, and it's cut because we believe that the private 
sector possesses ample financial and technical resources for 
research, except in some areas of new production techniquesand 
in the prevention of damaged or aging gas delivery systems.

                          ENERGY CONSERVATION

    With respect to energy efficiency and energy conservation 
priorities, Mr. Chairman, our fiscal year 2002 budget will be 
directed to benefit consumers, with an emphasis on those least 
able to afford the high cost of energy. For example, we have 
shifted our emphasis away from those energy efficiency programs 
where we feel industry and others can share more costs, and 
toward President Bush's 10 year, $1.4 billion weatherization 
initiative. Our 2002 budget will nearly double the 
Weatherization program, thereby affording improvements to 
123,000 low-income family homes.
    Because of our commitment to increase weatherization 
assistance, we are shifting funding from other programs more 
uniquely applicable to commercial building and industry, 
because we believe that these parties can play a greater role 
in financing the research and conservation activities that go 
on with respect to their industry more so than the lower income 
families that are the target of our weatherization assistance.
    Transportation accounts for 67 percent of the Nation's oil 
use, and our vehicles remain over 95 percent dependent on a 
single fuel: petroleum. So through public and private sector 
partnerships, we will continue to seek to improve the 
efficiency of our vehicles.

              PARTNERSHIP FOR A NEW GENERATION OF VEHICLES

    The Partnership for a New Generation of Vehicles program, 
PNGV, was initiated in 1993 with one goal: building one type of 
fuel efficient automobile, the mid-size sedan. The current 
popularity of the sport utility vehicle and light trucks 
challenges the underlying premise of the PNGV program. Our 
budget will change PNGV to target resources for the development 
of fuel efficient components that can be adapted for use 
throughout our fleet of vehicles.
    We want this program to be more flexible for automakers, to 
greater benefit the taxpayers and to be more realistic in the 
face of today's diverse challenges. Our budget amendment will 
support the new PNGV program at $100 million.

                       21ST CENTURY TRUCK PROGRAM

    The 21st Century Truck program is a solid partnership with 
truck manufacturing and supplier companies that focuses on an 
area of great opportunity for efficiency gains, that is to 
develop fuel efficient heavy trucks and buses. We propose to 
maintain funding for this program at current levels.

                         DISTRIBUTED GENERATION

    Electric reliability and distributed energy resources can 
greatly enhance power reliability and power quality and can 
provide a strategic alternative to new transmission lines as we 
replace our aging electricity and natural gas infrastructure. 
For these programs, we recommend continued funding at this 
year's level of $47 million.

                   ENERGY INFORMATION ADMINISTRATION

    Finally, as for the Energy Information Administration, this 
budget maintains funding to support ongoing data and analysis 
activities in the redesign of surveys that assist the 
Administration and Congress in making informed energy policy 
decisions.
    Mr. Chairman, I thank you. You were kind enough to offer me 
the opportunity, and I would like to submit the fuller 
statement for the record and if that would be possible, I'd 
appreciate it. I look froward to trying to answer some 
questions for the Committee and working with you all.
    [The written statement of Mr. Abraham follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.175
    
    [GRAPHIC] [TIFF OMITTED] T2654A.176
    
    [GRAPHIC] [TIFF OMITTED] T2654A.177
    
    [GRAPHIC] [TIFF OMITTED] T2654A.178
    
    [GRAPHIC] [TIFF OMITTED] T2654A.179
    
    [GRAPHIC] [TIFF OMITTED] T2654A.180
    
    [GRAPHIC] [TIFF OMITTED] T2654A.181
    
    [GRAPHIC] [TIFF OMITTED] T2654A.182
    
    [GRAPHIC] [TIFF OMITTED] T2654A.183
    
    [GRAPHIC] [TIFF OMITTED] T2654A.184
    
    [GRAPHIC] [TIFF OMITTED] T2654A.185
    
    [GRAPHIC] [TIFF OMITTED] T2654A.186
    
    [GRAPHIC] [TIFF OMITTED] T2654A.187
    
                            GASOLINE PRICES

    Mr. Skeen. There's been a lot of concern over the last 
couple of weeks about the rapid rise in gasoline prices. What's 
causing this and how long do you expect it?
    Secretary Abraham. We try to maintain through the Energy 
Information Administration, a pretty close monitor on the 
inventories of gasoline production. As you may have noted in 
the media in the last day or so, the inventories have taken a 
sharp turn upward, which has already begun to translate into 
reductions in price. We see some of the spikes we experienced a 
few days ago beginning to recede.
    But I think we're going to see this pattern of price 
spiking continue throughout the months ahead, for reasons that 
have to do with a variety of factors that affect gasoline 
prices. Let me talk about some of those, based on our analysis 
at this point.
    First, obviously gasoline prices are a function of the 
overall supply of oil. I think it's become quite clear that in 
the last couple of years, the oil producing countries who work 
through the OPEC organization have sought to focus on 
production supply and production level variations to maintain a 
certain price or price range. We perceive that the cohesion of 
that effort will continue with an impact obviously therefore on 
supply.
    Because of that, the total supply of oil available for our 
refineries tends to shift from period to period, depending on 
the supply that's being made available in the market. Right 
now, at the March meeting of OPEC, as I think everybody knows, 
the decision was made to reduce supply by a certain level over 
the next few months. And we're seeing the first indication of 
that. There will be another meeting in June, and we'll see 
probably a revisitation of those issues.
    What that of course means is that other countries are 
putting their own interests first. I think it calls upon the 
United States and others who are in the oil consuming side of 
the equation to put our interests first, which in my mind 
certainly argues for greater production here at home.
    But there are other factors as well. It's not just the 
supply of oil that matters. We have a strained refining 
capacity in this country, the result of not having built a new 
refinery in America since about 1976. Now, overall I think the 
refining levels, the total amount of refined petroleum, is 
roughly the same if not a little greater than it was back at 
that point because of advances in technology.
    But the problem that the strained refining capacity results 
in is that we have these spike problems when something goes 
wrong. For example, as we make the transition during the spring 
from the production of home heating oil to gasoline products, 
there tends to be a lag. That tends to disrupt the supply, the 
available supply of gasoline, that helps to produce some of 
these price spikes we recently saw.And the same is true when we 
transition back to home heating oil, because with these refineries 
there isn't enough excess capacity to make that transition quickly.
    We also, because of the strained capacity of refineries, 
encounter serious challenges when there's an act of nature that 
affects one or more of these refineries. As everybody knows, in 
just the last few days, we've seen major problems in a refinery 
both in California and one I believe near St. Louis, because 
there's not an ability to quickly compensate for that, and we 
don't have a lot of excess capacity right now. The refineries 
are operating at 95 percent or better. There's going to be a 
reaction, the supply will be, at least temporarily, reduced.
    We saw it in Michigan, my home State, last summer. We had a 
pipeline burst near Jackson, Michigan, I think it was in June 
of last year. And it's a principal pipeline between the Chicago 
area refineries and the Detroit gas market. And for at least a 
couple of weeks, we had tremendous price spikes, because there 
wasn't excess capacity, either in the pipeline or in the 
refineries in the Detroit area to make up the difference.
    So there's a lot of factors. But at the end of the day, 
those are the ones that are the cause. We foresee price spikes 
throughout the months ahead. On a national average, we've 
estimated as of right now our Energy Information Administration 
estimates that we could see, on a national basis, average 
prices hit as high as $1.60 to $1.70. But that's a little bit 
misleading, because that's sort of a national average. Within 
specific regions, you're going to see much higher prices in 
certain parts of the country where these supply bottlenecks or 
an act of nature may have caused a special problem.

                            GASOLINE PROFITS

    Mr. Skeen. To what extent does your analysis of the current 
gasoline price situation suggest that oil companies or 
refineries or dealers are making large profits from the current 
price structure? Is there evidence of gouging?
    Secretary Abraham. Well, I think when the price of 
petroleum products is high, people make higher profit margins. 
But we will maintain vigilance at our Department and I think 
throughout the Executive Branch, to make sure that there isn't 
any collusion or gouging that occurs. This tends to be the 
charge whenever prices go up. We saw that last summer, and I 
know that the Federal Trade Commission did a very extensive 
study which was recently released that indicated that there 
really wasn't any basis for those charges. There were some 
incidents that were concerning, but nothing that rose to the 
level of price gouging.
    But we will maintain a high degree of focus on that, to 
make sure that doesn't happen. Again, I think when you've got 
the refinery problems, as strained as they are, all it takes is 
for a pipeline to burst, a refinery to have a fire, these sorts 
of acts of nature sometimes, and it can quickly disrupt the 
market.

    VICE-PRESIDENT CHENEY'S NATIONAL ENERGY POLICY DEVELOPMENT GROUP

    Mr. Skeen. Mr. Dicks.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    And Mr. Secretary, it's been noted that Mr. Cheney--when is 
he going to make his recommendation?
    Secretary Abraham. We expect it to be in about two weeks.
    Mr. Dicks. Do you want to say anything about that here 
today?
    Secretary Abraham. It would be premature for me at this 
time to discuss the report. We're still working on it and we 
had a meeting of principals yesterday to continue the debate. 
We're closing in on finishing that.
    Mr. Dicks. I thought it was rather unfortunate, it kind of 
came across in the media, and I realize all of us in public 
life can take a segment of what somebody says and it kind of 
makes it look like they completely didn't discuss the issue. 
But I thought it was somewhat unfortunate, and I notice that 
the Administration today is sending you to California, and 
talking about conservation at the Federal level, which I think 
is an important goal. I think we need to do everything we can 
to conserve energy and to set a good example, recognizing full 
well that, we need 1,300, 1,900 power plants, I guess, over the 
next 20 years, to meet demand.
    But in the short term, there's no doubt that conservation 
can play an incredible role. I can give you the numbers. At 
Tacoma Public Utility, for every 1 percent we reduce our energy 
utilization, it saves $3 million, so we don't have to go out 
and buy in to what some of us call the dysfunctional spot 
market on the west coast. That is a tremendous savings for that 
particular utility. Bonneville, of course, in our region, is 
making a major effort in conservation, trying to work with all 
the utilities, all the companies to not only curtail, some 
curtailment, but a lot of it is conservation.
    Don't you believe, as Secretary of Energy, that 
conservation in the short term has to be part of any solution?

                     CONSERVATION IN THE SHORT TERM

    Secretary Abraham. It is not just in the short-term, but in 
the long-term as well. I think that the American public may not 
fully appreciate the extent to which we've enjoyed efficiencies 
in recent years. I've seen statistics that indicate that even 
though the growth of our economy has been spectacular during 
the last decade, the intensity, the energy component of that 
growth has not been at the same level, indicating that we've 
operated our growing economy in a more energy efficient way.
    Just to give you some general sense of the challenge we 
have, right now the Energy Information Administration estimates 
that we used in this year somewhere in the vicinity of 98 quads 
of energy. Don't ask me to explain how that calculus takes 
place. But the projections over the next 20 years are that we 
will need, if things don't change, that we would need to expand 
that from 98 quads to 179.
    Now, we believe that through efficiency we can reduce that 
number substantially, perhaps by as much as 52 quads, from 179 
to 127. Most of that will be structural kinds of changes. But a 
fair amount of it can come about, I think, as a result of 
efficiency measures that are within our reach. That's a fairly 
optimistic but not an overly optimistic goal.
    That still leaves a large role to be played by increasing 
supply. But that leaves less increased need for supply than for 
demand reduction. You mentioned the Tacoma experience, and you 
and I had a chance to talk about the Puget Sound Electricity 
Company's----
    Mr. Dicks. And by the way, our utility commission approved 
their plant. That was a proposal before the Washington Utility 
Commission. And they approved it with pretty glowing accounts. 
You might want to describe that.
    Secretary Abraham. I was going to say, just for the benefit 
of the rest of the Committee, and maybe Congressman 
Nethercutt's also familiar with this approach, but I met 
recently with their team and they were explaining what they've 
done in the Seattle area, I guess, it's to develop ametering 
system that gives users a much more up to date, ongoing, real time 
understanding of how much they're paying and when they're using 
electricity, so that they can make informed decisions to bring down 
their costs. They've also offered literally, to buy down or rebate or 
literally pay users, if they will move certain functions from peak 
periods of the day to off-peak periods, such as washing dishes in their 
dishwasher or clothes in their washing machine.
    It's to me at least another new approach that has great 
potential for decreasing demand. It gives people the kind of 
price incentive, if you would, to do so. So I think there are a 
lot of technologies, I think this has a very important role to 
play. In this budget, as you are aware, we've focused primarily 
on the Weatherization component of efficiency, because we feel 
that unfortunately, those who are less affluent don't have as 
many options, when we're talking about high energy prices. 
That's why the President wanted to double the Weatherization 
budget, as at least an initial step in the direction of seeking 
more efficiencies.
    But we're definitely keeping a close watch on those kinds 
of innovations, the metering systems and that. I'm not sure 
how, at a Federal level, we would be able to move more 
communities in that direction, but at least letting more people 
know about it is the first step.

                    BONNEVILLE POWER ADMINISTRATION

    Mr. Dicks. The only other thing I wanted to mention, we do 
appreciate your support for the Bonneville Power 
Administration. Bonneville has been supported in our region on 
a bipartisan basis. We're going through a very difficult period 
in time there. But I am confident we'll work our way through 
it. And once we get through it, that is such an important 
entity to the economy of the Pacific Northwest. Congressman 
Nethercutt is a leader in our delegation, with Congressman 
DeFazio of Oregon, in working on kind of a Northwest strategy 
to protect Bonneville.
    But your approach to that has been very helpful and 
supportive, and we appreciate that. And that really, getting 
Bonneville through this next couple of years is crucial.
    Just one interesting thing. We built, in fact, in the 
Kennedy Administration, we built these inter-ties to 
California, so we could sell power to California during the 
summer and then they would send us power in the winter. Of 
course, right now in the drought and this whole terrible 
situation we're in, we're not able to do it. But the cost of 
that system was $600 million. It is estimated that every year 
we save $600 million because of that one investment.
    So trying to tie the country together so that we can move 
power around the country, which I know you're in favor of 
doing, to me makes eminent sense. This is something we've got 
to have a national strategy to do with that.
    Secretary Abraham. Well, I don't want to take too much time 
on that, because you made the point very well. But one of the 
issues that we've been looking at, both in the context of the 
Vice President's task force, but also in the Department is 
that, we built our electricity grid in this country at a time 
when for the most part it was a local power plant servicing the 
community. So that's kind of how it's structured. There isn't a 
national grid, it wasn't built for long haul shipment of 
electricity or for sales that went over long distances.
    So we really have three separate grids, and then within 
each of the three grids, we have areas that are disconnected 
from one another. This presents obviously serious problems when 
we're trying to move electricity when we face shortages in some 
parts of the country. We would like, for example, to be able to 
import more electricity to California from Mexico. The Mexican 
government, with whom I have had active discussions about this, 
is doing its best to try and make it possible for their plants 
in Baja to able to send more to the border.
    It turns out that on our side of the border, we can't take 
very much more and move it to San Diego. So that's the 
challenge that I think requires us to look months ahead to 
really re-examine where we need more transmission and what are 
the ways to both address the question of the building of those 
kinds of systems and then of course, there are siting issues, 
where we deal with State and local responsibilities. But it's a 
big challenge. Because if we had the ability right now, we have 
areas of the country with surplus electricity and we have 
California confronting shortages. I have asked our people, what 
can we do, can we move from one area to the other, and your 
bottlenecks prevent it.
    The same is true in New York City, where the way the 
system, the grid is set up, New York has a very limited 
capacity to bring in electricity from outside of the boroughs. 
So as this summer comes up and they've got a very small margin 
there between their demand and supply, any generation to offset 
blackouts and so on has to be generated by new generation in 
the city, which is a challenge. In other areas nearby, there's 
a surplus, but it's very difficult to get it in.
    Mr. Dicks. Thank you.
    Mr. Skeen. Mr. Peterson.

                            GASOLINE PRICES

    Mr. Peterson. Welcome, Mr. Secretary. I look forward to 
working with you.
    I come from an energy State where the first oil well was 
drilled, a State that also has gas and coal. So it's a very 
important issue in Pennsylvania.
    But I know there's a lot of concern about gasoline prices. 
But I think in gasoline prices, people have more options than 
they do with gas prices. You can car pool, you can not drive if 
it's not necessary. But when it comes to home heating and 
running businesses, you really don't have any options.
    My concern is the amount of gas that's committed to 
electric generation. Do we have a number of how much is coming 
on line each month?
    Secretary Abraham. You mean natural gas?
    Mr. Peterson. New power generation, what's the need?
    Secretary Abraham. I'll give you some numbers that I'm 
aware of. We project over the next 20 years, there's probably 
going to be an increase in electricity demand, even in spite of 
these efficiencies we're hoping to achieve, of 45 percent. 
That's a pretty conservative estimate. Because if we went back 
just the last couple of years, the growth rate has been even 
more than that type of increase.
    A 45 percent increase in electricity demand, if the current 
pattern of electricity generation continues, would almost 
exclusively be attained through burning natural gas. That would 
translate into something in the vicinity of a 62 percent 
increase in natural gas demand over the next 20 years. Now 
that's, I think, an alarming statistic, only because if we put 
all of our focus on just one energy source, it has many 
potential problems in terms of strategy.
    Number one, we don't have that much domestic natural gas to 
meet that increase. So we would find ourselves importing even 
more than we do today, which would, as we've seen withrespect 
to the importation of oil, place us in the situation where problems or 
instability in other parts of the world could affect our energy 
security.
    So I find that a very disconcerting trend. But it's 
nevertheless where we are headed based on the current 
preference for natural gas.
    Mr. Peterson. I guess I'm more interested in next winter 
and the winter after, because that's where we're at. I mean, 
and I don't think doubling home heating was projected for last 
year, the cost to heat homes last year in many parts of the 
country doubled. The cost to run high energy use companies 
sometimes more than doubled, so we had to buy so much peak 
price gas.
    So I think the temporary shortage of gas, and with new 
drilling, doesn't automatically put it in the pipeline, and we 
don't have an adequate pipeline system to get it where we need 
it. I guess I'm more concerned in the short-term about 
stabilizing gas prices than gasoline prices, in my view. I just 
think that was unanticipated.
    Do we have data, month by month, how many new generating 
plants are being hooked up?

                      NEW POWER GENERATING PLANTS

    Secretary Abraham. I would have to get you a specific month 
by month projection. But the one thing that's quite clear is we 
have not started, we haven't built a nuclear energy electricity 
plant since 1972. I don't believe there's been a coal generated 
electricity plant built since the early 1990s. I may be wrong.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.188
    
    [GRAPHIC] [TIFF OMITTED] T2654A.189
    
    [GRAPHIC] [TIFF OMITTED] T2654A.190
    
    Mr. Peterson. There's one designed in Pennsylvania. There's 
one ready to go.
    Secretary Abraham. But there's been very little, almost 
anything new coming on line is natural gas.
    Mr. Peterson. But I guess I think if we get too high a 
spike in natural gas prices, I think we can kill our economy 
quicker than anything. It will shut down many of our jobs. I 
have very, very high energy user companies who looked at more 
than doubled energy prices last winter. I had one major 
corporation who said they anticipate eating up all their 
projected profits, this is a global company, in energy costs 
last year, unanticipated energy costs.
    So I think the greater crisis for the moment, because we're 
going to force seniors out of their homes, and we're going to 
force small companies that have no options out of business or 
to be non-competitive. So I guess that's my immediate--is that 
a fair concern?
    Secretary Abraham. Well, I think it's a very serious issue, 
both short term and long term. One of the projections of our 
Energy Information Administration has been that because we've 
now had a sustained high level of price due to shortages, that 
the incentive for more development and for production for 
natural gas is going to go up and that you'll see, not 
surprisingly, the price then begins to come down as the supply 
level increases.
    But it takes a while, as you said. And we do have an aging 
infrastructure. We estimate that in order to meet the natural 
gas transmission and distribution requirements of the next 20 
years that we're looking at somewhere in the vicinity of 58,000 
miles of distribution and as much as a quarter of a million 
miles of transmission pipeline that needs to be constructed 
over the next 20 years to meet that challenge. As you said, 
some of the problem already is there today.
    Mr. Peterson. Getting on to the electric generation issue--
--
    Secretary Abraham. If I just could add one other point, as 
we also know, we have abundant natural gas supplies, very 
substantial ones, in Alaska, that have to be pumped back into 
the ground right now because we don't have another pipeline to 
bring it down to the lower 48 States. There's several proposals 
to build that pipeline, but that hasn't happened yet. So that's 
another factor that needs to be----
    Mr. Peterson. We are 85 percent self-sufficient in gas, at 
least.
    Secretary Abraham. I think we have a 10 percent, yes, right 
now, 10 percent import.
    Mr. Peterson. On the gas, the problem, isn't most of the 
electric problem just peaking? Don't, during a large percentage 
of the day, we have adequate capacity?

                              PEAK PRICING

    Secretary Abraham. Sure.
    Mr. Peterson. It's the morning peak and the afternoon peak 
or evening peak that's presenting trouble? Several years ago, I 
was part of negotiating a company to stay in Pennsylvania 
instead of going to a neighboring State. It was all over 
electric rates. I couldn't get the utility to give this company 
the rate they desired, they were a heavy power user.
    So we finally came up with a rate, our buying electricity 
by the hour. This company developed a software package and 
decided, at peak, they paid a lot of money. But in the middle 
of the night, their rate was really, really cheap, when 
electric goes to waste. But this company located in 
Pennsylvania because we developed this alternative way to 
purchase electricity.
    The disappointing side is that that utility company has 
never given that rate to anybody else. There's no incentive to. 
I forced them to do that one. But if we could figure out a way 
to incentivize our electric companies to sell power by the hour 
and get the load off of the peak, we would eliminate a lot of 
the need of growth of generation. We waste more power than we 
sell.
    Secretary Abraham. The point that I made in response to 
Congressman Dicks' comments that he and I talked about isthat 
one of the issues here is transparency. To the extent that users have a 
more clear understanding of how much they're using, when they're using 
it and how much it costs them versus alternative time frames, we can 
move, I think, from peak to off-peak times, at least to some extent.
    I think if there are incentives which are being offered by 
some utility companies now, and hopefully would be embraced by 
utility commissioners who regulate those approaches, I think 
that approach that you're outlining is something that's 
feasible. Certainly we have the technology available, whether 
or not we can get it into the market, so to speak.
    Mr. Peterson. But don't we have to figure out a way, 
really, when we stop and think about it, if you're the 
executive of an electric company, there's no incentive to do 
that. Because you're going to sell your power cheaper. There's 
really no incentive to veer from----
    Mr. Dicks. If the gentleman would yield for just a second. 
If you're in the situation we are in the West, when we go into 
a crisis point, well, there's a shortage and there's a spike in 
demand, or a spike in the price for electricity, when the 
supply and demand gets very close to being even, price 
accelerates. It will go from where it used to be, $25 or $35 a 
megawatt, to $400 or $500 or to $1,000 or $1,500 a megawatt. 
When people have got to have it, they've got to have it to meet 
the load.
    So that's the problem we've got out there.
    Mr. Peterson. Trying to avoid the peak.
    Mr. Dicks. And so if they don't have the power, and they 
have a duty to supply energy to their area, they've got to go 
out and buy it. Bonneville has to go out, legally required to 
go out and buy that power, or the utility has to go out and buy 
it at those rates, whatever they are, to take care of the load 
in their area. So they've got a tremendous problem, and at 
those prices, it's a disaster.
    Mr. Peterson. I had a rural cooperative years ago, they 
would give you a lower rate, and then they'd come into your 
home and they'd put on things that would shut off hot water 
tanks, certain things that would not run during that time, you 
could not use that electricity during that time. They'd come in 
and install those devices, and then you got a cheaper rate. 
That kept people off peak.
    But I guess somehow, to get people off peak, we have to 
somehow incentivize the system nationally, so that companies 
have an incentive to get people off peak.
    Mr. Dicks. If the gentleman would yield just briefly. Out 
in the Northwest, we've gone beyond conservation to 
curtailment.
    Mr. Peterson. I know that.
    Mr. Dicks. Companies are being forced to shut down. All the 
jobs, we're compensating them somehow, but it's not what you 
want. Every business in the Northwest is being asked to shut 
down voluntarily and work on a deal with Bonneville for their 
power. I don't know how long we can do that. That worries me a 
lot.
    Secretary Abraham. Just to put it in perspective, this is 
not just a short-term challenge, because again, I mentioned the 
45 percent electricity demand increase over the next 20 years. 
Regardless of what time of day it's being demanded, to meet 
that 45 percent increase will require this country to build 
somewhere between 1,300 and 1,900 new power plants over the 
next 20 years. If you think about it, that means more than one 
a week.
    So we're not talking about a small increase here, we're 
talking about--we haven't had that much new generation come on 
line in a single year since 1985.
    Mr. Peterson. But that's with an assumption that we 
continue to sell power like we're selling it, where many people 
do not pay more when they use high peak power.
    Mr. Dicks. Well, we've got a shortage.
    Mr. Peterson. I understand that. But this growth in 
electricity needs assumes the same marketing system we have, 
which gives me no incentive to use off peak power instead of 
peak power.
    Mr. Dicks. Better get these smart meters that we have at 
Puget Sound Energy. I recommend them.
    Mr. Peterson. I'd be interested in some response from the 
Department on the potential in lowering the peak need through 
incentives to companies. I mean, currently the pricing system, 
people don't care when they buy their power, it doesn't matter. 
There are demand meters, there are some companies where you pay 
some extra. But in reality, you don't pay a lot more for power 
at peak than you do at regular times. And if we could force the 
heavy users, or incentivize the heavy users off of the peak, I 
think we'd lower the demand, or lower the need.
    Secretary Abraham. I'm not sure by making power less 
expensive, it is going to decrease demand.
    Mr. Peterson. More expensive at peak, less expensive off 
peak.
    Secretary Abraham. Right. I'm not sure again whether the 
demand that we're projecting is price sensitive. But I don't 
know that.
    Mr. Peterson. I'd like an answer. Does that make any sense? 
If it doesn't, tell me. Just a thought.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2654A.191
    
    Mr. Skeen. Mr. Hinchey.

                    ENERGY CONSERVATION BUDGET CUTS

    Mr. Hinchey. Thank you very much, Mr. Chairman. I very much 
enjoyed that exchange. I think the gentleman from Pennsylvania 
frankly makes some very good points. Peak pricing has been 
shown to be a very effective tool to reduce energy consumption. 
If you reduce energy consumption, then you begin to obviate the 
need for the 1,300 or 1,900 new power plants, with all of the 
problems, such as the pollution and other residues that will 
accompany the building of such new power plants.
    So I think that the gentleman from Pennsylvania makes some 
very good points. I would hope, Mr. Secretary, that the Energy 
Department here at the Federal level would begin to look at 
some of these things. I think the Weatherization program is a 
terrific initiative, I think that what you're doing there is 
admirable, and will be very, very helpful, particularly as you 
pointed out a few moments ago, to lower income people who will 
find it most difficult to deal with situations of high priced 
power. Pricing is an incentive to conserve, unquestionably, 
it's been shown so over and over again. But the weatherization 
program that you're proposing is one that I applaud.
    But outside of the Weatherization program, the Department's 
conservation budget frankly is a disaster. It's just a total, 
complete disaster. You cut every single aspect of energy 
conservation below the previous levels. If you take out the 
weatherization increase, the true impact of the conservation 
budget is a cut of $180 million.
    I think that's just inexplicable. Why should we becutting 
energy conservation at a time when we are entering a period of an 
energy crisis? We are being told over and over and over again that 
we're in a period of energy crisis, led by California. Frankly, I think 
that it's a manipulated crisis, I think it's an artificial crisis, and 
it's a crisis that has been created by the energy companies largely.
    But these cuts make no sense. Can you explain in sort of a 
broad way why you're cutting all these programs?
    Secretary Abraham. I'd be happy to. I think that any effort 
to suggest that what California is facing this summer in terms 
of a shortage of electricity supply, to suggest it doesn't 
exist, I must say, we project the demand will be at least 5,000 
megawatts, or 10 percent higher than the peak supply periods. 
We're very concerned about what we think is almost a certainty 
of blackouts, the ISO who runs the system in California 
believes that that's the projection we're looking at, at 38 or 
more rolling blackouts.
    Mr. Hinchey. Well, I think that very well may happen. But 
energy demand in California over the course of the last decade 
has been half that. The increase in energy demand in California 
has been half that of the national average.
    Secretary Abraham. Right, which I think is ample proof that 
you can't look at this equation on just the demand side. When 
you don't build any additional supply side kind of approach, 
without building any new power generation in a number of years 
in the State, we can't conserve our way totally out of these 
problems. You have to have both increased supply and reductions 
in demands.
    Mr. Hinchey. Let's accept that. Let's accept that that's 
the case.
    Secretary Abraham. My point is very simple. I just don't 
want to lead anyone in California to think that in fact we 
aren't going to confront some pretty serious challenges this 
summer, because we are. I'm going out there later today to be 
with the Governor to try to deal with it.
    Mr. Hinchey. This is an interesting discussion, and I wish 
we could have it at greater length. I would hope that this is 
an issue that you would interest yourself in, which is the 
curious coincidence of deregulation followed by energy crisis. 
Whereas there was no crisis before deregulation, there is a 
crisis after deregulation.
    I think this is something that the Department of Energy 
ought to look at. But my question to you----
    Secretary Abraham. Let me address the question you asked, 
and if I could at the end of that, comment briefly on this 
other issue. With respect to this budget, we tried to analyze 
where we felt the Federal Government's principal focus should 
be with respect to efficiency and conservation.
    As you all have noted, and as I stressed, we felt, based 
not just on our own observation of the current costs that 
people are encountering with respect to energy prices, but also 
based on the President's commitment during the campaign with 
respect to addressing the problems of lower income Americans, 
we had a clear signal in terms of Administration policy on day 
one that we were going to make a major commitment to the 
Weatherization program that's reflected here by doubling the 
budget.
    Some of the other areas with respect to efficiency, a 
matter of fact, all of them, are subject to some of the ongoing 
work that we're doing with respect to the development of a 
national energy plan. But we had a finite amount of money to 
use. We made the decision that if we were going to make the 
kind of increase in support for lower income families for 
Weatherization that, as you will note, if you look at the 
numbers, it should be offset by reductions in programs where we 
believe the private sector, the oil and gas industries, the 
various industries that are part of our Industries of the 
Future program, were in a position to play a bigger role of 
cost-sharing and of their own independent, private research. We 
believe they have every incentive to want to lower their energy 
costs.
    So we haven't eliminated programs. What we've done is we've 
retained their core competencies. But we're basically of the 
view that these industries, who have enjoyed in the last 
decades, some pretty successful experiences, are in a position 
to pick up a greater share of the energy research, that 
responsibility. So that's really what the reflection is as of 
now, with the commitment to helping lower income Americans, and 
a belief that the private sector can do a bigger share of the 
energy research.
    Now, clearly, we could agree, I'm sure, that it would be, 
if we had an unlimited budget, that we could do more on both 
fronts. But within the constraints of the budget that we had, 
we chose to put more resources into helping less advantaged 
Americans, for the reasons I've just outlined, and to try to--
--
    Mr. Hinchey. Mr. Secretary, if I could respond to your 
response. We are not nationally in a period of deficits. We're 
in a period of record surpluses. We have plenty of money to do 
things which are appropriate in order to direct our national 
policy in ways which will be beneficial to the American public, 
which is our responsibility here, yours and ours.
    We ought to take some of that money and put it into the 
energy budget. That's a decision that the Administration should 
make, and I would hope that you would make that argument with 
them. We're all anticipating that the Vice President's energy 
policy, when it comes out in a couple of weeks or whenever it 
will be, will look at that very, very carefully. And we hope 
that it will be better than the policy which is reflected 
currently in the budget that the Administration is proposing.
    Because what you do is very, very damaging, or at least 
this budget is very, very damaging. You say you do not zero out 
any programs. Well, the fact of the matter is that you do. 
Energy efficiency Science, that initiative is zeroed out. This 
is a basic university led research, it's basic research done at 
the university level that industry has never done and there's 
no indication that they ever will do. That's a program that's 
zeroed out.
    The Cooperative Program with the States is zeroed out. 
That's a program that leverages and pools Federal and State 
research and ensures Federal and State cooperation to develop 
energy conservation between the Federal Government and the 
State. That money is zeroed out.
    And it goes on and on. If you look at the specific list of 
what you're doing here, Building Research and Standards 
Technology, cut 50 percent, Technology Competitive, cut 88 
percent, Residential Building Integration, cut 38 percent, 
Commercial Building Integration, cut 45 percent, 47 percent, 40 
percent, on and on and on. In some cases programs are zeroed 
out completely.
    How are we going to solve our energy problem when we know 
that the most readily available way to produce energy or tomake 
more energy available is to conserve that which we are using now?
    Secretary Abraham. Let me respond. First of all, we looked 
at these programs case by case, these decisions were made by 
career specialists in these areas based on the question of 
which programs had the strongest justification for full 
retention, partial retention and so on. The areas that you 
mentioned, the two that you mentioned that were zeroed out, we 
actually have carryover funds from the current budget that are 
going to be used to keep those programs going forward.

              PARTNERSHIP FOR A NEW GENERATION OF VEHICLES

    But there are some areas that, yes, let me just use some 
examples of our own analyses. And granted, within 100 days, 
we've only been able to analyze to a certain level. But for 
example, one of the areas that is substantially reduced, and I 
mentioned it in my comments, is the Partnership for a New 
Generation of Vehicles. This is an area where we have, in the 
last budget and the current fiscal year, spent about $143 
million. We're proposing a lower amount, about $100 million. 
This is not a case of a program that I'm not familiar with, 
this is one I'm very familiar with. As a Senator from Michigan 
I was a strong advocate for PNGV. It's very important to my 
home State.
    So we didn't have sacred cows here, we looked at every 
program, including ones that I had a special interest in to 
say, does the program as currently set up make sense. We found 
that in the PNGV program, since its inception in the early 
1990s, we discovered that the mission of the program was headed 
in a different direction than where the auto companies and 
vehicle manufacturers were headed, and that to continue to 
spend the money that we've been spending on the kinds of 
priorities that that program had, at least part of those 
priorities just wasn't going to translate into more fuel 
efficient or energy efficient vehicles.
    So those parts of the program we're not going to continue. 
That will save the taxpayers some money, about $40 million.

                            TURBINES PROGRAM

    Now, with respect to the turbines program, for instance, 
which we did take down from $31 million to zero, because the 
program ended, we developed the advanced turbine system, it was 
successfully completed. That was a certain size turbine.
    Now, the question is, do we need to spend more Federal 
money for the purposes of doing technology research and 
development on a mid-sized turbine. On its face, that sounds 
like perhaps a good idea. But I was struck by the fact, when I 
first took office, in my first week in office, that I received 
a communication from General Electric Company that indicated to 
me that with respect to California's problem, that they were in 
the process of manufacturing mid-size turbines, that they had 
backlogs for five years on their mid-size turbine division, 
were wondering if we could perhaps work with them to see if 
California wished to, if there was a way for emergency purposes 
to get some of these into production into California in time to 
help for the summer.
    The fact is that that mid-size turbine is already 
developed. There's back orders for five years of them. That's a 
$31 million program, the first generation ended, we chose not 
to continue with the second generation because that technology 
was already in the market.
    So now, that's the rationale for these decisions. I'm not 
suggesting that we----
    Mr. Hinchey. The rationale for one decision.
    Secretary Abraham. The rationale for one major decision.

                   WEATHERIZATION ASSISTANCE PROGRAM

    Mr. Hinchey. It may in that case be a good decision. That's 
a rather esoteric program. Frankly, I'm not familiar with it. 
The point, and I'm not prepared to argue that decision with 
you, but the fact of the matter is that when you go through 
your budget, every aspect of energy conservation and energy 
efficiency, from new building standards to the Weatherization 
Program is great. But what you also do is, you cut the program 
almost completely for standards in new buildings, to make new 
construction more energy efficient.
    What are we going to do, triple the Weatherization Program 
in the next budget, quadruple it after that because we haven't 
built energy efficient buildings in the first place, because we 
didn't fund that program properly?
    Secretary Abraham. We're going to continue our commitment 
to weatherization, Congressman. As I said, we've got a 
commitment the President's made to double the funding over a 10 
year period of time. I think we all are in agreement on the 
merit of doing that.
    The question that I think we have to decide is whether you 
may choose to decide to make different priority selections with 
respect to the subsidizing of industry technologies that I 
happen to believe the oil and gas industry and other industries 
can provide more financing for than they currently do.

                          ENERGY CONSERVATION

    Mr. Hinchey. They're not going to provide funding for 
energy conservation. It's not in their interest. It's in their 
interest for people to waste energy so they can sell more at 
higher prices. It's in the public interest----
    Secretary Abraham. I don't think it's in the aluminum 
companies' interest to have inefficient energy operations. I 
think that one of the problems----
    Mr. Hinchey. You said the oil and gas industry. I don't 
know about the aluminum industry. Maybe the Secretary of the 
Treasury will be able to do something about that. I don't know. 
But we're talking now to the Secretary of Energy.
    Secretary Abraham. Right, and I'm talking----
    Mr. Hinchey. The energy----
    Secretary Abraham. My suggestion, sir, is----
    Mr. Hinchey. Be able to reflect some of these----
    Secretary Abraham [continuing]. We can be able to make a 
decision to subsidize these corporate interests at a greater 
level or at the same level. I happen to think that we should 
not provide as much support, because I believe they will pick 
up the difference. I think they have every incentive----
    Mr. Hinchey. Not the oil and coal companies, or the gas 
companies----
    Secretary Abraham. Well, I don't see why they want higher 
costs.
    Mr. Skeen. Just a second. Your time has expired. You're 
getting into really deep water.
    Mr. Regula.

                            PM 2.5 EMISSIONS

    Mr. Regula. Thank you, Mr. Chairman. We're involved in the 
Centers for Disease Control upstairs, I appreciate the chance 
to get in. I'll be very brief.
    In fiscal year 1999, Congress encouraged the fossil energy 
research group to begin a multi-year comprehensive air quality 
monitoring and analysis program on PM 2.5 emissions. I 
understand that access to this data has been limited.
    What would it cost in fiscal year 2002 to develop a web 
based program to transfer these data to local and State 
agencies, EPA, the scientific community and any otherinterested 
public and private individuals? You may want to answer this for the 
record.
    Secretary Abraham. I might have to take that for the 
record, yes.
    Mr. Regula. It's a pretty complicated question.
    Secretary Abraham. I think it's something we can get an 
answer for.
    Mr. Regula. The PM numbers are important because it affects 
the ability of the community to expand its industrial base and 
a whole host of things flow from that. So I think it would be 
useful if you would put this in the record.
    [The information follows:]

                            M 2.5 EMISSIONS

    An additional $1,500,000 in FY2002 would be needed to 
develop a user-friendly analytical tool that will allow users 
to access, graph, visualize, download and interpret the ambient 
air data now being collected and be made available via the 
Internet to the scientific and regulatory community.

    My other question would be in the area of fossil fuel. The 
Vice President has indicated that we're going to depend on 
fossil fuel for some time into the future. I noticed your 
budget request for USGS geologic mapping has decreased by $6 
million. Obviously, mapping is important in locating fossil 
resources. Is there any reason for this reduction?
    Secretary Abraham. This is the Geological Survey?
    Mr. Regula. Yes, USGS.
    Secretary Abraham. That's not in my budget, sir.
    Mr. Skeen. That's over in Interior.
    Secretary Abraham. Yes, that's in the Department of 
Interior's budget.
    Mr. Regula. Okay. Lastly, clean coal. I noticed that the 
Vice President is talking about $2 billion in clean coal 
research. Do you intend to implement these programs?

                      CLEAN COAL POWER INITIATIVE

    Secretary Abraham. We do in this budget that we're 
presenting as a $150 million down payment toward a 10 year, $2 
billion investment in clean coal technology.
    As the Committee is well of course aware, in last year's, 
in the current fiscal year's appropriation, we began a power 
plant clean coal program, power plant initiative, with a $95 
million inclusion. That money actually doesn't become available 
until the very end of this fiscal year, literally the last day.
    So we are beginning the process now of basically looking 
for proposals, industry proposals, to partner with the 
Department to do research with those dollars. We've already 
received a substantial number, in fact, far more than the $95 
million we can provide in this year's to support.
    So we believe there's plenty of possibilities here for 
cooperative partnerships to improve clean coal technology. As 
everybody knows, the reserves we have with respect to coal in 
this country would allow the current coal-fired generation to 
continue for about 250 years. We believe that we have every 
incentive to find ways to keep that important component of our 
energy supply in place, but only if we can move forward in 
terms of reducing emissions and being able to provide that 
energy source in a cleaner fashion. We're committed to the $2 
billion 10 year program to do that.
    Mr. Regula. Thank you, and thank you, my colleagues.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.

                          INDUSTRY INCENTIVES

    Mr. Secretary, welcome, glad to have you here, sir. 
Following on the line of questioning relative to conservation 
and industry incentive to save, I can give you an example of 
just the opposite of the assertions that have been made here 
earlier. In my own district, the Avista Corporation, a private 
power utility company, is proud of its record of stable prices 
for years and years and years, and don't want to have price 
spikes. They're doing just fine.
    They're offering the same kinds of rebates and paybacks and 
incentives in information as Puget Sound Energy and other 
companies that are looking at this issue. There's a company 
called Isothermal Systems Research which provides spray cooling 
technology, with no Government money. They've received some 
Government contracts on the defense side, because they're 
putting spray cooling technology on the AAAV and the EA6B. It's 
going to be used defense-wide, in my opinion.
    They estimate they conserve at least 30 percent on the 
server farms of computer equipment. They haven't gotten any 
Government dollars with respect to that. They just have bright 
ideas and incentives in this time of energy challenge that we 
have.
    Itron is a company in Minnesota and Washington State that 
looks at monitoring household use of energy, and then provides 
that information to utilities, all in an effort to look at peak 
loads and lower peak loads and non-peak loads to try to save 
energy. So it's out there. I think you're doing the right thing 
with respect to encouraging private industry to do what it does 
best, and that's to be innovative.

                            HANFORD CLEANUP

    I want to mention to you a couple of things relative to our 
region of the State of Washington, Hanford in particular. I 
know the budget is not what we in the districts and the region 
want with respect to the waste treatment plant. I think you're 
off about $130 million, $190 million. There's been a plan year 
by year to clean up Hanford. It's a great challenge, that whole 
problem is. Doc Hastings has been very involved in this, along 
with Congressman Dicks and others who care deeply about Hanford 
and the cleanup there.
    I would ask you if you can, for the record or now, to think 
very carefully about having an annual expenditure that is 
consistent in order to reach the, I think it's 2007 target date 
to clean up and classify this waste treatment problem there at 
Hanford. I know there's some pressure being brought to put more 
money in the budget for that purpose.
    So if you care to comment, I'd be happy to have you 
comment. But if you want to do it for the record, that'sokay, 
too.
    Secretary Abraham. Well, maybe what I'd do is just give a 
general comment on environmental management programs within the 
complex. When I got to my job, I was given a fairly extensive 
briefing on what our plans were for cleaning up these once 
weapons manufacturing sites. The plan called for an 
approximately $300 billion to be spent over a 70 year period to 
clean up these sites.
    My reaction was I can't believe we would have to take that 
long, and are you kidding, was my reaction. Because it seems to 
me, if I lived in one of these communities, the notion that 
maybe my grandchildren would be able to live there without the 
contamination posing a health and safety risk seemed not right, 
not fair. We should do these programs quicker and safer.
    So what we're doing in the Department is this. I've asked 
for a top to bottom review of the way we do these environmental 
management programs, because I believe we can do a lot better. 
And I'll give you one clear example that proves it. At Rocky 
Flats weapons development site in Colorado, which probably 
everybody's familiar with, in 1994, the plan there to clean up 
that site was 70 years at approximately $38 billion, just for 
that one site. In 1997, a decision was made to go from a 70 
year plan to an expedited plan with the goal of finishing in 
the year 2006 or 2007.
    We are on track to finish it. And I think the previous 
Administration was part of making the decision to expedite that 
cleanup, deserves credit for making that decision, and we 
intend to continue to fulfill it. The cost from 1997 to the 
completion is only going to end up being about $7 billion or a 
little less. In short, almost $30 billion cheaper than had been 
the plan of 70 years.
    The reason for that is that if you extend these cleanup 
programs over long, long periods of time, doing a little bit 
each year, in some cases it's not even clear that we're making 
forward progress. At Hanford, which I'll comment on in a 
minute, we are. But to a large extent, the money is spent more 
or less to maintain things so they don't get worse. And the 
longer it goes, the more you have to spend on this type of 
maintenance.
    We've done two things. One, I've asked for a top to bottom 
review of the programs in this cleanup area, to see how many we 
can move from a very slow process to a kind of expedited 
process. Also, the President has nominated people directly 
connected to the Rocky Flats cleanup project, the woman who ran 
our Rocky Flats operations, to be our Assistant Secretary for 
Environmental Management; a gentleman who is the CEO, until 
recently the CEO of the contractor that's done this work, to be 
our Under Secretary in this area. Because I want to draw from 
that experience and make that more the model rather than the 
exception.
    I think it's not fair to either the taxpayers, but 
especially the people in these communities, to tell people, 
well, in 70 years somebody in your family, if they're still 
there, can enjoy these kinds of results. I keep saying, if we 
were a State instead of a Federal Government, we'd probably 
issue bonds, raise enough money to clean up the problems as 
soon as possible, and perhaps we'd pay it off over 70 years. 
But we wouldn't let it linger for 70 years. And yet, at too 
many of our sites, that's more or less where we're at.
    Mr. Dicks. That's not a bad idea. We have bonding authority 
in other aspects of the Federal Government. We may want to look 
at that.
    Secretary Abraham. I've included that as one of the kinds 
of topics to look at in this process, Congressman. I don't know 
how feasible it is to apply here. But it seems to me that it 
would be a lot more beneficial, and probably a lot less 
expensive, if we did cleanup swifter and more comprehensively. 
Because what we are doing is moving from one budget cycle to 
the next, as you indicated, Congressman Nethercutt, with 
changes in funding levels not necessarily everything a 
community has in mind, or perhaps would be justified, but 
because of budget constraints.
    In Hanford, we're spending $500 million to make forward 
progress on the vitrification facility. That's $220 million 
more than last year, but $130 million less, as you said, than 
what the community thinks we should spend in this cycle. Our 
goal is to still finish the vitrification facility by the time 
frame involved.
    But again, these are factors that end up being, where you 
have competition from site to site, members who represent these 
communities, several of whom are on the various Appropriations 
bodies are arguing no more money should be directed in our 
area. I think it would be to our advantage to have a kind of 
global plan instead of a site by site plan. But again, this may 
be hard to get consensus on. I'm going to certainly try to 
offer Congress some alternatives to the current approach.
    Mr. Nethercutt. I appreciate that. There is a triparty 
agreement in place and there are some rumblings about the State 
Attorney General suing and so forth. We're trying to prevent 
that by staying on schedule, make sure it gets cleaned up.
    On Hanford, I want to congratulate you on your decision on 
the FFTF, that 90 day review. I think there's great value there 
at that facility. I've visited it, and I think that was prudent 
on your part, to do it the way you've done it.
    And I'll stay close to the five minute rule by yielding 
back and thanking the Chairman. Unless you care to talk about 
FFTF any more.
    Mr. Skeen. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.

                            ENERGY STRATEGY

    Mr. Secretary, I want to join the chorus of concern over 
what we're told is going to be the content of the energy 
strategy to be released shortly. Because a policy that focuses 
almost exclusively on maximizing extraction and production of 
fossil fuels is going to keep us trapped and dependent on less 
efficient, costlier and more environmentally destructive forms 
of fuel consumption. It's short term oriented and I think it's 
going to be ultimately frustrated by the instability of world 
oil prices, which have ranged from less than $9 a barrel to 
over $34 a barrel just in the last four years.
    What I want to ask you to consider is a strategy that might 
enable us to balance the power that the OPEC cartel has 
currently. It seems to me we ought to put together an 
organization of petroleum importing countries, which would 
largely be the United States and Europe. The developed nations 
need to be able to come to the table in the same cartel-like 
fashion that the oil producing countries do currently, so we 
have a balance here in terms of the control over price and 
production.
    I'd like for you to look into that, and maybe tell uswhat 
the problems would be with what seems to be a fairly obvious and 
productive thing to do.
    The second thing I want to ask you about, unless you want 
to respond to that, after giving it some thought.
    Secretary Abraham. I'd be happy to respond at the end to 
that point.
    Mr. Moran. Good. Thank you.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Next thing, and still in the same line of thought with 
regard to what's going to be in this energy strategy, a lot of 
the opponents of opening ANWR, the Arctic National Wildlife 
Refuge, are going to argue that tightening the CAFE standards 
on more fuel efficient engines for automobiles and light trucks 
would save more gasoline than all the amount that could be 
economically extracted from ANWR and it would produce those 
savings a full six years before the oil would ever start 
flowing south.
    I want to know whether you agree or disagree with that 
observation. I assume you're well prepared to do so, because 
you know it's coming.
    The third thing, if you want to hold up on your responses, 
is I know that every one of my colleagues thinks weatherization 
is just the greatest thing since sliced bread, because it gives 
all these benefits to all our consumers directly, they can see 
it and we're providing it and it's great stuff. But 
weatherization has a payback of about seven years. Many of the 
research projects that are being cut by a total of 30 percent 
have paybacks at a rate of one or two years.

                      BUILDING TECHNOLOGY PROGRAMS

    Some of the things that Mr. Hinchey referred to, I have 
data here on the building technology programs. We put $300 
million into researching electronic ballast that produces over 
$2 billion, flame retention head of oil burners, that was an 
investment of $1 billion, produced $14 billion, supermarket 
refrigerator compressors, 2 to 14, low e-glass windows, half a 
billion, produced $4 billion in savings.
    Here we have a subtotal of the building technology 
programs, we invested $7 billion, and it produced over $51 
billion of savings, according to the General Accounting Office. 
It wasn't just them that did it, this was GAO's figures. The 
residential building codes, the commercial building codes, all 
of that, appliance standards, it has been extraordinarily 
successful. I can't understand why we are cutting back on that 
research, and why it has to be an either-or, when we've got 
$5.6 trillion of surplus coming in over the next decade.
    But this energy strategy of the Administration seems to be 
looking at the end use instead of the research into the 
conserving the source and making it more efficient. I have 
similar concerns in the clean coal technology. This Committee 
put $2.3 million of R&D money into that program. And it would 
produce minimum environmental impact, much cleaner solid fuels, 
and the burning coal was going to be much cleaner. And here 
it's zeroed out in this budget.

                            COAL IMPOUNDMENT

    And similarly, we've got a real problem with the 
impoundment of coal by coal companies. There's 3 billion tons 
of fine coal has been discarded in 700 impoundments across the 
country. Last October in eastern Kentucky one of them failed, 
it released 250 million gallons of coal slurry into the local 
streams and school yards. We put an initiative in there for 
advanced separation technologies that work, and yet apparently 
that's been cut out, too.
    So we have some problems with this budget and its 
priorities, and you can pick which one of those concerns you 
want to address in your answer, Mr. Secretary.

                            CONSUMER NATIONS

    Secretary Abraham. Congressman, thank you. First of all, 
with respect to the consumer nations and their ability to work 
together, I haven't had an opportunity yet to participate in 
some of these international conferences of these countries. The 
first is actually coming up next week, the International Energy 
Agency has a meeting, it's actually they meet every two years, 
I guess.
    And I intend at that time to try and get a better sense of 
the kind of work that that organization can do. Since its last 
meeting two years ago, I think there certainly has been a 
change in the cohesiveness of OPEC, a response obviously to the 
low prices, because when it was $9, things were very different 
for their equation.
    So it will be interesting, and I'd be happy to brief you 
after that, or to have your staff briefed on the results of 
those meetings, because the notion of dialogue between the 
consumer countries as well as between consumer and producer 
countries is something that I think we need to foster.
    But I don't think we should be under any delusions as to 
what the motives of the OPEC countries are, they put their 
interests first. And I think whether it's in the context of 
working together with other consuming nations or in our own 
right independently, we need to take the same philosophy with 
respect to both the production and the conservation and the 
other issues.
    The one thing that I think sends a strong signal, though, 
to the OPEC countries, is that we're going to seek a more 
diverse source of supply, whether it's in West Africa, where 
opportunities may exist, or it's in the Caspian, where 
opportunities may exist, or it's in the United States. I think 
as we send those signals, that changes everybody's equations.
    At the same time, I think we need to collaborate and see 
what other countries are thinking, and we'll do that soon.
    Mr. Moran. Particularly with the EU.
    Secretary Abraham. Right. That's in fact, the meetings are 
in Europe, and the EU nations are the principal participants in 
these conferences.

                     CORPORATE AVERAGE FUEL ECONOMY

    As far as ANWR and CAFE go, as you can imagine, if you've 
been a Senator from Michigan, you've worked on CAFE issues 
pretty much as a delegation, we're very united on these issues, 
Republican and Democrat, liberal and conservative and so on, 
because we appreciate what federally mandated changes in terms 
of fuel economy, what the impact has been over recent years.

                            FUEL EFFICIENCY

    Gannett News Service conducted a fairly extensive study of 
this independent of the industry and concluded that changes 
that were made to increase the fuel efficiency of vehicles in 
the 1970s resulted in safety risks in the 1980s and 1990s, and 
other considerations as well, such as the disparate impact on 
auto and light truck and so on purchases.
    There's a strong sentiment among at least some that changes 
in CAFE regulations, because of the way the calculation is 
made, sort of within the fleet calculation, would in fact only 
move American consumers to purchase foreign made vehicles as 
opposed to American made vehicles of the same sort, with 
roughly the same fuel efficiency.
    Because of these debates, we decided as a Congress, as you 
know, last year, to ask the National Academy of Sciences, as 
opposed to the partisan debaters, to make a thorough study of 
CAFE, looking not just at what was a fuel economy goal,but also 
considering safety and disparate impact on American versus foreign 
purchases. That study is forthcoming I think in July, I think. It was 
part of the appropriations process, it was sort of added to the annual 
moratorium that has existed.
    So I think that may give us some more information to be 
taken into account. Because obviously, when you consider fuel 
efficiency gains or conservation gains, you also have to figure 
out what the costs are. I think this study might answer some 
questions that have been debated with each side saying, no, 
it's going to be a safety problem or it's going to be a 
disparate impact on auto workers and who's going to get jobs. 
Maybe we'll find out more.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    The ANWR side of the equation is also, I think, in need of 
more investigation. Although even the most conservative 
estimates of the U.S. Geological Survey have indicated that 
there's 6 billion barrels of oil in ANWR, the other end of the 
extreme is 17 billion barrels, I think. The mean projection is 
somewhere around 11.
    People say, well, that's only six months worth of oil. 
Well, that's true, if every other source in the world ended, 
it's six months. But it translates into roughly 70 years or 75 
years of Kuwaiti imports, 19 to 20 years of Saudi imports at 
current levels, if you're in that mean level. So that is not a 
small part of the equation.
    Again, there's issues that have been raised about the costs 
in terms of environmental issues, the imprint that would be 
made. But the calculus now is that to extract from that area 
would be approximately 2,000 acres of 19 million. Putting that 
in perspective, 19 million acres is roughly the size of the 
State of South Carolina. Two thousand acres is about half the 
size of Dulles Airport.
    So we have to weigh, on the CAFE side, and I think some of 
these considerations. But as you know, the Secretary of 
Interior, in whose jurisdiction ANWR is, will be coming to the 
Hill on that issue, Secretary Mineta on the CAFE issues. On 
CAFE, I think that the results of the National Academy study 
should be looked at closely when it comes forward.

                   WEATHERIZATION ASSISTANCE PROGRAM

    In terms of weatherization, I would only say that our view, 
this is the view that the president expressed early in his 
campaign, as a matter of his campaign platform, his concern and 
ours is that where supermarkets have the capacity to pass along 
costs, people in less affluent circumstances don't. And so even 
though there may be a lower payback period, I guess our view is 
that the choices available to less fortunate Americans with 
respect to energy costs were ones that were limited, we didn't 
have the ability to spread those costs.

                              PNGV PROGRAM

    So that justifies, I think, our support. As I said earlier, 
in our conversation about these other alternatives, the ones 
that we targeted, and I outlined two of the biggest ones, PNGV 
and the turbines program, I think are very justified. I don't 
see, I just didn't feel it made sense, even though in my State 
the PNGV program is very popular, something I had advocated 
for, to continue it in the direction it was headed, at the same 
funding level or more, when at least a hunk of that program is 
simply not going to translate into any kind of new vehicle 
production or any more efficient vehicle, because the auto 
makers weren't going that way any more.
    So that's the kind of calculation, and obviously there's 
room for reasonable people to differ on what the priorities 
ought to be. These are the ones we decided to establish.

                            ENERGY STRATEGY

    Finally to your point on the comprehensive energy strategy, 
probably no unpublished, unwritten and unfinished report has 
received more criticism than the President's energy policy. I 
have to say that it would be my recommendation that everybody 
wait until we actually publicize and release his plan, after he 
decides, from a series of recommendations, that our task force 
will provide and which ones he's going to endorse. Then we 
should debate it, hopefully in a very positive kind of way, and 
have this discussion.
    Our goal from the beginning has been to have a balanced 
approach, balanced between needs for conservation and needs for 
increases in supply, balanced between needs for environmental 
sensitivity and needs for increasing supply, and balanced 
between the sources of supply. As we discussed earlier, to put 
all of our energy increase in terms of electricity production 
into one form of energy source, natural gas, could very easily 
place us in a position in a short period of time where we're 
increasingly dependent on imports of that commodity, and we'll 
be here discussing, as we discussed today, the oil supply 
issue. We'll be discussing the natural gas supply issue and our 
dependency.
    I think we need more balance. The goal of the task force 
has been to give the President some recommendations which if 
embraced would move in that direction. But in a couple of 
weeks, he and the Vice President will obviously be presenting 
it to the country and then I'm sure we'll discuss it more.
    Mr. Moran. Thank you, Mr. Secretary.
    Mr. Skeen. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.

                      CALIFORNIA ENERGY SITUATION

    Mr. Secretary, the California situation, what would be 
your, say, five lessons for other States to avoid the trap? As 
I understand it, the problem really wasn't that they 
deregulated, it was that they did not deregulate. They were 
almost the equivalent of being halfway pregnant. They could not 
decide if they were going to deregulate or not, because they 
had the worst of both worlds.
    Secretary Abraham. Well, I don't know if I can give you 
five answers. I'll tell you some of the things which we've 
observed that I think are challenges that every State has to 
focus on. One is this. Congressman Hinchey just mentioned that 
California has had great success with conservation, and they 
have. And they should be applauded, and we're going to be 
trying to add to that conservation effort at the Federal 
Government facilities in the State, even though we've already 
been doing some things.
    But all the conservation that they've done, leading the 
Nation, has not been enough to offset their demand increases. 
They haven't built new supply sources in a long period of time. 
So as demand has gone up, in spite of efficiencies and 
conservation by some 6,000 megawatts in the last few years, 
supply has actually gone down because some of their existing 
facilities, for a variety of reasons, went off track.
    Now, whether that's a regulatory problem, some say that it 
is, I can't answer in detail at this point. I mean, we haven't 
really spent our time trying to point the fingers of blame and 
so on. We've tried to figure out how we can be helpful.
    But it's clear to some extent it was simply a case of 
communities saying, we want more energy, we just don't want it 
here, we don't want to generate it here. We've had in just the 
last year, I think, in two separate communities inCalifornia, 
in one case a city council, in the other case voters in a referendum, 
who simply voted ``no'' on a new power plant, in cases where there was 
really quite strong support. I think in one community, as I understand 
it, the council voted 11 to 0 against the new plant, even though the 
support for the plant had been built to include the Sierra Club, the 
NAACP, the American Lung Association, a variety of other groups who 
said yes.
    So first and foremost, I think communities are going to 
have to take a much closer look at the demand issues and 
whether or not their conservation efforts are going to give 
them the ability to meet their demands. This didn't, in my 
judgment, happen, for a variety of reasons.
    Second, the deregulation plan that was undertaken, 
deregulated, as people know, the wholesale electricity side, 
the purchasing side, but it capped the prices that could be 
charged to folks on the retail side. That worked fine as long 
as wholesale prices were such as to allow the utility companies 
to sell with a profit. But as soon as the wholesale price 
market started to spiral because of shortages, because of 
natural gas shortages and other factors, then all of a sudden 
the equation shifted. Not being able to pass along the cost 
both affected the demand issue side of it, and also of course 
has placed one company in bankruptcy court and another in a 
fairly serious stage of distress.
    A third issue that I still don't really know the answer to, 
but a big part of this is that the wholesale, the purchasing 
strategy that the State operated under its ISO at the direction 
of the State utility commission, prevents it. This isn't 
statutory, this is a PUC decision, public utility commission of 
California decision that, I guess, prevented these utility 
companies from buying except on the wholesale spot market. So 
they weren't allowed to hedge their electricity purchases with 
long term-contracts, a mix of long-term and short-term 
contracts.
    So I guess for some time, that was smart, because the 
wholesale price was cheaper than the long term contract prices. 
But now that's started to change. My understanding is that even 
as late as last August, the PUC, I'm not sure who was on it at 
the time, but the PUC would not let the companies go forward 
with purchases on a long-term contract. For example, Sempra, I 
think, tried to purchase what would have been enough to cover 
the San Diego community area they represent, or that they 
cover, and were denied that opportunity because there was a 
belief that somehow the wholesale market would come down.
    It didn't come down, but the failure to allow the hedging, 
the balancing of their contracts for purchase was a huge 
problem. So that's another, I suppose, lesson that needs to be 
learned from their experience.
    So those are some of the factors that came into play. We've 
tried to look and see how we can be helpful rather than 
pointing fingers.

                          NUCLEAR POWER PLANTS

    Mr. Kingston. The reason that they were so opposed to 
building new power plants was because of environmental 
concerns, correct, generally. Now, in other countries, France, 
for one, they use lots of nuclear power. How long has France 
been using nuclear power and what percentage of their 
electricity, or power in general, comes from nuclear, 
approximately?
    Secretary Abraham. I don't know when their first nuclear 
facility was built. I'd have to get back on that. But I am told 
that their electricity generation is now about 70 percent 
dependent on it.
    [The information follows:]

                          French Nuclear Power

    France began producing electricity from nuclear power in a 
demonstration project in 1954. France's lack of significant 
reserves of fossil fuels had already highlighted the benefits 
of nuclear power as early as the late 1940s. As a result of the 
first oil shock, France embarked upon a major nuclear power 
plant construction program in the 1970s. France now ranks first 
in the world in terms of per-capita installed nuclear capacity. 
Nuclear energy provided 77% of French electricity production in 
2000, and 34% of that country's total primary energy resources.

    Mr. Kingston. Have they had nuclear accidents, industrial 
accidents? Have they had deaths, have they had contamination, 
have they had pollution, and how have the costs been?
    Secretary Abraham. My understanding is that they've had a 
very successful track record on the issues of safety. Nuclear 
energy electricity generation obviously is a very clean form of 
generation, cleaner than the other sorts of choices that we at 
leave have major commitments to in this country, I mean, 
natural gas or coal.
    My understanding is that the French have had a very 
successful system.
    Mr. Kingston. In terms of natural gas and coal, do you have 
any idea how many people die each year in power plants?
    Secretary Abraham. I really don't, no.
    Mr. Kingston. We have deaths on a regular annual basis in 
those plants, correct?
    Secretary Abraham. I would be happy to try to get you that. 
I'm sure there have been fatalities.
    [The information follows:]

Accidental Deaths in Nuclear Power Plants vs. Conventional Power Plants

    The U.S. Department of Energy (DOE) tracks the number of 
fatalities, injuries and illnesses associated with work 
activities at DOE Headquarters and field operations. The 
Department-wide information is maintained by DOE's Office of 
Environment, Safety and Health. The Department does not 
maintain records for non-DOE occupational fatalities. The 
Department of Labor's Bureau of Labor Statistics is the 
official Federal agency responsible for collecting fatality, 
injury and illness data for workers in the United States. 
However, at our request, BLS conducted a search of their data 
base and were not successful in identifying the specific 
information requested for accidental deaths of workers in 
nuclear, coal, and gas power plants.

    Mr. Kingston. I'm just wondering, in terms of the nuclear 
power plant versus conventional, if their safety records are 
better in terms of worker safety, not just environmental.
    Secretary Abraham. I think that the concern on the nuclear 
energy side has been accidents that would go beyond work force. 
But we've had some fairly significant changes that have 
transpired here in the last 30 or so years that we built the 
last reactor. It's been about 29 years. We've had a 
concentration of ownership. When the facilities were originally 
built, basically it was local utility companies building or 
deciding to go into the business. We have 103 remaining 
facilities, I suppose there were more at one time.
    But probably somewhere you had less able people, maybe less 
knowledgeable people, certainly the wealth of knowledge has 
grown over that time. But now we have more consolidation, which 
means that we have, with that concentration comes I think a 
stronger talent base in terms of operating safely. We've gotten 
through the Nuclear Regulatory Commission's efforts, 
concurrence on safe designs. In fact, the standardized 
approach, as opposed to what we used to have, both here and 
elsewhere, where people came up with new designs, liners and so 
on. Had to speculate in the licensing process of whether this 
design, one design would be as effective as the other.
    So I think we're in a much stronger position today with 
respect to the safety issues, whether it's the extension of 
existing facilities or it's the potential for adding to the 
group. I think before we get to that stage, there's the issue 
of dealing with nuclear waste.
    Mr. Kingston. Can you maybe get somebody in your department 
to send to this Committee or at least this member some of the 
other industrial countries that are using nuclear power? I'd 
just kind of like to know what percentages, you say France is 
70 percent, just sort of what other, maybe the top 10, and what 
are they doing with their nuclear waste.
    [The information follows:] 
    [GRAPHIC] [TIFF OMITTED] T2654A.192
    
     [GRAPHIC] [TIFF OMITTED] T2654A.193
    
                       SAVANNAH RIVER ECOLOGY LAB

    Then I want to switch to a budget question that is 
certainly provincial. But it has to do with the Savannah River 
ecology lab which was set up in 1951 to monitor potential 
contamination because of the Savannah River plant. That small 
lab, which is a University of Georgia run lab with a DOE 
contract, even though DOE isn't funded by this Committee, that 
was part of a reduction of about a $2 million out of an $8 
million annual appropriation. They do a lot of work, which your 
Department has historically relied on and praised. And I think 
it might be something that you need to, I would request you 
look at. If you'll just submit that for the record.
    Thank you, Mr. Chairman.
    [The information follows:]

               Savanna River Ecology Lab Budget Reduction

    I have challenged every program in the Department to become 
more efficient, and the Environmental Management budget request 
reflects this challenge. I am also initiating a management 
assessment to evaluate our current clean-up strategies and to 
identify ways to become more efficient.
    The Department's highest priorities for the Environmental 
Management program are ensuring safety, addressing high risk 
waste and materials, and supporting the closure of major sites. 
Accordingly, in developing our request for FY 2002, we have 
placed priority on a number of key, high-risk projects at the 
Savannah River site and have had to balance the needs of other 
activities funded by the EM program in light of these 
priorities.
    The Department values the independent environmental 
research provided by the University of Georgia. Our request 
continues support for the basic research programs at the 
Savannah River Ecology Laboratory, but the education and public 
outreach programs may need to be cut back, depending on the 
outcome of the of the management assessment and the response of 
the Savannah River Site to my management challenge.

    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Your NNSA team is doing a good job 
upstairs before Energy and Water, so sorry, I'm bouncing back 
and forth. A little plug here, on Wednesday, May 30th, here in 
Washington at the Hyatt, the Tennessee Valley Technology 
Corridor is hosting a forum on the national energy policy as it 
develops and as it is brought out. I appreciate your comments 
on everyone's interest and speculation about what the 
recommendations may be.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    There is a lot of talk, though, about ANWR. And I would 
throw in my two cents worth and say that three principles need 
to be followed as we look at ANWR. First, it needs to be a last 
resort. And I say that because everything is relative. I know 
in my part of the world, if gas gets to $3 a gallon, a whole 
lot of environmentalists are going to be asking me to go up 
there and start drilling, wherever and however, because gas is 
going up fast.
    And I'll tell you, there's not an issue that affects us 
more in our offices than the rising cost of gas prices. I was 
at home for Easter for two weeks, and I went all over, even in 
the middle of 24 American men and women in uniform being 
detained in China, and all these international incidents and 
everything, and all I kept being asked was, ``what are you 
going to do about the rising cost of gas?''
    So it needs to be a last resort, but I can tell you, 
there's a point at which a whole lot more people that are 
against it today are going to be for it. So the second 
principle is we need to use the best possible technology in the 
world today, and it needs to have oversight and involvement 
from stakeholder types, so that we do the best job we possibly 
can of being good stewards of the environment while we move 
into an area like that, if it must be done.
    And third, and this is the part that I raised with 
Secretary Norton last week, as the co-chairman of the House 
Energy Efficiency and Renewable Energy Caucus, 175 members 
strong, we've got Congressman Mark Udall from Colorado and I 
are co-chairmen, I would say that we need to really, seriously 
look at royalties, and I know leasing kind of typically goes to 
the State, like Alaska. I know that Senator Murkowski is very 
powerful.
    But I also believe that royalties from any drilling in ANWR 
should go to renewable energy and energy efficiency programs so 
that the six major sources of power that you talk about in your 
speeches can be balanced up somewhat. Because nuclear is 
basically zero. Coal and gas are real high, but coal is coming 
down, gas is going up.
    As you look at these different sources, energy efficiency 
and renewables would be a tradeoff for drilling in ANWR, much 
like Land and Water Conservation Fund is a tradeoff for 
drilling in the Gulf of Mexico. We really need to seriously 
explore doing that if we must, and we're looking for new 
sources, and you've identified how much oil we can actually 
produce there. If we do it, let's put the revenues from it into 
these programs that make us less dependent on foreign oil, make 
us less dependent on coal, make us less dependent on fossil 
sources.
    So I would advocate there, and then make this statement as 
I throw the ball to you and have you comment. If our country, 
this is where I'm excited about energy efficiency and renewable 
energy from a technology standpoint, if our brilliant country 
does for energy technology over the next 10 years, in this time 
of need, what our brilliant country did for the world on 
information technology over the last 20 years, we will soar 
like an eagle economically and environmentally. We will serve 
the world and ourselves if we will do for energy technology 
what we did for information technology, and we have the 
capability, we have the Microsofts out there. If we do that, we 
will soar like an eagle. And it's time that we rise to that 
challenge and make this a priority.
    Thank you, Mr. Secretary.
    Secretary Abraham. The only comment I would make is that 
the issue of ANWR was raised as part of a question from 
Congressman Moran, and it's really in the jurisdiction of the 
Interior Department. I don't want to overstep my portfolio too 
much.
    But I would note that your point with respect to royalties 
is one that is in fact contemplated in the President's budget. 
We share that opinion as to what might be a way to take 
advantage of benefits for the purpose of advancing research in 
renewables in the future.
    Mr. Wamp. Thank you, Mr. Chairman.

                NATIONAL LABORATORY PARTNERSHIP PROGRAM

    Mr. Skeen. Mr. Secretary, the National Laboratory 
Partnership Program was terminated in the budget request. 
Wasn't this program fully developed, would you explain what you 
have proposed?
    Secretary Abraham. My understanding is that the work will 
continue in other parts of the program, that which is being 
reduced. That's my understanding, but I would be glad to check 
on that and get back to you, sir.
    Mr. Skeen. I'd appreciate it if you would.
    [The information follows:]

          National Laboratory Partnership Program Termination

    With regard to the National Laboratory Partnership Program, 
the requested FY 2002 budget for oil technology research and 
development (R&D) included the elimination of this specific 
line item. The Oil Technology budget is $66.9 million in FY 
2001 and the FY 2002 request is $30.5 million. This budget 
level no longer justifies a separate line item for this work, 
which parallels our technology line items. Any future National 
Laboratory R&D will be pursued within technology line items in 
Oil Technology. Future mechanisms for work with National 
Laboratories will be determined based on funding levels and 
types of research needed. In FY 2001, the National Laboratory 
Partnership Program had a budget of $7.4 million, which funded 
twenty-nine peer reviewed R&D projects.

    Mr. Hinchey?
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Mr. Secretary, I really enjoyed this discussion, I hope 
that you have, too. I think the President is very well----
    Secretary Abraham. Well, I look forward to seeing you 
again, Maurice. [Laughter.]

                    ENERGY CONSERVATION BUDGET CUTS

    Mr. Hinchey. Well, I certainly am looking forward to seeing 
you, Mr. Secretary, on a host of occasions, because I think we 
have an awful lot of work to do here, and I think that the 
President is well served in you. I think you've done a very 
good job here today, from the Administration's point of view.
    But I think you've also gotten some very good advice. I was 
particularly intrigued by the advice you got from Mr. Wamp just 
a few moments ago, the gentleman from Tennessee. I noted that 
you didn't respond very much to his advice, but I hope that you 
will take it to heart. You say that you're interested in energy 
conservation research, and you also say that you're interested 
in balance, in your approaches to energy in the Department.
    But at the same time, what do we see in the budget? 
Building Research and Standards funding is cut by half in your 
budget request. The Federal Energy Management Program is cut 
almost in half, a 48 percent cut. Industry sector research, cut 
by 41 percent. Transportation research, cut by 23 percent. The 
Congressionally established Energy Efficiency Science 
Initiative, cooperative programs with the States, 
completelyeliminated. Overall energy efficiency research is cut by $180 
million.
    So this is not a balanced approach. It is completely 
unbalanced. It's way out of balance. It's an approach that is 
wholly one-sided. And it's just not going to stand.
    I think that there are men and women on this Committee who 
are determined to see a much more balanced approach. If the 
Committee wants to wait until the Vice President's energy 
initiative comes out, and we're very interested in that, we 
want to see it, and we'll pay strict attention to it. But what 
you're giving us so far is an expression of the 
Administration's priorities. The budget document is the 
clearest, most articulate, most precise expression of 
priorities that any executive puts forward, whether it's in the 
private sector or from the White House.
    What you've told us is that you have no regard for energy 
conservation or energy efficiency, that you're zeroing it out, 
dramatically cutting it. So I think you've gotten some very 
good advice here today, and I hope that somebody is listening.
    I also want to emphasize something that Mr. Moran said, 
which I hope you will look at more carefully. I know that 
you're from Michigan and you served that State, sir, admirably 
and well for a number of years. As a result of that experience, 
you're very familiar with the automobile industry and the CAFE 
standards.

                     CORPORATE AVERAGE FUEL ECONOMY

    But the point that Mr. Moran made about CAFE with regard to 
energy efficiency and conservation I think is a very important 
one. You juxtapose CAFE against ANWR, and what we find is that 
to increase energy efficiency for light trucks and SUVs, just 
those vehicles, by 15 percent, which would mean increasing the 
mileage by about 3 miles per gallon, you get back every bit of 
energy that you would get from tapping ANWR. ANWR is going to 
be a political hot potato. More so in the Senate, as you know. 
You know those people over there very well. More so in the 
Senate than it is in this House, it will be easier for you in 
this House, even though many of us are going to fight you hard 
on it. But over in the Senate, it's going to be very hard on 
you.
    You can produce the same amount of BTUs by increasing the 
efficiency of light trucks three miles per gallon, 15 percent. 
So I hope that these are things that you will consider very 
carefully.

                                  WTO

    There's another aspect of the OPEC story which I hope that 
the Administration will look into as well. All of the OPEC 
countries, I believe all of them, except Saudi Arabia, and 
they're looking to get in, are members of the World Trade 
Organization. They are all in violation of trading standards. 
Every single one of them is in violation. The Administration 
ought to take that to the WTO, aggressively, and go after those 
people very aggressively. I hope that that's something that the 
Administration will do. Some of us here in Congress are looking 
at that prospect, doing something along those lines as well.
    So there's a lot of opportunities that are open for us. 
You've got a tough job, and you are just seeing the beginning 
of it in California, where some very sophisticated, intelligent 
people have gamed that marketplace unmercifully. They have 
taken the price of energy in California from $7 billion to $70 
billion. All of that extra money has gone into their pockets. 
It's the biggest con game that we've seen in this country since 
the Roaring Twenties, since the days of the robber barons.
    And this administration really ought to be on top of that, 
because there are a lot of people who are looking at it closely 
and carefully. You certainly have not heard the end of it. As 
Mr. Kingston says, you and I are probably going to be seeing a 
lot of each other over the course of the next couple of years.
    Secretary Abraham. Well, I'm looking forward to it. 
[Laughter.]

                     CORPORATE AVERAGE FUEL ECONOMY

    Secretary Abraham. I am looking forward to it. Let me just 
make a couple of points. First of all, with regard to CAFE, and 
again, I think it's, the issue here, as I said before, we 
really should see what comes out of this study which the 
Congress agreed to do. It was, I think, a compromise between 
people who on the one hand wanted a moratorium to continue and 
those who wanted to move forward with the Department of 
Transportation's responsibilities and came up with that as a 
middle ground last year.
    But I just think, before we leave that issue, the one point 
that I didn't make earlier that needs to be stressed is that 
the market drives things sometimes far faster than the 
Government does. If you look in today's paper, you'll see that 
there's a story, I think it may have been in the Washington 
Post, that the new hybrid vehicles that are being offered in 
increasing numbers, by both foreign as well as now domestic 
makers of automobiles, are backlogged. People can't get enough 
of them.
    The public responds to these crises in ways that are faster 
than the Government does, sometimes. One of those responses is 
in that area. I would indicate that I was a supporter, with 
Senator Levin, of the idea of tax credits, so that people would 
buy more energy efficient vehicles. We don't need tax credits 
to get people to make these decisions. The State of Arizona 
discovered that, I think, as well. Because the demand is going 
to be for more fuel efficient vehicles, and I think the auto 
makers are going to be moving that way quicker.
    In fact, I was struck not too long ago, when after the 
debate over CAFE, Ford Motor Company almost immediately 
announced they were ready to come out to the market with this 
hybrid of theirs by the year 2003. So I think we're going to 
realize some fuel efficiencies, even swifter than a DOT 
inspired mandate would bring about. And it will be done in a 
way I think that will be safer, because these kinds of 
production technology changes are much safer when they're 
planned in response to market demand than when they're 
mandated.
    But at the same time, I would just say this. If we're going 
to talk about balance, then it really does have to be on both 
sides of the equation. I'm not at all hesitant to support the 
notion of more conservation in the future. I mentioned earlier 
the statistics. We've got to, we hope we can bring the demand 
increase from an 81 quad increase, which is almost a 50 percent 
increase, to a 30 quad increase over the next 20 years, which 
would mean only a 30 percent increase just through conservation 
and efficiency.
    But the other side has, I think, just as people are 
advocating fuel efficiency standards that are stronger, I think 
there also has to be advocacy for finding more supplies. We 
need to find a ground where people don't rule one side out or 
the other. I think our national plan will do that.
    But I do look forward to working with everybody here 
andconfronting these issues together in the years ahead.

                          ENERGY CONSERVATION

    Mr. Hinchey. Well, we look forward to working with you. I 
just want to mention one other thing. That is that if we had 
kept in place the energy efficiency and alternative energy 
initiatives that came about as a result of the last energy 
crisis in the 1970s, if we had kept them in place after 1981 
instead of wiping them out, which is what essentially happened, 
our energy situation would be much different today. We have 
squandered probably gigawatts of energy over the course of the 
last 30 years, 20 years, as a result of the fact that we walked 
away from all of those efficiency standards that were issued 
and put in place in the 1970s.
    It's time we went back to them. It's time we went back to 
recognizing that energy sources are limited. They're not 
unlimited. They're very much limited. And we need to use our 
energy much more wisely than we have in the past. The best way 
to do that is through alternative energy and energy 
conservation.
    That's why we're so upset with the budget proposal that 
your Department has put forth. Because it is so aggressive in 
dealing with alternative energy and energy conservation, 
cutting those programs.
    Secretary Abraham. I would just say in response, for the 
last number of years, the focus has been almost exclusively on 
the other side of this equation, on efficiencies and on 
renewables and trying to invest more in those areas. I'm not 
arguing that some of that investment wasn't valid, it is. But 
we find ourselves as a result of that focus confronting the 
largest energy crisis we've had in the country since the 1970s.
    So that approach maintained into the future as the 
exclusive approach to me at least wasn't very justified either. 
So I think that we can find common ground, with an emphasis 
that's legitimate on both the issues that relate to alternative 
sources and conservation, but also adding to the equation a 
recognition that all of that alone is still not going to avoid 
the kinds of demand increases that we confront.
    Again, I just want to for the record reiterate, as I 
mentioned earlier, there are a number of decisions that have 
been made relative to programs that I think I would be very 
happy to submit additional support for, but which I think are 
justified. The notion that we would keep going forward with 
programs where there isn't going to be an application to me is 
not fair to the taxpayers.
    Now, maybe there's new areas of innovation out there that 
we should be looking at, and we'll look forward to doing that 
together.
    Mr. Hinchey. Well, our point is that you're walking away 
from proven areas, areas that have saved us over the course of 
the last decade $50 billion in energy. You're walking away from 
them.
    Secretary Abraham. Walking away from the partnership for a 
New Generation of Vehicles was not an easy step for me to take. 
But walking away from that part of it that would never 
translate into a market application, it was pretty easy to 
decide.
    Mr. Hinchey. That' one example, but not----
    Secretary Abraham. Well, it's $41 billion of the dollars 
you've been talking about, which is a pretty healthy 
percentage.
    Mr. Hinchey. That's a small piece, it's not the best 
example. It wasn't the most productive, by far. There are many 
other areas of energy efficiency, energy conservation, which 
have been shown to be much more effective. I mentioned many of 
them in the course of our discussion here over the last couple 
of hours. You haven't addressed any of those. But you chose to 
focus on this one particular one.
    That's fine. I recognize that as a good debating tactic. 
But the fact of the matter is that you've got all of these 
other aspects which you have not paid attention to, and that 
you need to.
    Just one last thing, Mr. Chairman.
    Mr. Skeen. Let's cut it off, then.
    Mr. Hinchey. Do you want to call an armistice, Mr. 
Chairman? There's a lot more to discuss. I hope that we will 
have opportunities to discuss it in the future.
    Secretary Abraham. I've said that several times. And I'm 
not here to debate. I'm here to discuss, and I'm not using 
debating tactics. I've tried to outline in the turbines 
program, I've tried to outline in the transportation program 
and others the rationale for these decisions. These weren't 
made arbitrarily.
    And again, at the end of the day, we did make a decision, 
perhaps it's disagreed with by others, but it was one we felt 
was justified as we analyzed who the principal beneficiaries 
were of some of the research we were conducting, that those 
beneficiaries, the industry partners, could play a greater 
role. And this budget reflects that decision, and the decision 
to, as we made them play a greater role, provide assistance to 
less fortunate Americans who can't play a greater role.
    And that's what's driven the policy here to this point. But 
obviously, we'll have the Cheney Task Force results and we'll 
have further discussions. I'm sure this budget process is not 
going to be completed immediately, and there will be other 
opportunities to discuss priorities. But I look forward to 
doing that, thank you.
    Mr. Skeen. Mr. Nethercutt.

                            ENERGY STRATEGY

    Mr. Nethercutt. Thank you, Mr. Chairman, and Mr. Secretary. 
For the first time in eight years, an Administration has come 
forward with a plan, an energy plan, an assessment of where 
we've been and where we're headed, and thank goodness you've 
done it. I didn't hear this outcry for the last eight years 
about lack of a plan. And finally, we have a plan, at a time 
when we need a plan desperately.
    So I urge you to dismiss this hyper-criticism about a 
dollar here or a dollar there. I think you're going to balance 
it out. Congress is going to make you, frankly, balance it out 
right and it's going to end up right. But at least we're going 
to have a plan as to where we're headed in the future. I thank 
you for doing that.

                    PACIFIC NORTHWEST AND CALIFORNIA

    The other thing I want to mention to you is, with respect 
to California and the Pacific Northwest, we've got a horrendous 
problem out our way. I would argue to you that the Pacific 
Northwest is paying for California's misdeeds, their 
misjudgments. At a time when the rest of the world is 
privatizing energy, California is making it public. They're 
buying up transmission, locking themselves into terrible 
commitments long term.
    So as one member from the Northwest, I can assure you, we 
don't want to have to pay for California out our way, and we're 
doing it now, frankly, with respect to Bonneville and our 
obligations, and the statements and commitments that have been 
made from the Northwest down, wheeling power south.
    So I urge you, this is a tough balancing act. When you're 
buying back power through BPA, you're also affecting the rural 
communities of my State and the other four western States that 
are involved in this, at least. The aluminum companies also 
need consideration. But so do the preferences that are under 
the law with respect to PUDs and co-ops and privates. So it's a 
tough balancing act.
    But I urge you to be thoughtful about our obligation to 
bail California out of their problem. They've done it 
miserably, and frankly, we up north are not anxious to do that 
any more than we've already done it. So I thank you for your 
time and thank you for your energy, no pun intended, but your 
effort to help us. Thank you.
    Mr. Skeen. Mr. Kingston.

                 ENHANCED ULTRA-CLEAN FUELS INITIATIVE

    Mr. Kingston. Thank you, Mr. Chairman.
    I wanted to ask about the enhanced ultra-clean fuels 
initiative. That was one that I think you all had said that had 
been kind of spotty, that was a new initiative. Where do you 
see that heading?
    Secretary Abraham. I think our view is that the new low 
sulfur fuel standards for gasoline, diesels and so on that are 
going to be required of the producers and are going to drive 
those producers to do the kind of research needed here, and 
that we really don't need a Federal Government incentive at 
this point, if there's going to be lower sulfur content 
requirements in diesel fuels, for example, that that's going to 
cause industry to have all the incentive that's needed to meet 
these objectives. That really we don't necessarily have to play 
as big a role in the Government.
    Mr. Kingston. I agree, and one reason I wanted to ask you 
that question is, the philosophy seems to be in Washington that 
if we, the Federal Government, big brother, end up not doing 
research, then it's not going to be done, as if the private 
sector hasn't thought about energy efficiency. Do they get tax 
credits for this kind of research?
    Secretary Abraham. The private sector? Well, there's the 
R&D tax credit obviously.
    Mr. Kingston. Should that be expanded?
    Secretary Abraham. I'd support making it permanent. I 
believe that's the position of the President.

                        PRIVATE SECTOR RESEARCH

    Mr. Kingston. That's something that I think is just under-
discussed in this whole dialogue of energy policy, is let the 
private sector do the research. They can do it better than us, 
they can do it more exact; and they're not subjected to the 
political whims of what is popular and what isn't.
    I guess on that, I just want to encourage you guys to push 
that sort of thinking, because that is a good example--why 
should we be doing it if the private sector is going to be 
doing it anyhow. And in that, do you have a dialogue with them? 
Do you talk to them and say all right, look, you folks need to 
be investing your own dollars in this?
    Secretary Abraham. Well, as I've indicated I think today in 
describing some of the programs decisions we've made, we've 
attempted in the brief period of time that we've been here to 
try to look at some of the larger programs to get a sense of 
where the industries are going and whether or not our research 
is really in concert with where the future of the various 
industries are.
    We haven't had a chance to deal with every single industry 
in the country, but we're trying to get a sense of what their 
missions are, because it really is our opinion that, as I said, 
with the partnership for a New Generation of Vehicles, if we 
concluded that there's not going to be any ultimate application 
in the market of the technologies we're spending money on, then 
certainly, even though it's a very good, positive joint 
venture, it doesn't make sense for the Federal Government to 
continue to provide its support for the industry's investment.
    Mr. Kingston. I appreciate it, Mr. Secretary.
    Mr. Skeen. Mr. Wamp.
    Mr. Wamp. I just want to thank the Secretary for his 
courage in taking over an embattled agency and making it 
better. So we'll be working with you on improving the 
Department of Energy and thank you very much for your excellent 
start, Mr. Secretary.
    Mr. Skeen. We're adjourned. Thank you very much.
    [Questions for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T2654A.194
    
    [GRAPHIC] [TIFF OMITTED] T2654A.195
    
    [GRAPHIC] [TIFF OMITTED] T2654A.196
    
    [GRAPHIC] [TIFF OMITTED] T2654A.197
    
    [GRAPHIC] [TIFF OMITTED] T2654A.198
    
    [GRAPHIC] [TIFF OMITTED] T2654A.199
    
    [GRAPHIC] [TIFF OMITTED] T2654A.200
    
    [GRAPHIC] [TIFF OMITTED] T2654A.201
    
    [GRAPHIC] [TIFF OMITTED] T2654A.202
    
    [GRAPHIC] [TIFF OMITTED] T2654A.203
    
    [GRAPHIC] [TIFF OMITTED] T2654A.204
    
    [GRAPHIC] [TIFF OMITTED] T2654A.205
    
    [GRAPHIC] [TIFF OMITTED] T2654A.206
    
    [GRAPHIC] [TIFF OMITTED] T2654A.207
    
    [GRAPHIC] [TIFF OMITTED] T2654A.208
    
    [GRAPHIC] [TIFF OMITTED] T2654A.209
    
    [GRAPHIC] [TIFF OMITTED] T2654A.210
    
    [GRAPHIC] [TIFF OMITTED] T2654A.211
    
    [GRAPHIC] [TIFF OMITTED] T2654A.212
    
    [GRAPHIC] [TIFF OMITTED] T2654A.213
    
    [GRAPHIC] [TIFF OMITTED] T2654A.214
    
    [GRAPHIC] [TIFF OMITTED] T2654A.215
    
    [GRAPHIC] [TIFF OMITTED] T2654A.216
    
    [GRAPHIC] [TIFF OMITTED] T2654A.217
    
    [GRAPHIC] [TIFF OMITTED] T2654A.218
    
    [GRAPHIC] [TIFF OMITTED] T2654A.219
    
    [GRAPHIC] [TIFF OMITTED] T2654A.220
    
    [GRAPHIC] [TIFF OMITTED] T2654A.221
    
    [GRAPHIC] [TIFF OMITTED] T2654A.222
    
    [GRAPHIC] [TIFF OMITTED] T2654A.223
    
    [GRAPHIC] [TIFF OMITTED] T2654A.224
    
    [GRAPHIC] [TIFF OMITTED] T2654A.225
    
    [GRAPHIC] [TIFF OMITTED] T2654A.226
    
    [GRAPHIC] [TIFF OMITTED] T2654A.227
    
    [GRAPHIC] [TIFF OMITTED] T2654A.228
    
    [GRAPHIC] [TIFF OMITTED] T2654A.229
    
    [GRAPHIC] [TIFF OMITTED] T2654A.230
    
    [GRAPHIC] [TIFF OMITTED] T2654A.231
    
    [GRAPHIC] [TIFF OMITTED] T2654A.232
    
    [GRAPHIC] [TIFF OMITTED] T2654A.233
    
    [GRAPHIC] [TIFF OMITTED] T2654A.234
    
    [GRAPHIC] [TIFF OMITTED] T2654A.235
    
    [GRAPHIC] [TIFF OMITTED] T2654A.236
    
    [GRAPHIC] [TIFF OMITTED] T2654A.237
    
    [GRAPHIC] [TIFF OMITTED] T2654A.238
    
    [GRAPHIC] [TIFF OMITTED] T2654A.239
    
    [GRAPHIC] [TIFF OMITTED] T2654A.240
    
    [GRAPHIC] [TIFF OMITTED] T2654A.241
    
    [GRAPHIC] [TIFF OMITTED] T2654A.242
    
    [GRAPHIC] [TIFF OMITTED] T2654A.243
    
    [GRAPHIC] [TIFF OMITTED] T2654A.244
    
    [GRAPHIC] [TIFF OMITTED] T2654A.245
    
    [GRAPHIC] [TIFF OMITTED] T2654A.246
    
    [GRAPHIC] [TIFF OMITTED] T2654A.247
    
    [GRAPHIC] [TIFF OMITTED] T2654A.248
    
    [GRAPHIC] [TIFF OMITTED] T2654A.249
    
    [GRAPHIC] [TIFF OMITTED] T2654A.250
    
    [GRAPHIC] [TIFF OMITTED] T2654A.251
    
    [GRAPHIC] [TIFF OMITTED] T2654A.252
    
    [GRAPHIC] [TIFF OMITTED] T2654A.253
    
    [GRAPHIC] [TIFF OMITTED] T2654A.254
    
    [GRAPHIC] [TIFF OMITTED] T2654A.255
    
    [GRAPHIC] [TIFF OMITTED] T2654A.256
    

</pre></body></html>
